1
                         Organizational Chart                       Office of Inspector General


                                      Inspector General



                   Counsel to the             Deputy
                     Inspector           Inspector General
                      General




                   Legal Assistant                                          Assistant Inspector
                                        Assistant Inspector
                                        General for Audits                      General for
                                                                              Investigations


                                       Audit               Audit          Senior                Senior
                                      Manager             Manager      Investigator          Investigator


                                       Audit               Audit          Senior                Senior
                                      Manager             Manager      Investigator          Investigator


Assistant to the                                 Audit                            Investigator
                     Administrative             Manager
  Inspector
                        Officer
   General
April 1, 2009 - September 30, 2009
                                                                     OFFICE OF
                                                                     INSPECTOR
                                          U.S. Securities
                                          and Exchange
                                                                     GENERAL
                                           Commission
                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                                     CONGRESS
                                     MISSION
                                        The mission of the Office of Inspector General (OIG) is to promote the integrity, efficiency,
                                     and effectiveness of the critical programs and operations of the U.S. Securities and Exchange
                                     Commission (SEC). This mission is best achieved by having an effective, vigorous and inde-
                                     pendent office of seasoned and talented professionals who perform the following functions: !


                                     •"     Conducting independent and objec-               •"   Offering expert assistance to improve
                                            tive audits, evaluations, investigations,            SEC programs and operations;
                                            and other reviews of SEC programs
                                            and operations;                                 •"   Communicating timely and useful
                                                                                                 information that facilitates
                                     •"     Preventing and detecting fraud, waste,               management decision making and the
                                            abuse, and mismanagement in SEC                      achievement of measurable gains; and
                                            programs and operations;
                                                                                            •"   Keeping the Commission and the
                                     •"     Identifying vulnerabilities in SEC sys-              Congress fully and currently informed
                                            tems and operations and recommend-                   of significant issues and developments.
                                            ing constructive solutions;




                                                                                        3
4
U.S. Securities and Exchange Commission

                                                                                  SEMIANNUAL
                                                                                  REPORT TO
                                                  Office of
                                                 Inspector
                                                  General
                                                                                  CONGRESS
                                           CONTENTS
                                          MESSAGE FROM THE INSPECTOR GENERAL!..............................................................1

                                          MANAGEMENT AND ADMINISTRATION!........................................................................5
                                                 Agency Overview!................................................................................................................5
                                                 OIG Staffing!........................................................................................................................5

                                          CONGRESSIONAL TESTIMONY, BRIEFINGS AND REQUESTS!....................................7

                                          THE INSPECTOR GENERAL’S STATEMENT ON THE SEC’S MANAGEMENT AND
                                          PERFORMANCE CHALLENGES!...................................................................................13
                                                 Conducting Adequate Enforcement Investigations!............................................................13
                                                 Conducting Adequate Compliance Examinations!.............................................................14
                                                 Procurement and Contracting!...........................................................................................15
                                                 Information Technology Management!...............................................................................16
                                                 Performance Management!...............................................................................................16

                                          ADVICE AND ASSISTANCE PROVIDED TO THE AGENCY !..........................................19
                                                 Procedure for Addressing Manager Requests to OIT for
                                                 ! Access to Employee E-mail Accounts and Other IT Support!...........................................19
                                                 OIT and OIG Collaboration to Address HSPD-12 Requirement
                                                 ! for 2009 FISMA Submission!...........................................................................................19
                                                 Advice Concerning OIT Electronic Data Retention Procedures!..........................................20
                                                 OIT Implementing Instruction on Preservation and Destruction of Electronic Mail!..............20
                                                 Review and Revision of Processes and Procedures for the Release
                                                 ! of OIG Investigative Reports under the Freedom of Information Act!.................................21
                                                 Office of Equal Employment Opportunity Guidance on
                                                 ! Leveraging Diversity Competency!...................................................................................21




                                                                                                          5
SEMIANNUAL REPORT TO CONGRESS   AUDITS AND EVALUATIONS!.........................................................................................23

                                    OVERVIEW!................................................................................................................23
                                        Audits!...............................................................................................................................23
                                        Evaluations!.......................................................................................................................24
                                        Audit Follow-up and Resolution!........................................................................................24

                                    AUDITS AND EVALUATIONS CONDUCTED!.............................................................24
                                        Review and Analysis of OCIE Examinations of
                                        ! Bernard L. Madoff Investment Securities, LLC (Report No. 468)!.....................................24
                                        Program Improvements Needed Within the
                                        " SEC’s Division of Enforcement (Report No. 467)".............................................................31
                                        The SEC’s Role Regarding and Oversight of Nationally Recognized
                                        ! Statistical Rating Organizations (NRSROs) (Report No. 458)!...........................................37
                                        Review of the SEC’s Compliance with
                                        ! the Freedom of Information Act (Report No. 465)!............................................................43
                                        Audit of the Office of Acquisitions’ Procurement and
                                        ! Contract Management Functions (Report No. 471)!.........................................................47
                                        Management Alert - Microsoft Premier Support Services Contract (Report No. 469)!.........49

                                    PENDING AUDITS AND EVALUATIONS!...................................................................51
                                        Review of the Commission’s Processes for Selecting
                                        ! Investment Advisers and Investment Companies for Examination!...................................51
                                        Assessment of Interagency Acquisition
                                        ! Agreements to Improve Efficiency!...................................................................................52
                                        Audit of the SEC’s Information Technology Investment Process"........................................52
                                        2009 Federal Information Security Management Act Assessments!...................................52
                                        U.S. Securities and Exchange Commission’s FY 2009 Financial Statements".....................53
                                        FY 2009 Assessment of Sensitive Payments!....................................................................53

                                INVESTIGATIONS!..........................................................................................................55

                                    OVERVIEW!................................................................................................................55

                                    INVESTIGATIONS AND INQUIRIES CONDUCTED!...................................................56
                                        Failure of the SEC to Uncover Bernard Madoff’s Ponzi Scheme"........................................56
                                        Disclosures and Assurances Given in Connection with
                                        ! Acquisition of Investment Bank!.......................................................................................78
                                        Violations of Standards of Ethical Conduct With Regard to
                                        ! Official Government Travel by Managers in the Fort Worth Regional Office!......................79
                                        Retaliation by Senior Officers in a Regional Office!.............................................................80
                                        Misuse of Position, Government Resources, and Official
                                        ! Time in a Regional Office and Headquarters !...................................................................82
                                        Possession of a Weapon Inside SEC Headquarters!..........................................................84




                                                                                                   6
                                       Participation in Fraudulent Scheme by Contract
SEMIANNUAL REPORT TO CONGRESS          ! Employee Using SEC Resources!....................................................................................85
                                       Assistance with the Operation of a Ponzi Scheme by
                                       ! Former SEC Employee Using SEC Resources!................................................................87
                                       Allegations of Failure to Conduct Timely Investigation
                                       ! in the Fort Worth Regional Office!....................................................................................88
                                       Misuse of Government Computer Resources !...................................................................89
                                       Allegation of Unauthorized Disclosure of Non-Public Information!.......................................90
                                       Allegation of Conflict of Interest by Senior SEC Official!......................................................91
                                       Allegation of Abuse of Authority !.......................................................................................91
                                       Other Inquires Conducted!.................................................................................................92

                                   PENDING INVESTIGATIONS !....................................................................................95
                                       Allegation of Conflict of Interest in an Enforcement Investigation!........................................95
                                       Allegations of Numerous Procurement Violations!..............................................................95
                                       Allegations of Unauthorized Disclosure by Former
                                       ! Employee and Improper Enforcement Investigation!.........................................................96
                                       Allegations of Failure to Vigorously Enforce Securities Laws!..............................................96
                                       Complaint of Investigative Misconduct by Various Enforcement Attorneys!........................96
                                       Allegation of Abusive Behavior and Other Improper Conduct!............................................97
                                       Allegation of Procurement Violations!.................................................................................97
                                       Allegation of Failure to Maintain Active Bar Membership!....................................................97
                                       Allegations of Conflict of Interest and Investigative Misconduct!.........................................97
                                       Complaint Concerning Unauthorized Disclosure of
                                       ! Non-Public Information Obtained from a Commission Database!.....................................97
                                       Complaint Concerning Obstruction of Justice!...................................................................98
                                       Allegations of Failure to Investigate!...................................................................................98
                                       Allegation of Negligence in the Conduct of an Enforcement Investigation!..........................98
                                       Whistleblower Allegation of Falsification of Contract Documents!.......................................98
                                       Allegation of Retaliatory Investigation!................................................................................99
                                       Allegation of Misuse of Resources and Official Time!..........................................................99

                                REVIEW OF LEGISLATION AND REGULATIONS!........................................................101

                                STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS!..............103

                                REVISED MANAGEMENT DECISIONS!.......................................................................103

                                AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS!...............................103

                                INSTANCES WHERE INFORMATION WAS REFUSED!................................................103




                                                                                          7
SEMIANNUAL REPORT TO CONGRESS   TABLES
                                      1!   List of Reports: Audits and Evaluations!.........................................................................105
                                      2!   Reports Issued With Costs Questioned or Funds Put to
                                      !    Better Use (Including Disallowed Costs)!........................................................................107
                                      3!   Reports With Recommendations on Which
                                      !    Corrective Action Has Not Been Completed!.................................................................109
                                      4!   Summary of Investigative Activity!..................................................................................117
                                      5!   Summary of Complaint Activitiy!....................................................................................119
                                      6!   References to Reporting Requirements of the Inspector General Act!............................121



                                Appendix A: ! Testimony of H. David Kotz, Inspector General of the
                                !             Securities and Exchange Commission, Before the
                                !             United States Senate Committee on Banking,
                                !             Housing and Urban Affairs!....................................................................125

                                Appendix B: ! Testimony of H. David Kotz, Inspector General of the
                                !             Securities and Exchange Commission, Before the
                                !             United States House of Representatives Subcommittee
                                !             on Oversight and Investigations, Committee on Financial
                                !             Services!................................................................................................149




                                                                                           8
                                                       Message from the
SEMIANNUAL REPORT TO CONGRESS

                                                       Inspector General
                                                      I am pleased to present the U.S. Securities and Exchange Commission (SEC)
                                                      Office of Inspector General’s (OIG) Semiannual Report to Congress for the
                                                      period of April 1, 2009 through September 30, 2009. This report is required
                                                      by the Inspector General Act of 1978, as amended, and covers the work per-
                                                      formed by the OIG during the period indicated.

                                     The reporting period was a very busy and productive one for the OIG. On August 31, 2009, we
                                completed a 457-page Report of Investigation on the “Failure of the SEC to Uncover Bernard
                                Madoff ’s Ponzi Scheme.” The report was the culmination of a nine-month long investigation into
                                the numerous examinations and investigations that the SEC had conducted of Bernard Madoff
                                (Madoff), and his firms over a nearly 20-year period. The investigation was conducted by a team of
                                just six OIG attorneys, and incorporated the review of approximately 3.7 million e-mails and 140
                                testimonies or interviews. The investigative report was the result of the extraordinary efforts of this
                                six-person OIG team who were incredibly devoted to this important project, and completed a re-
                                markable amount of work within a very short period of time.

                                     The report concluded that the SEC received more than ample information in the form of de-
                                tailed and substantive complaints over the years to warrant a thorough and comprehensive examina-
                                tion and/or investigation of Madoff and his firms for operating a Ponzi scheme, and that despite
                                three examinations and two investigations being conducted, the SEC never conducted a thorough
                                and competent investigation or examination of Madoff. We found that between June 1992 and De-
                                cember 2008 when Madoff confessed, the SEC received six substantive complaints that raised sig-
                                nificant red flags concerning Madoff ’s hedge fund operations and should have led to questions about
                                whether Madoff was actually engaged in trading. However, we found that the SEC’s examinations
                                and investigations of Madoff were inadequate and failed to take the basic steps necessary to uncover
                                the Ponzi scheme.

                                    Shortly after the issuance of the Madoff report, on September 10, 2009, I testified before the
                                U.S. Senate Committee on Banking, Housing and Urban Affairs about the Madoff investigation. In
                                that testimony, I summarized the report we had conducted and provided recommendations about
                                how to reform SEC operations.

                                    In addition to the 457-page comprehensive investigative report that described in detail the
                                investigations of Madoff conducted by the SEC’s Division of Enforcement (Enforcement) and the
                                examinations by the SEC’s Office of Compliance Inspections and Examinations (OCIE), on Sep-
                                tember 29, 2009, we issued two audit reports in which we provided 58 concrete and specific recom-
                                mendations to the SEC to improve the operations of Enforcement and OCIE. Enforcement and
                                OCIE have concurred with all 58 recommendations and have already begun making the necessary
                                improvements to ensure that they are able to detect fraud more effectively in the future. We plan to



                                                                                 1
SEMIANNUAL REPORT TO CONGRESS   follow up to ensure that all 58 recommendations are implemented in full and report back to the
                                Congress on the status of these efforts. We also intend to conduct a follow-up audit to determine
                                if the changes to OCIE’s and Enforcement’s operations are having the desired and appropriate
                                effect.

                                    Although we devoted significant resources during the reporting period to Madoff-related
                                investigations and audits, we also conducted numerous additional investigations and audits.

                                    On August 27, 2009, we completed an important review of the SEC’s oversight of Nationally
                                Recognized Statistical Rating Organizations (NRSROs). We found that several improvements
                                were needed to ensure compliance with the Credit Rating Agency Reform Act of 2006 (Rating
                                Agency Act) and the SEC’s implementing regulations and to enhance NRSRO oversight. Our
                                audit report made 24 concrete recommendations designed to ensure compliance with the
                                NRSRO application approval process established by the Rating Agency Act, improve the effec-
                                tiveness of OCIE’s NRSRO examination program, and augment SEC oversight of credit rating
                                agencies.

                                    During the reporting period, we also issued both a Management Alert and full audit report on
                                the SEC’s Procurement and Contract Management functions, in which we identified significant
                                risk areas, which hindered the SEC from having an effective and efficient procurement and con-
                                tracting operation. We provided numerous recommendations designed to address the deficiencies
                                we found.

                                    We also issued a report reviewing the SEC’s compliance with the Freedom of Information
                                Act (FOIA) and found that improvements were necessary to ensure that the public receives
                                documents to which they are entitled under the law in a timely, complete and transparent man-
                                ner. We made recommendations to reverse what we found to be a presumption in favor of with-
                                holding, rather than disclosing, information through the SEC FOIA process, and to ensure that
                                FOIA requesters receive fair and unbiased reviews during FOIA appeals.

                                    Further, in addition to the Madoff investigative report, we issued 12 other comprehensive in-
                                vestigative reports during the reporting period on a variety of critical matters, including the un-
                                authorized disclosure of non-public information, abuse of authority, ethical conflict of interests,
                                retaliation against whistleblowers, various fraudulent schemes operating within the SEC, and the
                                misuse of position and resources.

                                    I also testified at another hearing on July 13, 2009, before the U.S. House of Representatives
                                Committee on Financial Services’ Subcommittee on Oversight and Investigations on the subject
                                of an investigation report that we issued during the preceding reporting period concerning the
                                securities trading of SEC Enforcement attorneys. In this testimony, I described our year-long in-
                                vestigation of these Enforcement attorneys, which encompassed a comprehensive review and
                                analysis of more than two years of brokerage records, ethics filings, securities transaction filings,
                                and e-mail records, as well as interviews of numerous current and former SEC employees. I also



                                                                              2
                                discussed the SEC’s decision to revamp completely its current process for monitoring SEC em-
SEMIANNUAL REPORT TO CONGRESS   ployees’ securities transactions based upon our findings.

                                    I am very proud of the extraordinary accomplishments of this Office during the past six
                                months that have been achieved with a very small staff. Particularly, during these turbulent finan-
                                cial times, I believe that the work of this Office has been critical in providing the SEC, the U.S.
                                Congress, and the public with valuable information about the regulatory climate, and we intend
                                to continue this important work in the future.




                                   #           #      #       #       #        #
                                   #           #      #       #       #        #     #       H. David Kotz
                                   #           #      #       #       #        #     #       Inspector General

                                   #

                                   #           #      #       #       #        #     #




                                                                           3
4
U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                Office of
                                               Inspector
                                                General



                                          MANAGEMENT AND
                                          ADMINISTRATION
                                          AGENCY OVERVIEW                                        advisers, 5,500 broker-dealers, 600 transfer
                                                                                                 agents, 11 national securities exchanges, ten
                                              The U.S. Securities and Exchange                   nationally recognized statistical rating organi-
                                          Commission’s (SEC) mission is to protect in-           zations, and self-regulatory organizations such
                                          vestors; maintain fair, orderly, and efficient         as the Financial Industry Regulatory Authority
                                          markets; and facilitate capital formation. The         (FINRA), the Municipal Securities Rulemak-
                                          SEC strives to promote a market environment            ing Board, and the Public Company Account-
                                          that is worthy of the public’s trust and charac-       ing Oversight Board.
                                          terized by transparency and integrity. The
                                          SEC’s core values consist of integrity, account-            In order to accomplish its mission most
                                          ability, effectiveness, teamwork, fairness, and        effectively and efficiently, the SEC is organized
                                          commitment to excellence.                              into five main divisions (Corporation Finance,
                                                                                                 Enforcement, Investment Management, Trad-
                                              To achieve its mission, the SEC fosters and        ing and Markets and Risk, Strategy, and Fi-
                                          enforces compliance with the Federal securities        nancial Innovation), and 17 functional offices.
                                          laws; promotes healthy capital markets                 The Commission’s headquarters is located in
                                          through an effective and flexible regulatory           Washington, D.C., and there are 11 regional
                                          environment; facilitates access to the                 offices located throughout the country. In Fis-
                                          information investors need to make informed            cal Year 2009, the SEC had 3,652 full-time
                                          investment decisions; and enhances its                 equivalents (FTEs), consisting of 3,580 per-
                                          performance through effective alignment and            manent and 72 temporary FTEs.
                                          management of human, information and fi-
                                          nancial capital.
                                                                                                 OIG STAFFING
                                              SEC staff monitor and regulate a securities
                                          industry that includes more than 35,000 regis-             During the reporting period, the Office of
                                          trants, including about 12,000 public compa-           Inspector General (OIG) added a new posi-
                                          nies, 8,000 mutual funds, 11,300 investment            tion, Assistant to the Inspector General. The

                                                                                             5
SEMIANNUAL REPORT TO CONGRESS   duties of this critical position include report ed-       the securities enforcement group of Mayer
                                iting, investigatory inquiry research, and FOIA           Brown LLP, where she represented clients in
                                response coordination.                                    SEC, FINRA, and DOJ investigations, litigation
                                                                                          and private securities class actions. In the
                                    In April 2009, we were very fortunate to              OIEA, Mr. Wilson served as Senior Counsel,
                                have the position filled by Roberta Raftovich.            where he provided guidance and assistance to
                                Ms. Raftovich comes to us from the Peace                  securities professionals and investors regarding
                                Corps Office of Inspector General, where she              federal securities law issues. In 1999, Mr. Wil-
                                spent two years working with the Peace Corps              son began his employment at the SEC as an
                                OIG investigators. As their Criminal Research             investigator in the Office of Equal Employment
                                Analyst, she helped coordinate all Peace Corps            Opportunity. During his tenure at the SEC,
                                OIG investigations and served as the Peace                Mr. Wilson was selected to serve on detail to the
                                Corps OIG’s FOIA Officer. Ms. Raftovich is a              Division of Enforcement’s Office of Chief
                                2002 graduate of the University of Maryland in            Counsel during the financial corporate scandals
                                College Park, where she received a Bachelor of            of 2002, and as a Special Assistant U.S. Attor-
                                Arts degree in Criminology and Criminal Jus-              ney in the U.S. Attorney’s Office for the District
                                tice and was a member of the National Society             of Columbia in 2008-2009. Prior to joining the
                                of Collegiate Scholars.                                   SEC, Mr. Wilson was a litigation associate for
                                                                                          Wilson Jacobson PC in New York.
                                    We also obtained the services of two addi-
                                tional investigators on detail to assist within the           Two of our investigators left the OIG dur-
                                OIG’s investigation of Bernard Madoff ’s Ponzi            ing the reporting period to pursue other oppor-
                                scheme from other offices with the SEC, Heidi             tunities. Investigator Ray Arp, Sr. left the OIG
                                L. Steiber from the Office of General Counsel             on August 15, 2009, and Special Agent Brian
                                (OGC), and Christopher Wilson from the Office             Bressman departed the OIG on August 29,
                                of Investor Education and Advocacy (OIEA).                2009. The OIG appreciates the dedicated serv-
                                In the OGC, Ms. Steiber served as Senior                  ice of these two investigators. We have moved
                                Counsel in the Legal Policy Group where she               quickly to advertise these vacancies and expect
                                provided legal advice and policy analysis to the          to have both positions filled by the end of Oc-
                                Commission on enforcement and regulatory                  tober 2009.
                                recommendations. !Prior to joining the SEC in
                                2007, Ms. Steiber was a litigation associate in




                                                                                      6
U.S. Securities and Exchange Commission
                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          CONGRESSIONAL TESTIMONY,
                                          BRIEFINGS AND REQUESTS
                                              During the reporting period, the OIG         and thorough investigation the OIG com-
                                          had extensive communications with Con-           pleted on August 31, 2009, into the SEC’s
                                          gressional Committees, Members of Con-           failure to uncover Bernard Madoff ’s Ponzi
                                          gress and staff through testimony, meetings,     scheme. Specifically, the IG provided a syn-
                                          and written and telephonic communica-            opsis of the extensive work performed dur-
                                          tions. These communications pertained to         ing the course of the investigation, includ-
                                          the OIG’s investigation of the SEC’s failure     ing: (1) requests for and search of approxi-
                                          to uncover Bernard Madoff ’s Ponzi scheme,       mately 3.7 million e-mails; (2) review and
                                          a prior OIG investigation into the trading       analysis of documents produced in response
                                          activities of two SEC Enforcement attor-         to the OIG’s comprehensive document re-
                                          neys, the OIG’s previous audits involving        quests, including: (a) records of all SEC
                                          the SEC’s oversight of Bear Stearns and          investigations conducted relating to Madoff,
                                          related entities, and other topics of interest   his firms, Madoff family members or
                                          relating to the SEC and the Inspector Gen-       Madoff associates from 1975 to 2009, (b)
                                          eral (IG) community.                             the workpapers and examination files of
                                                                                           nine SEC examinations of Madoff ’s firms
                                              On September 10, 2009, the IG testified      conducted from 1990 to 2008, and (c)
                                          before the U.S. Senate Committee on Bank-        documents obtained from outside third par-
                                          ing, Housing and Urban Affairs on the sub-       ties regarding Madoff ’s trading records; and
                                          ject of “Oversight of the SEC’s Failure to       (3) 140 testimonies under oath or interviews
                                          Identify the Bernard L. Madoff Ponzi             of 122 individuals with knowledge of facts
                                          Scheme and How to Improve SEC                    or circumstances surrounding the SEC’s
                                          Performance.” In that testimony, the IG          examinations and/or investigations of
                                          provided a briefing on the comprehensive         Madoff and his firms. The IG also de-



                                                                                       7
SEMIANNUAL REPORT TO CONGRESS   scribed the outside expertise the OIG obtained       ate interference in the examinations or
                                to assist in conducting the investigation, which     investigations by higher-level SEC officials.
                                included the retention of FTI Consulting, Inc.
                                to aid in the review of the SEC examinations of           The IG informed the Committee that, as a
                                Madoff and his firms, and the retention of First     result of the investigation’s findings, the OIG
                                Advantage Litigation Consulting Services to as-      has recommended that the Chairman carefully
                                sist in the restoration and production of relevant   review the report and share with appropriate
                                electronic data.                                     management officials the portions relating to
                                                                                     performance failures by employees who still
                                    The IG then briefed the Committee on the         work at the SEC, so that appropriate action
                                results of the OIG’s investigation, as contained     (which may include performance-based action)
                                in a 457-page report of investigation issued to      is taken on an employee-by-employee basis, to
                                the SEC Chairman on August 31, 2009. The             ensure that future examinations and
                                IG informed the Committee that the OIG’s in-         investigations are conducted in a more appro-
                                vestigation found that between June 1992 and         priate manner and the mistakes and failures out-
                                December 2008, the SEC received six substan-         lined in the OIG’s report are not repeated. Fi-
                                tive complaints that raised significant red flags    nally, the IG discussed three additional reports
                                about Madoff ’s investment adviser operations        the OIG planned to issue in an effort to address
                                that should have led to questions about whether      the systematic breakdowns that occurred in
                                Madoff was actually trading. The IG also testi-      connection with the SEC’s investigations and
                                fied that the SEC was aware of two 2001 arti-        examinations of Madoff and his firms. These
                                cles in reputable publications that questioned       included two separate audit reports providing
                                Madoff ’s unusually consistent investment re-        the SEC with specific and concrete recommen-
                                turns. The IG informed the Committee that            dations to improve the operations of its
                                the OIG’s report of investigation concluded that     enforcement and examination programs, and a
                                notwithstanding these six complaints and two         third report analyzing the reasons why the
                                articles, the SEC never conducted a competent        SEC’s investment adviser examination unit did
                                and thorough examination or investigation of         not examine Madoff after he was forced to reg-
                                Madoff for operating a Ponzi scheme and, had         ister as an investment adviser in 2006, and pre-
                                such an investigation been conducted, the SEC        scribing recommendations to improve this proc-
                                may have been able to uncover the fraud. The         ess. The full text of the IG’s written testimony
                                IG then provided a detailed discussion of each       is contained in Appendix A to this Semiannual
                                of the six complaints and two articles that pro-     Report, and information about the entire hear-
                                vided numerous red flags that Madoff was op-         ing is available at
                                erating a Ponzi scheme, but were not adequately      http://banking.senate.gov/public/index.cfm?Fu
                                pursued and, in many cases, were ignored by          seAction=Hearings.Hearing&Hearing_ID=7b3
                                the SEC investigators or examiners. The IG           8b6a3-f381-4673-b12c-f9e4037b0a3f.
                                also informed the Committee, however, that the
                                OIG’s investigation did not uncover evidence             In addition to the IG’s testimony on the
                                that any SEC personnel who worked on an ex-          Madoff investigation, the IG had numerous
                                amination or investigation of Madoff or his          communications with Members of Congress
                                firms had any financial or other inappropriate       and staff regarding issues pertaining to that in-
                                connection with Madoff or his family that influ-     vestigation. On June 23, 2009, the IG met with
                                enced the conduct of the examination or inves-       the Honorable Paul E. Kanjorski (D-
                                tigatory work, or that there was any inappropri-     Pennsylvania), Chairman of the Subcommittee

                                                                                 8
SEMIANNUAL REPORT TO CONGRESS   on Capital Markets, Insurance, and Govern-           this testimony, the IG focused on the OIG’s in-
                                ment Sponsored Enterprises of the House of           vestigation into the securities transactions of
                                Representatives Committee on Financial Serv-         two SEC Enforcement attorneys over a two-
                                ices, and provided a briefing on the status of the   year period, which was completed on March 23,
                                OIG’s Madoff investigation. Subsequently, on         2009, and reported on in the OIG’s Semiannual
                                June 30, 2009, the IG provided a letter to           Report to Congress for the period ending
                                Chairman Kanjorski, in which the IG set forth        March 31, 2009. The IG discussed the work
                                several suggestions for possible legislative revi-   performed during the investigation, including a
                                sions that arose out of the OIG’s Madoff inves-      comprehensive review and analysis of more
                                tigatory work. These suggestions included: (1)       than two years of brokerage records, ethics fil-
                                extending the regulatory jurisdiction of the         ings, securities transaction filings and e-mail re-
                                Public Accounting Oversight Board to include         cords, as well as several sworn testimonies and
                                audit reports prepared by a domestic registered      interviews. The IG then described the findings
                                or foreign public accounting firm regarding is-      of the OIG’s report of investigation, which in-
                                suers, broker-dealers, investment advisers and       cluded suspicious conduct, appearances of im-
                                any companies subject to U.S. securities laws; (2)   proprieties and evidence of possible trading
                                amending the Investment Advisers Act of 1940         based on non-public information on the part of
                                to require the use of independent custodians in      the two SEC attorneys. The IG informed the
                                a manner similar to the requirement for use of       Subcommittee that because of the seriousness
                                an independent custodian by mutual funds con-        of the information uncovered by the investiga-
                                tained in the Investment Company Act of 1940;        tion, the OIG had referred the matter to the
                                (3) imposing a requirement of certification by       Fraud and Public Corruption Section of the
                                senior officers of registered investment advisers,   U.S. Attorney’s Office for the District of Co-
                                including all funds of hedge funds, that they        lumbia, which, together with the Federal Bu-
                                have conducted adequate due diligence in con-        reau of Investigation (FBI), was pursing an in-
                                nection with investments; and (4) amending the       vestigation of possible criminal and civil viola-
                                Securities Exchange Act of 1934 to authorize         tions.
                                the SEC to award a bounty for information
                                leading to the recovery of a civil penalty from           The IG’s testimony also described the nu-
                                any violator of the Federal securities laws, not     merous violations of the SEC’s current
                                just insider trading violations. In addition, on     securities reporting requirements by the two at-
                                several occasions in April and September 2009,       torneys that were uncovered during the course
                                the IG provided briefings on the Madoff inves-       of the investigation. The IG informed the Sub-
                                tigation and OIG report to various staff mem-        committee of the serious deficiencies identified
                                bers of the U.S. Senate Committee on Banking,        in the current reporting system, noting that al-
                                Housing and Urban Affairs, the U.S. Senate           though the SEC is charged with prosecuting
                                Committee on Finance, and the U.S. House of          violations of the Federal securities laws, includ-
                                Representatives Committee on Financial Serv-         ing insider trading cases, the SEC had essen-
                                ices.                                                tially no compliance system in place to ensure
                                                                                     that its own employees, with tremendous
                                    On July 13, 2009, the IG testified before the    amounts of non-public information at their dis-
                                Subcommittee on Oversight and Investigations         posal, did not engage in insider trading them-
                                of the House of Representatives Committee on         selves. The IG further testified that the OIG’s
                                Financial Services on the subject of “Preventing     report had recommended disciplinary action
                                Unfair Trading by Government Officials.” In          against the two attorneys who violated the

                                                                                 9
SEMIANNUAL REPORT TO CONGRESS   SEC’s securities transaction requirements and         Stearns’ demise; (4) the liquidity, capital and lev-
                                provided 11 specific recommendations for im-          erage ratios of Bear Stearns and what impact
                                provements to ensure adequate monitoring of           they had on Bear Stearns’ demise; and (5) areas
                                employees’ securities transactions in the future.     where the SEC’s oversight had failed and needed
                                Finally, the IG pointed out that the OIG’s inves-     improvements.
                                tigation underscored the need for the SEC to
                                revamp completely its current process for moni-           During the semiannual reporting period, the
                                toring employees’ securities transactions, and        IG also met with Congressional staff members
                                that SEC Chairman Mary Schapiro had an-               who sought his input and views pertaining to
                                nounced several concrete steps the SEC planned        H.R. 885, the Improved Financial and Com-
                                to take to address the serious issues identified by   modity Markets Oversight and Accountability
                                the OIG’s investigation. The full text of the IG’s    Act, which would require Presidential appoint-
                                written testimony is contained in Appendix B to       ments and Senate confirmation of the Inspectors
                                this Semiannual Report, and information about         General of the Commodity Futures Trading
                                the entire hearing is available at                    Commission (CFTC), the National Credit Union
                                http://www.house.gov/apps/list/hearing/financ         Administration (NCUA), the Pension Benefit
                                ialsvcs_dem/oihr_070609.shtml. In addition to         Guaranty Corporation (PBGC), the Board of
                                his testimony before the Subcommittee, the IG         Governors of the Federal Reserve System (FRB),
                                also met with various Subcommittee staff mem-         and the SEC. Specifically, on July 9, 2009, the
                                bers on June 22, 2009, and provided a briefing        SEC IG, along with the IGs of the CFTC,
                                on the OIG’s investigation of the attorneys’          NCUA, PBGC and FRB, met with staff of
                                securities trading.                                   Senator Charles Grassley (R-Iowa), Ranking
                                                                                      Member of the Senate Committee on Finance.
                                    On April 11, 2009, the IG, along with an          On July 13, 2009, the IG met with staff of Rep-
                                OIG auditor and expert consultant, met with           resentative John B. Larson (D-Connecticut), the
                                several staff members of the Senate Permanent         sponsor of the legislation. In addition, on July 7,
                                Subcommittee on Investigations, and provided          2009, the SEC IG, jointly with the CFTC,
                                an extensive briefing on the OIG’s two audit re-      NCUA, PBGC and FRB IGs, provided letters to
                                ports pertaining to the SEC’s oversight of Bear       Senator Joseph I. Lieberman (D-Connecticut),
                                Stearns and related entities, both of which were      Chairman, and Senator Susan M. Collins (R-
                                reported on in the OIG’s Semiannual Report to         Maine), Ranking Member, of the Senate Com-
                                Congress for the period ending September 30,          mittee on Homeland Security and Governmen-
                                2008. The specific topics addressed during this       tal Affairs, setting forth their views on S. 1354,
                                briefing included: (1) additional information         which is comparable to H.R. 885.
                                about the OIG audit reports’ findings and rec-
                                ommendations; (2) how the SEC administered                 Finally, on August 20, 2009, the SEC IG and
                                the Consolidated Supervised Entity (CSE) pro-         Neil M. Barofsky, Special Inspector General for
                                gram, in which Bear Stearns had been a partici-       the Troubled Asset Relief Program (SIGTARP),
                                pant, including: (a) the frequency with which the     jointly provided a letter to Representative Elijah
                                SEC examined the CSE firms, (b) the credentials       E. Cummings (D-Maryland), in response to his
                                and expertise of the CSE program staff, and (c)       request for an investigation pertaining to issues
                                the number of staff assigned to examine each          related to the proposed settlement of an SEC
                                CSE firm; (3) how the CSE firms measured risks        action brought against Bank of America. In that
                                and the internal control failures that led to Bear    letter, the IGs informed Representative Cum-


                                                                                 10
SEMIANNUAL REPORT TO CONGRESS   mings that they shared his concerns and had          ter position to review independently the
                                coordinated their efforts to determine the best      information he requested and, accordingly, the
                                approach to examine the issues he had raised.        SEC IG would conduct the investigation out-
                                The IGs further stated in the letter to Represen-    lined in his request.
                                tative Cummings that the SEC IG was in a bet-




                                                                                11
12
U.S. Securities and Exchange Commission
                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                Office of
                                               Inspector
                                                General
                                                                     CONGRESS

                                          THE INSPECTOR GENERAL’S
                                          STATEMENT ON THE SEC’s
                                          MANAGEMENT AND PERFORMANCE
                                          CHALLENGES
                                               As required by the Reports Consolidation          Examinations (see second challenge below), to
                                          Act of 2000 and Office of Management and               uncover a multi-billion dollar Ponzi scheme
                                          Budget guidance, I am pleased to submit the            perpetrated by Bernard L. Madoff (Madoff).
                                          following summarizing what I consider to be            The OIG’s investigation found that
                                          the most serious management challenges fac-            Enforcement received multiple detailed and
                                          ing the SEC. This statement has been com-              credible complaints regarding Madoff ’s finan-
                                          piled based on OIG audits, investigations,             cial wrongdoing, but failed to take the appro-
                                          evaluations, and the general knowledge of the          priate steps in its investigations to uncover the
                                          agency’s operations.                                   fraud.

                                                                                                     As a result of the findings in the OIG in-
                                          CHALLENGE:                                             vestigation, we have identified several deficien-
                                          CONDUCTING ADEQUATE                                    cies within Enforcement that should be reme-
                                          ENFORCEMENT INVESTIGATIONS                             died in order to ensure that it conducts
                                              The OIG has identified the SEC                     adequate Enforcement investigations and un-
                                          enforcement function as a management                   cover violations of securities laws and fraud.
                                                                                                 These deficiencies include:
                                          challenge.

                                               The OIG recently completed an extensive           •   Enforcement staff lacking adequate guid-
                                                                                                     ance on how to analyze complaints ap-
                                          investigation into the failure of the SEC’s Di-
                                                                                                     propriately;
                                          vision of Enforcement (Enforcement), as well
                                          as its Office of Compliance Inspections and


                                                                                            13
SEMIANNUAL REPORT TO CONGRESS   •   Enforcement staff failing to exercise due            uncover a multi-billion dollar Ponzi scheme
                                    diligence in their handling of critical              perpetrated by Madoff. The OIG’s investiga-
                                    information;                                         tion found that OCIE received multiple de-
                                                                                         tailed and credible complaints regarding
                                •   Inexperience of Enforcement staff                    Madoff ’s financial wrongdoing, but failed to
                                    conducting investigations;
                                                                                         take the appropriate steps in its examinations
                                                                                         to uncover the fraud.
                                •   Enforcement staff failing to seek assis-
                                    tance from other offices and divisions as
                                    needed in their investigations;                          As a result of the findings in the OIG in-
                                                                                         vestigation, we have identified several defi-
                                •   Lack of supervision of junior                        ciencies within OCIE that should be reme-
                                    Enforcement staff;                                   died in order to ensure that it conducts
                                                                                         adequate examinations and uncover violations
                                •   Enforcement staff failing to verify                  of securities laws and fraud. These deficien-
                                    information provided by the subject of an            cies include:
                                    investigation with independent sources;
                                                                                         •   Inadequate evaluation of complaints from
                                •   Enforcement staff not adequately evaluat-
                                                                                             industry sources and failure to define the
                                    ing additional information received from
                                                                                             appropriate scope for an examination
                                    a complainant during the course of an
                                                                                             triggered by the complaints;
                                    investigation; and
                                                                                         •   Inadequate planning of examinations;
                                •   Enforcement staff failing to open or close
                                    its investigations in a timely manner.
                                                                                         •   Inadequate communication and
                                                                                             information sharing among OCIE per-
                                    Enforcement has stated that it has already
                                                                                             sonnel;
                                taken significant steps toward creating a better
                                organized and more effective Division and                •   Failure to form examination teams with
                                plans to engage in a restructuring effort that is            sufficient skills and experience necessary
                                the most significant in its history.                         to conduct the examinations;

                                                                                         •   Failure to contact outside entities to cor-
                                CHALLENGE:                                                   roborate representations made by entities
                                CONDUCTING ADEQUATE                                          under examination and failure to seek and
                                COMPLIANCE EXAMINATIONS                                      analyze information from outside sources
                                                                                             to verify information found in documents
                                   The OIG has identified the SEC                            produced in an examination;
                                compliance examinations function as a
                                management challenge.                                    •   Failure to follow up on contradictions dis-
                                                                                             covered during the examinations and
                                     The OIG recently completed an extensive                 leaving discrepancies uncovered by exam-
                                                                                             iners unresolved;
                                investigation into the failure of the SEC’s Of-
                                fice of Compliance Inspections and
                                                                                         •   Failure to adequately track the progress of
                                Examinations (OCIE), as well as its Division                 examinations; and
                                of Enforcement (see first challenge above) to



                                                                                    14
SEMIANNUAL REPORT TO CONGRESS   •   Improperly closing examinations without             PRISM, on April 22, 2009, and is actively
                                    addressing numerous issues raised in the            using the system as a contract writing and
                                    complaints that triggered the                       management tool. OA is also conducting
                                    examinations.                                       various other activities with regard to PRISM
                                                                                        including training and data migration, in or-
                                    OCIE has indicated that it concurs with             der to implement the system. Further, until
                                the OIG’s recommendations for improvement               the system is fully implemented, OA repre-
                                and has already begun the process of imple-             sented that they are consolidating multiple
                                menting changes in its operations.                      contract tracking tools and manual records
                                                                                        into a single searchable database to address
                                CHALLENGE:                                              the OIG’s concerns regarding the failure to
                                PROCUREMENT AND CONTRACTING                             maintain a “single” list of all contract actions.

                                     Though significant improvements have                   While the OIG acknowledges the efforts
                                been made in this area, the Commission’s                OA stated it has taken to remedy the OIG’s
                                procurement and contracting function con-               concerns, the procurement and contracting
                                tinues to be a management challenge. Since              function remains a significant challenge for
                                the OIG first identified the procurement and            the Commission due to the breadth and com-
                                contracting function as a management                    plexity of the issues that OA faces. During
                                challenge in the fiscal year (FY) 2008                  this reporting period, the OIG conducted
                                Performance and Accountability Report, the              work in the procurement area that identified a
                                Office of Acquisitions (OA) within the SEC’s            number of problems that need to be reme-
                                Office of Administrative Services has repre-            died, as well as areas for improvement in in-
                                sented to the OIG that it has made significant          ternal controls. The OIG issued
                                efforts to improve performance with respect to          Management Alert-Microsoft Premiere Sup-
                                the agency’s Regional Offices. These efforts            port Services Contracts, Report No. 469, in
                                include conducting outreach visits to regional          August 2009 and Audit of the Office of Ac-
                                offices to ascertain the status of their pro-           quisitions Procurement and Contract
                                curements, offering staff assistance and train-         Management Function, Report No. 471, in
                                ing opportunities, partnering with the SEC              September 2009.
                                University to identify training requirements
                                and available funding to ensure regional office             OIG Report No. 469 identified significant
                                employees who perform procurement and                   problems with the acquisition practices related
                                contracting activities are sufficiently trained,        to the award of a sole-source contract valued
                                and implementing a new litigation support               at approximately $1 million. Specifically, the
                                policy in collaboration with the Office of Fi-          basis for making a sole-source award was not
                                nancial Management (OFM) to improve pro-                clearly supported, the sole-source justification
                                curement processes for certain Enforcement              was not signed by the appropriate official, the
                                needs within the regional offices.                      document form used to award the contract
                                                                                        was incorrect, a modification was executed
                                    OA has also represented that they have              that inappropriately expanded the scope of
                                made significant progress with regard to                the contract, and the price reasonableness de-
                                automation of the Commission’s purchasing               termination cited an incorrect regulatory pro-
                                and contracting functions. OA implemented               vision.
                                a new automated procurement system,

                                                                                   15
SEMIANNUAL REPORT TO CONGRESS       In addition, OIG Report No. 471 identi-            CHALLENGE:
                                fied the following key organizational issues           INFORMATION TECHNOLOGY
                                                                                       MANAGEMENT
                                that management needs to address:
                                                                                           Information Technology (IT) management
                                •   OA is unable to provide complete opera-            continues to be a management challenge,
                                    tional data (a consolidated record of the          though significant improvements have been
                                    universe of active, pending, completed
                                                                                       made since the OIG initially identified this
                                    and cancelled contracts, agreements, and
                                    purchase orders) to manage the procure-            area as a management challenge. The 2008
                                    ment and contracting function and report           Federal Information Security Management
                                    on performance, due to years of using              Act review revealed that additional safeguards
                                    manual processes. Additionally, OA does            must be implemented as the OCIE Advisor
                                    not have standard operating procedures             Surveillance & Intelligence System’s (OASIS)
                                    stating what information contracting offi-         exposure increases. The SEC must evaluate
                                    cers should maintain and track;                    the system access controls to ensure that OA-
                                                                                       SIS has an adequate formal account
                                •   OA is in the process of fully automating           management process and to improve its
                                    its procurement and contracting function
                                                                                       information flow control policies and
                                    after two previous failed attempts to im-
                                    plement an automated procurement sys-              enforcement mechanisms. These issues
                                    tem. Data migrated to the new system               should be addressed before the system is in-
                                    must be reconciled with OFM’s account-             troduced into the agency’s architecture.
                                    ing system (Momentum), years of manual
                                    records maintained by separate contract-               Furthermore, attention is still needed in
                                    ing officers, procurement data maintained          specific key IT areas, such as IT capital in-
                                    by the regional offices, and data contained        vestment, the administration and oversight of
                                    in the previous automated procurement              IT contracts and IT human capital. These
                                    system (SAM); and                                  key initiatives remain challenges since work
                                                                                       has not been completed to mitigate deficien-
                                •   Select individuals in the regional offices
                                    have been delegated warrant authority to           cies that were identified in the past.
                                    execute contracts without adequate pro-
                                    curement training, experience, or over-
                                    sight by OA. Additionally, contract activi-        CHALLENGE:
                                    ties in the regional offices are not being         PERFORMANCE MANAGEMENT
                                    reported in the Federal Procurement Data
                                    System (FPDS). FPDS is a web-based tool                In February 2007, the OIG issued an audit
                                    used by agencies to report contract data to        report on the Enforcement performance
                                    the President, Congress, the Government            management process. This audit found that
                                    Accountability Office, Federal executive           Enforcement did not consistently perform all
                                    agencies and the general public.                   parts of the performance appraisal process.
                                                                                       In addition, the audit report found that the
                                     Thus, as reported in FY 2008, compre-             SEC’s performance management written poli-
                                hensive procurement and contracting policies           cies and procedures did not provide adequate
                                and procedures are still needed, and OA does           guidance in many areas, including managing
                                not yet have complete oversight over regional          employees with performance problems and
                                offices procurement and contracting activities.        implementing all phases of the performance
                                                                                       review cycle. Further, the performance proc-

                                                                                  16
SEMIANNUAL REPORT TO CONGRESS   ess was not aligned with the fiscal year, and         present, SEC employees at the SK-17 (super-
                                did not timely reward employees for their sig-        visory) level and above have migrated to the
                                nificant, performance-based contributions.            five-level rating system, and SEC employees
                                                                                      below these levels are expected to migrate to
                                    The SEC has, however, taken numerous              the new process by the end of FY 2010. As it
                                steps to remedy this challenge. Beginning in          moves forward with this new system, the SEC
                                FY 2008, SEC employees began transitioning            must also set the parameters for the merit pay
                                to a new performance management process,              process and determine how merit pay in-
                                which includes a five-level rating system. At         creases will be implemented.




                                                                                 17
18
U.S. Securities and Exchange Commission
                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                Office of
                                               Inspector
                                                General
                                                                     CONGRESS

                                          ADVICE AND ASSISTANCE PROVIDED
                                          TO THE AGENCY
                                              During this semiannual reporting period,          Information Technology (OIT) and Office of
                                          the OIG provided advice and assistance to             General Counsel (OGC) staff members to ad-
                                          management on numerous issues that were               dress this issue. At the meeting, OIT agreed
                                          brought to our attention during the course of         to revise and expand a draft implementing in-
                                          audits and investigations conducted by the            struction on the use of SEC-wide digital fo-
                                          OIG and otherwise. This advice was con-               rensic tools that was never finalized. In the
                                          veyed through written communications, as              meantime, OIT agreed to implement an in-
                                          well as in meetings and conversations with            terim procedure for processing management
                                          agency officials. The advice provided included        requests to OIT for access to employee e-mails
                                          comments on draft policies and procedures             and other IT support. Thereafter, the OIG
                                          and suggestions for improvements in existing          provided written comments on OIT’s pro-
                                          policies and procedures.                              posed interim process and draft directive to
                                                                                                OIT staff regarding that process. OIT incor-
                                                                                                porated the OIG’s suggestions and imple-
                                          Procedure for Addressing Manager
                                          Requests to OIT for Access to                         mented the interim process.
                                          Employee E-mail Accounts and Other
                                          IT Support
                                                                                                OIT and OIG Collaboration to Address
                                              During the reporting period, the OIG be-          HSPD-12 Requirement for 2009 FISMA
                                          came aware of an increasing number of re-             Submission
                                          quests by managers for access to the e-mail
                                          accounts of former employees whom they su-                In August 2009, the Office and
                                          pervised, as well as requests for employee            Management and Budget (OMB) issued a di-
                                          computer hard drives, network files and net-          rective stating that all Federal agencies must
                                          work logs. As there was no formal policy in           comply with the procedures of Homeland
                                          place to address these types of requests, the         Security Presidential Directive-12 (HSPD-12)
                                          OIG convened a meeting of Office of                   in order to tender its 2009 submission pursu-

                                                                                           19
SEMIANNUAL REPORT TO CONGRESS   ant to the Federal Information Security                been created at the end of each month.
                                Management Act of 2002 (FISMA). The                    However, the OIG learned that approxi-
                                OIG learned that the SEC was not in                    mately one-half of the backup tapes that
                                compliance with HSPD-12 and had obtained               should have existed as of February 2008 had
                                a waiver from OMB to delay implementation              never been restored. The OIG further
                                of HSPD-12 until 2011. The OIG assisted                learned that contrary to the procedures in
                                OIT in taking the necessary actions to ensure          place at the time, backup tapes were often not
                                that the SEC can successfully submit its 2009          created at the end of a month. In addition,
                                FISMA report.                                          some tapes that may have been created have
                                                                                       since been lost or corrupted. Finally, no exist-
                                    OIG and OIT staff have participated in             ing tapes prior to 2001 have ever been re-
                                numerous conference calls and meetings with            stored.
                                OMB regarding OMB’s directive and have
                                attended mandatory training sessions. We                   There are also inadequacies in the SEC’s
                                also will assist OIT staff with testing the ap-        e-mail retention procedures, which only pro-
                                plicable HSPD-12 technology that will be               vide for the archiving of e-mails after a cer-
                                used throughout the SEC to ensure its                  tain period of time. In addition, only e-mails
                                compliance with HSPD-12.                               from certain user folders are saved.

                                                                                           The OIG and First Advantage described
                                Advice Concerning OIT Electronic                       the different approaches that may be utilized
                                Data Retention Procedures                              to ameliorate the conditions they identified,
                                                                                       and OIT informed us that they would con-
                                    During the course of the OIG’s investiga-
                                                                                       sider taking action to address these issues.
                                tion into the SEC’s failure to uncover Bernard
                                Madoff ’s Ponzi scheme, the OIG worked
                                closely with OIT to restore and produce
                                                                                       OIT Implementing Instruction on
                                e-mails from three different SEC offices cover-        Preservation and Destruction of
                                ing a span of ten years (1999 to 2009). The            Electronic Mail
                                OIG also retained an outside expert, First
                                Advantage Litigation Consulting Services                   The OIG reviewed and provided written
                                (First Advantage), to assist with the independ-        comments on a draft OIT Implementing In-
                                ent production of electronic data using differ-        struction on Preservation and Destruction of
                                ent methods and equipment. During this                 Electronic Mail on May 27, 2009. In those
                                process of electronic discovery, the OIG and           comments, the OIG expressed significant
                                First Advantage identified several flaws in the        concerns about the Implementing Instruc-
                                SEC’s historical and current data retention            tion’s proposed imposition of a five-year re-
                                procedures and conveyed concerns about the             tention period for storage of e-mail. The
                                effect of these flaws to OIT.                          OIG expressed the view that this retention
                                                                                       period would have a serious negative impact
                                   OIT’s access to e-mails generated prior to          on the OIG’s ability to conduct investigations
                                2008 is limited to the data that OIT restored          in accordance with the Inspector General Act.
                                from magnetic backup tapes in February                 Specifically, the OIG pointed out that in order
                                2008. Those tapes were supposed to have                to conduct a thorough review of the allega-



                                                                                  20
SEMIANNUAL REPORT TO CONGRESS   tions made to the SEC regarding Bernard               tigative reports, a new process has been insti-
                                Madoff, the OIG was required to retrieve              tuted whereby the FOIA Office and OGC
                                employee e-mails going back to 1999, and              collaborate on potential redactions and issues
                                that a five-year e-mail retention policy would        prior to the release of the requested docu-
                                have made it virtually impossible for the OIG         ments. Also under this new process, the OIG
                                to perform a comprehensive investigation in           is afforded an opportunity to review the
                                the Madoff matter. The OIG’s written com-             document prior to its release in order to iden-
                                ments also provided clarification of the OIG’s        tify any remaining issues of concern for the
                                roles and functions under the Inspector Gen-          agency.
                                eral Act.

                                     The SEC decided not to move forward              Office of Equal Employment
                                with the Implementing Instruction after re-           Opportunity Guidance on Leveraging
                                ceiving comments from the OIG and other               Diversity Competency
                                offices.                                                  The OIG reviewed two guidance docu-
                                                                                      ments prepared by the Office of Equal Em-
                                                                                      ployment Opportunity (EEO) regarding a
                                Review and Revision of Processes and                  new competency on leveraging diversity un-
                                Procedures for the Release of OIG
                                Investigative Reports Under the                       der which SEC managers were to be evalu-
                                Freedom of Information Act                            ated beginning in Fiscal Year 2009. Based
                                                                                      upon its review of these documents, the OIG
                                    During this reporting period, certain OIG         provided written and verbal comments to the
                                reports of investigation were released to the         EEO Office in early April 2009, suggesting
                                public by the SEC’s Freedom of Information            possible improvements in these documents.
                                Act (FOIA) Office or the OGC, which con-              For example, the OIG recommended that
                                tained non-public information.                        managers should not be evaluated under the
                                                                                      new competency until after the pertinent
                                     The OIG met with agency officials from           information and tools necessary to meet the
                                the Office of Investor Education and Advo-            competency became available. The OIG also
                                cacy (which oversaw the FOIA Office) and              suggested that the guidance be revised to pro-
                                OGC to provide advice and assistance in de-           vide some clarification or measures as to what
                                termining a process to protect non-public and         would be a reasonable amount of official time
                                private information in connection with the            to spend on meeting the new element. The
                                release of OIG investigative reports under the        EEO revised these documents, based in part
                                FOIA. As a result of this collaboration and           on the OIG’s comments, and they were issued
                                heightened awareness surrounding the sensi-           to managers on April 13, 2009.
                                tivity of information contained in OIG inves-




                                                                                 21
22
U.S. Securities and Exchange Commission

                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                                     CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          AUDITS AND EVALUATIONS
                                          OVERVIEW                                                  Each year the Office of Audits prepares an
                                                                                                annual audit plan. The plan includes work
                                               The OIG is required by the Inspector             that is selected for audit or evaluation based
                                          General Act of 1978, as amended, to conduct           on risk and materiality, known or perceived
                                          audits and evaluations of agency programs,            vulnerabilities and inefficiencies, resource
                                          operations and activities. The OIG’s Office of        availability, and complaints that are received
                                          Audits focuses its efforts on conducting and          from Congress, internal SEC staff, the Gov-
                                          supervising independent audits and evalua-            ernment Accountability Office (GAO), and the
                                          tions of the programs and operations of the           public.
                                          various SEC divisions and offices. The Office
                                          of Audits also hires independent contractors
                                          and subject matter experts to conduct work on         Audits
                                          its behalf. Specifically, the Office of Audits
                                          conducts audits and evaluations to determine              Audits examine operations and financial
                                          whether:                                              transactions to ensure that proper
                                                                                                management practices are being followed and
                                          •   There is compliance with governing laws,          resources are adequately protected in accor-
                                              regulations and policies;                         dance with governing laws and regulations.
                                                                                                Audits are systematic, independent, and
                                          •   Resources are safeguarded and appropri-           documented processes for obtaining evidence.
                                              ately managed;
                                                                                                In general, audits are conducted when firm
                                                                                                criteria or data exist, sample data is measur-
                                          •   Funds are expended properly;
                                                                                                able, and testing internal controls is a major
                                          •   Desired program results are achieved; and         objective. Auditors collect and analyze data
                                                                                                and verify agency records by obtaining sup-
                                          •   Information provided by the agency to the         porting documentation, issuing questionnaires,
                                              public and others is reliable.                    and through physical inspection.



                                                                                           23
SEMIANNUAL REPORT TO CONGRESS       The OIG’s audit activities include                 dance with OMB Circular A-50. This regula-
                                performance audits that are conducted of               tion specifies the policies and procedures to be
                                SEC programs and operations relating to ar-            followed to ensure that corrective action on
                                eas such as the oversight and examination of           OIG recommendations is being taken in the
                                regulated entities, the protection of investor         required timeframe and establishes a resolu-
                                interests, and the evaluation of administrative        tion process for disagreements about recom-
                                activities. The Office of Audits conducts its          mendations between the OIG and
                                audits in accordance with the generally ac-            management.
                                cepted government auditing standards (Yellow
                                Book) issued by the Comptroller General of
                                the United States, OIG policy, and guidance            AUDITS AND EVALUATIONS
                                issued by the Council of the Inspectors Gen-           CONDUCTED
                                eral on Integrity and Efficiency (CIGIE).
                                                                                       Review and Analysis of OCIE
                                                                                       Examinations of Bernard L. Madoff
                                                                                       Investment Securities, LLC (Report No.
                                Evaluations                                            468)

                                    The Office of Audits also conducts evalua-           Background
                                tions of the SEC’s programs and activities.
                                Evaluations consist of reviews that often cover            The OIG retained the services of a team
                                broad areas and are typically designed to pro-         of experts at FTI Consulting, Inc. (referred to
                                duce timely and useful information associated          as the FTI Engagement Team) to assess the
                                with current or anticipated problems. Evalua-          adequacy of examinations conducted by the
                                tions are generally conducted when a project’s         SEC’s Office of Compliance Inspections and
                                objectives are based on specialty and highly           Examinations (OCIE) in response to com-
                                technical areas, criteria or data are not firm,        plaints regarding the activities of Bernard L.
                                or needed information must be reported in a            Madoff (Madoff) and his investment firm,
                                short period of time. The Office of Audits’            Bernard L. Madoff Investment Securities,
                                evaluations are conducted in accordance with           LLC (BMIS).
                                OIG policy, Yellow Book non-audit service
                                standards and guidance issued by the CIGIE.                The FTI Engagement Team reviewed the
                                                                                       OIG’s Report of Investigation dated August
                                                                                       31, 2009, including related findings, exhibits,
                                                                                       witness testimony and supporting documenta-
                                Audit Follow-up and Resolution
                                                                                       tion, and analyzed the workpapers from
                                     Office of Management and Budget (OMB)             OCIE’s examinations of Madoff, OCIE’s
                                Circular A-50, Audit Follow-up, requires rec-          manuals, OCIE’s guidance documents and
                                ommendations to be resolved within six                 policies, and other governmental and private
                                months of the report issuance date. The Of-            reports relating to examination programs. In
                                fice of Audits actively monitors the status of         addition, the FTI Engagement Team inter-
                                open recommendations and tracks their clo-             viewed over a dozen key OCIE managers and
                                sure. On September 30, 2009, Chairman                  staff to gain an understanding of the OCIE
                                Schapiro issued SEC Regulation (SECR) 30-2,            examination process.
                                Audit Follow-up and Resolution, in accor-



                                                                                  24
SEMIANNUAL REPORT TO CONGRESS     Results                                                cused on the possibility that Madoff was
                                                                                         conducting a Ponzi scheme.
                                    The review made the following specific
                                findings. The FTI Engagement Team found                      The FTI Engagement Team further found
                                that OCIE did not properly evaluate the                  that there was inadequate communication
                                information provided in 2001 news articles               and information sharing among OCIE per-
                                that raised significant red flags about Madoff ’s        sonnel in connection with their examinations
                                operations. The FTI Engagement Team ex-                  of Madoff. In addition, the pre-examination
                                plained that information received relating to a          preparation was inadequate, the examination
                                potential violation must be properly vetted              tracking system was not properly used to log
                                and opined that, in the case of the 2001 arti-           the initiation of the cause examinations, and
                                cles about Madoff, there was sufficient detail           the examiners did not adequately close the
                                in these articles to warrant additional scrutiny         examinations. The review found that while
                                due to the red flags raised.                             OCIE senior personnel had an initial conver-
                                                                                         sation with Madoff concerning the cause ex-
                                    The FTI Engagement Team further found                amination, there were no policies or proce-
                                that OCIE did not properly evaluate a com-               dures in place requiring them to document
                                plaint in 2003 and a referral in 2004 from               substantive interviews and, as a result, no
                                highly credible sources that provided specific           clear contemporaneous record of this and
                                and concrete information about the possibility           other critical discussions was made. The re-
                                that Madoff was not engaged in trading. The              view also found that OCIE did not have for-
                                review found that given the credibility of the           mal policies and procedures requiring the
                                information triggering the examinations, the             preparation of closing memoranda for
                                significant delays before the examinations               examinations.
                                commenced were unreasonably long, there
                                was insufficient review of the complaints, and               The FTI Engagement Team found that
                                the cause examinations failed to address criti-          OCIE did not form appropriate examination
                                cal issues raised in the complaints. The re-             teams to conduct the examinations. The re-
                                view found that, at the time, OCIE had no                view found that one of the examinations
                                formal policies or procedures in place for               lacked a Branch Chief and both teams lacked
                                handling tips and complaints, which led to               staff with the expertise necessary to identify
                                mishandling of the information.                          signs of fraud effectively. The FTI Engage-
                                                                                         ment Team concluded that the failure to form
                                    The FTI Engagement Team also found                   appropriate examination teams with sufficient
                                that the Planning Memoranda for the OCIE                 expertise must be remedied in order for OCIE
                                examinations were either inadequate or not               to uncover fraud in future cause examinations.
                                drafted at all. The review found that there
                                were no formal policies or procedures at that                The FTI Engagement Team found that
                                time that required the preparation of a Plan-            OCIE failed to contact Madoff ’s clients to
                                ning Memorandum. The FTI Engagement                      corroborate his representations in the
                                Team concluded that had the scope of the                 examinations, even though several of these
                                examinations been adequately analyzed and                clients were SEC-registered investment funds
                                related to the complaints, the cause                     that were subject to SEC books and records
                                examinations would have more closely fo-                 requirements. The review found that SEC


                                                                                    25
SEMIANNUAL REPORT TO CONGRESS   examiners failed to follow up on numerous               (1) # OCIE should provide all examiners
                                contradictions discovered during the                          with access to relevant industry publi-
                                examinations and many discrepancies were                      cations and third-party database sub-
                                left unresolved.                                              scriptions sufficient to develop exami-
                                                                                              nation leads and stay current with in-
                                                                                              dustry trends, and should regularly
                                    The FTI Engagement Team found that
                                                                                              assess whether they have adequate
                                OCIE failed to understand how BMIS exe-                       access to relevant industry publica-
                                cuted, cleared and settled its purported trades,              tions and other such sources and
                                and these failures contributed to OCIE’s in-                  make reasonable attempts to gain
                                ability to uncover Madoff ’s Ponzi scheme.                    such access.
                                The review found that SEC examiners did not
                                acquire and analyze trading data from an in-            (2) # OCIE should establish a protocol for
                                dependent source to verify the trading volume                 searching and screening news articles
                                Madoff represented in client account state-                   and information from relevant indus-
                                                                                              try sources that may indicate
                                ments and, had such an analysis been con-
                                                                                              securities law violations at broker-
                                ducted, they would have likely discovered
                                                                                              dealers and investment advisers. The
                                Madoff ’s fictitious trades. The FTI Engage-                  protocol should include flexible
                                ment Team replicated several aspects of the                   searching capability to help identify
                                cause examinations of Madoff and demon-                       specific areas of risk or concern and
                                strated how obtaining the pertinent                           should include access to all relevant
                                information could have uncovered the fraud.                   industry publications. The protocol
                                                                                              should also include adequate screen-
                                    The FTI Engagement Team also found                        ing criteria to eliminate unnecessary
                                that the examinations were improperly closed                  results and/or to define a search more
                                                                                              narrowly in order to generate suffi-
                                without resolving numerous issues, the staff
                                                                                              cient results. The screening criteria
                                on one examination team actually believed
                                                                                              and any changes should be docu-
                                they might be subjected to legal liability if                 mented and the protocol should be
                                they contacted Madoff ’s feeder funds, and the                re-assessed regularly in order to de-
                                Madoff examination teams failed entirely to                   termine if any modifications are ap-
                                investigate the allegations in two complaints                 propriate.
                                about the lack of independence of Madoff ’s
                                auditor.                                                (3) # OCIE should establish a protocol that
                                                                                              explains how to identify red flags and
                                                                                              potential securities law violations
                                                                                              based on an evaluation of
                                  Recommendations
                                                                                              information found in news reports
                                    The OIG issued a final report summariz-                   and relevant industry sources. The
                                                                                              protocol should also determine how,
                                ing the results of the FTI Engagement Team’s
                                                                                              and by whom, decisions on whether
                                review on September 29, 2009. The report                      to initiate cause examinations are
                                presented 37 specific and concrete recom-                     made, set a reasonable time frame
                                mendations designed to improve nearly every                   (i.e., 90 days) for evaluation of the
                                aspect of OCIE’s operations. These recom-                     search results and provide notification
                                mendations were as follows:                                   to OCIE management when such
                                                                                              time has expired.


                                                                                   26
SEMIANNUAL REPORT TO CONGRESS   (4) # OCIE should implement an OCIE-                        Day Examination) must be reported
                                      related collection system that ade-                   to the OCIE Director, with a monthly
                                      quately captures information relating                 tally of yet-to-be-opened Post-60 Day
                                      to the nature and source of each tip                  Examinations sent to the SEC
                                      or complaint and also chronicles the                  Chairman.
                                      vetting process to document why each
                                      tip or complaint was or was not acted             (8) # All potentially relevant information
                                      upon and who made that determina-                       received by OCIE from a tip or com-
                                      tion. All OCIE examiners should be                      plaint source should be preserved as a
                                      given access to the system in order to                  complete unit and should be aug-
                                      timely view and monitor tips and                        mented with relevant information that
                                      complaints that may be relevant to                      may have been provided in subse-
                                      examinations they are preparing to                      quent submissions by that source.
                                      conduct or are actively conducting.                     Once an examination has been initi-
                                                                                              ated, such information should be re-
                                (5) # OCIE should annually review and                         quired reading for examination team
                                      test the effectiveness of its policies and              members.
                                      procedures with regard to its tip and
                                      complaint collection system. OCIE                 (9) # OCIE should augment its policies and
                                      should also modify these policies and                   procedures related to the use of scope
                                      procedures where needed.                                memoranda to better reflect particu-
                                                                                              lar consideration given to information
                                (6) # Tips and complaints reviewed by                         collected as the result of tips and
                                      OCIE that appear on the surface to                      complaints that lead to cause
                                      be credible and compelling should be                    examinations. When all potentially
                                      probed further by in-depth interviews                   relevant tip and complaint source
                                      with the sources to assess their validity               data, background information and
                                      and to determine if there are other                     research have been collected into one
                                      issues that need to be investigated.                    complete unit, examination staff
                                      Any apparent contradictions in tip or                   should identify all relevant potential
                                      complaint information need to be re-                    securities law violations and other
                                      solved as early as possible in the ex-                  concerns and then prepare a Planning
                                      amination process through interviews                    Memorandum that ties each and
                                      with appropriate sources or further                     every potential violation and issue
                                      independent research. Findings from                     into the scoping discussion in the
                                      such interviews should be adequately                    memorandum. The Planning Memo-
                                      documented and should be required                       randum should include the basic steps
                                      reading for examination team mem-                       that need to be taken to address the
                                      bers.                                                   issues identified in the scope discus-
                                                                                              sion. The Planning Memorandum
                                (7) # All OCIE-related tips and/or com-                       should be reviewed, approved and
                                      plaints that are not vetted within 30                   signed (or initialed) by senior OCIE
                                      days of receipt should be brought to                    management (i.e., assistant director
                                      the attention of the OCIE Director                      level or higher) and should include the
                                      with an explanation for the delay. All                  names of the individuals who pre-
                                      OCIE-related tips and/or complaints                     pared and reviewed the document.
                                      that merit a cause examination for
                                      which the examination does not begin              (10) #OCIE should timely modify or ap-
                                      within 60 days of receipt (a Post-60                    pend the scope memorandum when

                                                                                   27
SEMIANNUAL REPORT TO CONGRESS       significant new facts and issues                   (14) "Substantive interviews conducted by
                                    emerge. The modified or supplemen-                       OCIE of registrants and third parties
                                    tal scoping memorandum should be                         during OCIE’s pre-examination ac-
                                    reviewed, approved and signed (or                        tivities and during the course of an
                                    initialed) by senior OCIE                                active examination should be docu-
                                    management (i.e., assistant director                     mented with notes circulated to all
                                    level or higher) and should include the                  team members. After each substan-
                                    names of the individuals who pre-                        tive interview during the examination,
                                    pared and reviewed the document.                         the team leader should re-evaluate the
                                                                                             examination scope and methodology
                                (11) "After examination scoping provisions                   as set out in the Planning Memoran-
                                      have been approved, along with all                     dum to determine if the examination
                                      other elements of the Planning                         needs to be expanded and indicate by
                                      Memorandum, the Planning Memo-                         initialing the interview notes that the
                                      randum should be subjected to con-                     team leader has performed this
                                      curring review by an unaffiliated                      evaluation.
                                      OCIE Associate or Assistant Director
                                      (Concurring Director Review), and                (15) #The workpapers for a given examina-
                                      the person performing the Concur-                      tion should be in sufficient detail to
                                      ring Director Review should also rec-                  provide a clear understanding of its
                                      ommend additional concurring re-                       purpose, source, and the conclusions
                                      views by the SEC’s Office of Eco-                      reached. Also, the documentation
                                      nomic Analysis, Office of Chief Ac-                    should be appropriately organized to
                                      countant, or other offices or divisions                provide a clear link to the significant
                                      of the SEC as needed. All concurring                   findings or issues.
                                      reviewers should sign off on the Plan-
                                      ning Memorandum indicating their                 (16) "When logging all OCIE
                                      approval and add any comments on                       examinations into an examination
                                      the proposed scope or other areas dis-                 tracking system, the team leader
                                      cussed in the memorandum.                              should verify that the appropriate en-
                                                                                             try is made in the tracking system
                                (12) #After the Planning Memorandum is                       and, with a notation in the Planning
                                      first drafted, it should be circulated to              Memorandum, indicate that such en-
                                      all examination team members, and                      try has been made with the team
                                      all team members should then meet,                     leader’s initials.
                                      in person or electronically, to discuss
                                      the examination approach and meth-               (17) #OCIE should annually review and
                                      odology set out in the memorandum,                     test the effectiveness of its policies and
                                      as well as any other issues the team                   procedures with regard to conducting,
                                      members wish to raise.                                 documenting and concluding its
                                                                                             examinations and modify the policies
                                (13) #The examination team leader should                     and procedures where needed.
                                      ensure that all steps of the examina-
                                      tion methodology, as stated in the               (18) #The focus of an examination should
                                      Planning Memorandum, are com-                          drive the selection of the examination
                                      pleted, and either the team leader or                  team and team members should be
                                      the appropriate team member should                     selected based upon their expertise
                                      sign off on each step as it is com-                    related to such focus. There should
                                      pleted.                                                also be a clearly defined examination

                                                                                  28
SEMIANNUAL REPORT TO CONGRESS       team leader. Staffing decisions should                 Fraud Examiners’ Certified Fraud Ex-
                                    be made by senior OCIE                                 aminer designation, the American In-
                                    management Assistant Director level                    stitute of Certified Public Account-
                                    or higher, after management has per-                   ants’ Certified in Financial Forensics
                                    formed adequate pre-examination                        designation and/or the Financial In-
                                    preparation so management can make                     dustry Regulatory Authority (FINRA)
                                    appropriate choices. The examina-                      General Securities Principal license
                                    tion team should not be selected solely                required of investment professionals.
                                    based on availability.                                 There should be an annual continuing
                                                                                           education component for each of
                                (19) #Senior OCIE management should en-                    these licenses.
                                      sure that personnel with the appropri-
                                      ate skills and expertise are assigned to         (22) #OCIE should develop and implement
                                      cause examinations with unique or                      interactive exercises to be adminis-
                                      discrete needs (i.e., options expertise).              tered by OCIE training staff or an
                                      OCIE should regularly seek out the                     independent third party and reviewed
                                      appropriate expertise from other of-                   prior to hiring new OCIE employees
                                      fices or divisions within the SEC and                  in order to evaluate the relevant skills
                                      encourage intra-agency collaboration                   necessary to perform examinations.
                                      wherever possible.                                     Similar exercises should be adminis-
                                                                                             tered annually to all active examina-
                                (20) #OCIE should assign a Branch Chief,                     tion staff and management in order to
                                      or a similarly designated lead man-                    identify areas that need further devel-
                                      ager, on every substantive project in-                 opment.
                                      cluding all cause examinations. The
                                      Branch Chief or designated lead                  (23) "Subject to approval of the examina-
                                      manager must be onsite or in direct                    tion team leader, OCIE examiners
                                      communication with the onsite staff                    should contact clients of a broker-
                                      daily during the onsite portion of the                 dealer or investment adviser when
                                      examinations. Lower lever or junior                    necessary to confirm statements made
                                      staff examiners must not be left unsu-                 by broker-dealer or investment adviser
                                      pervised during substantive discus-                    personnel. Examiners should be en-
                                      sions with principals or senior execu-                 couraged to verify representations of
                                      tives at the registrant during the ex-                 third parties by contacting such par-
                                      amination.                                             ties, and appropriate methods used to
                                                                                             contact third parties should become a
                                (21) "OCIE should develop a formal plan                      part of OCIE’s training of examiners.
                                      with specific goals associated with
                                      achieving and maintaining profes-                (24) I# n the course of an examination, if an
                                      sional designations and/or licenses by                 examiner becomes aware of a poten-
                                      industry certification programs that                   tial securities law violation at another
                                      are relevant to the examination activi-                firm, that examiner should consult
                                      ties conducted by OCIE. For in-                        with the team leader and OCIE
                                      stance, within the next three years,                   should make a referral to the appro-
                                      50% of OCIE staff and management                       priate personnel or agency.
                                      associated with examination activities
                                      should be qualified by means of a cer-           (25) #OCIE examiners should be trained in
                                      tification applicable to their profession              the mechanics of securities settlement,
                                      such as the Association of Certified

                                                                                  29
SEMIANNUAL REPORT TO CONGRESS       both in the U.S. and in major foreign                 cific allegations of fraud involved in
                                    markets.                                              an examination.

                                (26) "OCIE examiners should be trained                (29) #OCIE examiners should be trained
                                      by the SEC Office of International                    jointly with the Office of Economic
                                      Affairs (OIA) in methods to access the                Analysis (OEA) economists by
                                      expertise of foreign regulators, such as              FINRA, other self-regulatory organi-
                                      the United Kingdom’s Financial Serv-                  zations (SROs) and exchange staff in
                                      ices Authority, as well as foreign                    understanding the trading databases
                                      securities exchanges and foreign clear-               provided by FINRA, the National As-
                                      ing and settlement entities. OCIE                     sociation of Securities Dealers Auto-
                                      examiners should also be trained by                   mated Quotations (NASDAQ), the
                                      OIA in methods to request and re-                     New York Stock Exchange, Archipel-
                                      ceive information pursuant to SEC                     ago Exchange, American Stock
                                      memoranda of understanding with                       Exchange, regional exchanges, the
                                      those foreign regulators. OCIE, in                    Options Clearing Corporation, option
                                      conjunction with OIA, should develop                  exchanges, and DTC/NSCC, etc. As
                                      templates for the most frequent types                 trading and trading venues change
                                      of requests (e.g., sample trade data)                 over time, the OCIE training should
                                      from foreign regulators based on past                 be recurring and updated.
                                      experience in order to facilitate the
                                      process. OCIE, in conjunction with              (30) #OCIE staff should be given direct ac-
                                      OIA, should develop and utilize con-                  cess to certain databases maintained
                                      tact lists with such regulators for use               by SROs or other similar agencies to
                                      by appropriate examination staff.                     allow examiners to access necessary
                                                                                            data for verification or analysis of reg-
                                (27) #For significant issues such as whether                istrant data. Such databases should
                                      trades have been executed and who                     include exchange trading execution
                                      has custody of assets, in the absence                 data, DTC/NSCC data, the FINRA
                                      of third-party (counterparties, custo-                Order Audit Trail System (OATS) and
                                      dians, etc.) documentation, OCIE ex-                  the FINRA Central Registration De-
                                      aminers should not simply rely on                     pository (CRD).
                                      representations of broker-dealer or
                                      investment adviser personnel but                (31) #When an examination team is pulled
                                      should contact third parties directly.                off the examination for a project of
                                      OCIE should provide guidance or                       higher priority, upon completion of
                                      training that clarifies for examiners                 that project, the examination team
                                      circumstances that require such con-                  should return to the original examina-
                                      tact with third parties.                              tion and bring the examination to a
                                                                                            conclusion.
                                (28) #OCIE examination staff should be
                                      required to verify a test sample of             (32) #One person in OCIE should be re-
                                      trading or balance data with counter-                 sponsible for tracking the progress of
                                      parties and other independent third                   all cause examinations, and the track-
                                      parties, such as the FINRA, the De-                   ing should include the number of
                                      pository Trust Company (DTC), or                      cause examinations opened, the num-
                                      National Securities Clearing Corpora-                 ber ongoing and the number closed
                                      tion (NSCC), whenever there are spe-                  for each month. Such data should be
                                                                                            reported at least quarterly to the

                                                                                 30
SEMIANNUAL REPORT TO CONGRESS       OCIE Director and to the SEC                          tacting customers or clients of the tar-
                                    Chairman. Any cause examinations                      get of that examination.
                                    open for more than 180 days should
                                    be reported to the OCIE Director and              (37) "When an auditor’s independence is
                                    the SEC Chairman with an explana-                       questioned in a tip or complaint,
                                    tion as to why the examination re-                      OCIE should report the information,
                                    quires more time.                                       if deemed credible, to the appropriate
                                                                                            state board of accountancy and to the
                                (33) "OCIE’s policies and procedures                        Public Company Accounting Over-
                                      should clearly indicate that at the con-              sight Board, if applicable, in addition
                                      clusion of each examination, the ex-                  to considering a referral to the SEC’s
                                      amination team must prepare a clos-                   Division of Enforcement or other
                                      ing report (Closing Memorandum)                       government agency.
                                      that begins with the scope discussion
                                      from the Planning Memorandum, as                    OCIE concurred with all 37 recommenda-
                                      modified by new issues that arise dur-          tions. The OIG informed OCIE that it plans
                                      ing the course of the examination.              to follow up to ensure that all 37 recommen-
                                      For each and every issue discussed in           dations are implemented in full and report
                                      the scoping discussion in the Planning          back to Congress on the status of these efforts.
                                      Memorandum, the Closing Memo-
                                                                                      The OIG also indicated that it plans to con-
                                      randum should provide findings rele-
                                                                                      duct a follow-up audit to determine if the
                                      vant to each issue and state the team’s
                                      conclusions. All members of the ex-             changes to OCIE’s operations are having the
                                      amination team should sign the Clos-            desired and appropriate effect.
                                      ing Memorandum.

                                (34) #Examination staff should not leave              Program Improvements Needed Within
                                      open any substantive issue without              the SEC’s Division of Enforcement
                                      providing a sufficient basis for such a         (Report No. 467)
                                      determination or a plan to pursue that
                                      issue at an appropriate later time. In            Background
                                      the event that issues are unresolved or
                                      cannot be pursued further, examina-                 The OIG conducted a review to identify
                                      tion staff should formerly refer those          programmatic issues from the OIG’s investiga-
                                      issues to the appropriate SEC staff             tion involving Bernard L. Madoff, that may
                                      that may further investigate and re-            prevent Enforcement from efficiently and ef-
                                      solve such issues.                              fectively accomplishing its mission of enforc-
                                                                                      ing the federal securities laws and protecting
                                (35) #OCIE training should include instruc-           investors, and to obtain feedback from
                                      tion on personal liability, if any, as-         Enforcement staff regarding improvements
                                      sumed on the part of examiners for
                                                                                      needed in the Enforcement program. We
                                      their actions in the course of perform-
                                      ing their duties for OCIE.                      conducted our review from June 2009 to Sep-
                                                                                      tember 2009.
                                (36) #OCIE management should make
                                      clear that it will support OCIE exam-                On December 11, 2008, the SEC charged
                                      iners in their pursuit of evidence in           Madoff with securities fraud for a multi-
                                      the course of an examination, even if           billion dollar Ponzi scheme. Subsequently, the
                                      pursuing that evidence requires con-            Commission learned that credible and specific

                                                                                 31
SEMIANNUAL REPORT TO CONGRESS
                                allegations regarding Madoff ’s financial              proximately 30 red flags indicating Madoff
                                wrongdoing, going back to at least 1999, had           was operating a Ponzi scheme, a scenario
                                been repeatedly brought to the attention of            Markopolos described as “highly likely.” The
                                SEC staff but no actions were ever recom-              red flags identified by Markopolos generally
                                mended to the Commission. As a result, for-            fell into one of three categories: (1) Madoff ’s
                                mer Chairman Christopher Cox requested                 obsessive secrecy; (2) the impossibility of
                                that the OIG conduct an investigation into the         Madoff ’s returns, particularly the consistency
                                past allegations regarding Madoff and his firm         of those returns; and (3) the unrealistic volume
                                and the reasons these allegations were not             of options Madoff was supposedly trading.
                                found to be credible. In June 2009, as a result
                                of issues identified during this ongoing OIG                The SEC’s Boston District Office referred
                                investigation, the OIG launched a survey               the complaint to the Northeast Regional
                                questionnaire to approximately 1,200                   Office and an Enforcement investigation was
                                Enforcement staff and managers in headquar-            initiated. However, we found that the focus of
                                ters as well as the regional offices. The ques-        the Enforcement staff ’s investigation was
                                tionnaire was designed to obtain feedback              much too limited. Markopolos’ 2005 com-
                                from Enforcement staff and managers on top-            plaint primarily presented evidence that
                                ics such as allocation of resources,                   Madoff was operating a Ponzi scheme, calling
                                performance measurement, case management               that scenario “highly likely.” However, most of
                                procedures, communication, adequacy of                 the Enforcement staff ’s efforts during their
                                policies and procedures, employee morale, and          investigation were directed at determining
                                management efficiency and effectiveness.               whether Madoff should register as an invest-
                                                                                       ment adviser or whether Madoff ’s hedge fund
                                    On August 31, 2009, the OIG issued a               investors’ disclosures were adequate. In fact,
                                comprehensive, 457-page investigative report,          the Enforcement staff ’s investigative plan pri-
                                entitled, “Investigation of Failure of the SEC         marily involved comparing documents and
                                to Uncover Bernard Madoff ’s Ponzi Scheme.”            information that Madoff had provided to the
                                The investigation found that the SEC received          examination staff (which he fabricated) with
                                more than ample information in the form of             documents that Madoff had sent his investors
                                detailed and substantive complaints over a pe-         (which he also fabricated).
                                riod of many years, to warrant a thorough and
                                comprehensive examination and/or investiga-                During the investigation, the Enforcement
                                tion of Madoff and his firm for operating a            staff almost immediately caught Madoff in lies
                                Ponzi scheme. However, despite three                   and misrepresentations, but failed to follow up
                                examinations and two investigations of                 on these inconsistencies. They rebuffed offers
                                Madoff, a thorough and competent investiga-            of additional evidence from the complainant,
                                tion or examination was not performed, and             and were confused about certain critical and
                                the SEC never identified the Ponzi scheme              fundamental aspects of Madoff ’s operations.
                                that Madoff operated.                                  When Madoff provided evasive or contradic-
                                                                                       tory answers to important questions in testi-
                                    The investigation further found that in Oc-        mony, they simply accepted his explanations as
                                tober 2005, Harry Markopolos (Markopolos)              plausible.
                                provided the SEC’s Boston District Office with
                                a third version of a complaint entitled “The               Although the Enforcement staff made at-
                                World’s Largest Hedge Fund is a Fraud.”                tempts to seek information from independent
                                Markopolos’ 2005 complaint detailed ap-                third parties, they failed to follow up on these
                                                                                  32
SEMIANNUAL REPORT TO CONGRESS   requests. They reached out to the National              them. Further, Enforcement staff rebuffed
                                Association of Securities Dealers and asked for         Markopolos’ offers of additional information
                                information on whether Madoff had options               related to his complaint. This demonstrated a
                                positions on a certain date. However, when              lack of due diligence in the handling of critical
                                they received a report that there were in fact          information regarding Madoff and the need
                                no options positions on that date, they did not         for additional policies, procedures and training
                                take any further steps. An Enforcement staff            in Enforcement to ensure these types of issues
                                attorney made several attempts to obtain                do not reoccur.
                                documentation from European counterparties
                                (another independent third party) and, al-                  While we noted that the SEC had begun
                                though a letter was drafted, the Enforcement            the process to develop policies and procedures
                                staff decided not to send it. Had any of these          to improve the manner in which the agency
                                efforts been fully executed, they may have led          evaluates tips and complaints, we determined
                                to Madoff ’s Ponzi scheme being uncovered.              that these procedures, when finalized, need to
                                                                                        be tested to ensure they operate effectively.
                                    The Enforcement staff effectively closed
                                the Madoff investigation in August 2006 after               We also found that the Enforcement staff
                                Madoff agreed to register as an investment              assigned to the Madoff investigation team was
                                adviser.                                                inexperienced in investigating Ponzi schemes.
                                                                                        We determined that this illustrated the need
                                                                                        for Enforcement to ensure that investigations
                                  Results                                               are assigned to a team where at least one indi-
                                                                                        vidual on the team has specific and sufficient
                                    The OIG’s review found that the                     knowledge of the subject matter, and the team
                                Enforcement staff did not conduct a thorough            has access to at least one additional individual
                                review of a complaint brought to their atten-           who also has such expertise or knowledge.
                                tion in 2001 regarding Madoff. We deter-                Additionally, Enforcement should require
                                mined that this failure illustrated the need for        Planning Memoranda to be prepared and ap-
                                guidance and training on appropriate                    proved by management during investigations
                                complaint-handling procedures. In particular,           that outline the steps to be taken to complete
                                we found that no formal guidance existed                the investigation, identify other offices or par-
                                within Enforcement to assist staff in determin-         ticular individuals with requisite expertise that
                                ing what information was needed to assess               should be consulted during the investigation,
                                adequately the legitimacy of a complaint, in-           and identify staffing resources needed and es-
                                cluding, for example, what specific information         timated timeframes to complete the work.
                                should be gathered related to a potential Ponzi
                                scheme. Additionally, there was no readily-                 The review also found that the
                                available information regarding what proce-             Enforcement staff did not always seek assis-
                                dures the Assistant Regional Director to whom           tance from other divisions and offices as
                                the complaint was assigned performed in re-             needed during its investigation of Madoff. Al-
                                viewing the complaint.                                  though the Enforcement staff had difficulty
                                                                                        understanding some aspects of Madoff ’s op-
                                    The review also found that the                      erations, including his purported trading over-
                                Enforcement staff did not sufficiently review
                                the evidence that Markopolos provided to

                                                                                   33
SEMIANNUAL REPORT TO CONGRESS   seas, they did not sufficiently consult with       resulting administrative burdens they had to
                                other divisions and offices within the SEC.        perform. More specifically, we surveyed
                                                                                   Enforcement staff regarding their thoughts on
                                     The OIG survey regarding management           resources by asking, “Do you have adequate
                                effectiveness within Enforcement indicated         resources to successfully perform your job?”
                                that a certain percentage of the Enforcement       Out of 776 respondents to this question, 54
                                staff did not feel they were receiving adequate    percent stated they did not have adequate
                                support from SEC offices and divisions outside     resources to successfully perform their job.
                                of Enforcement. Our survey polled                  Many of the Enforcement staff cited the lack
                                Enforcement staff on whether they felt they        of support resources (e.g., secretaries, parale-
                                received adequate support from external            gals and document clerks) as a major problem
                                offices and divisions when requested. Out of       with investigations.
                                759 respondents to this question, 66 percent
                                agreed that they received adequate support.             We also found that Enforcement failed to
                                However, 24 percent (180 respondents) dis-         evaluate adequately additional troubling
                                agreed that they received adequate support.        information received by the SEC after Madoff
                                Of those respondents that disagreed, many          agreed to register as an investment advisor in
                                provided written comments expressing their         August 2006, but before the investigation was
                                concerns over the difficulty in obtaining timely   officially closed in January 2008. In June
                                guidance or information from other divisions       2007, Markopolos e-mailed the Enforcement
                                and offices.                                       Branch Chief on the Madoff investigation,
                                                                                   stating that he had attached some very trou-
                                    We determined that despite an individual’s     bling documents that showed the Madoff
                                personal perception of whether seeking out         fraud scheme was becoming even more bra-
                                assistance from other offices would be helpful     zen. Additionally, the e-mail stated that
                                or take too long, Enforcement staff should         Madoff could not possibly be managing the
                                work on establishing more effective relation-      billions of dollars in the strategy that he
                                ships with other divisions and offices and en-     claimed. Despite the additional information,
                                sure they are consulted on matters within their    we found no documentation to show that any
                                areas of expertise.                                analysis was performed of the additional
                                                                                   information or that Enforcement staff con-
                                    We also found that the Madoff investiga-       tacted Markopolos to follow up on the e-mail
                                tion suffered from a lack of supervision. The      or attached documents. The Branch Chief
                                OIG found that there were questions about          testified that she did not recall whether the
                                the level of supervision provided to the staff     e-mail attachments were given significant
                                attorney on the Madoff investigation with          analysis. Further, the staff attorney on the
                                regard to providing guidance on how to con-        investigation opined that she did not believe
                                duct the investigation. There were also con-       the e-mail provided any new information.
                                cerns expressed about the lack of resources        These events illustrated the need for
                                available to the Enforcement staff in connec-      Enforcement staff to evaluate complaints and
                                tion with its Madoff investigation.                tips thoroughly and encourage additional
                                                                                   information from complainants even if an
                                   Further, we found in response to the OIG        investigative matter is pending closure.
                                Enforcement survey that Enforcement staff
                                had concerns about lack of resources and the

                                                                                   34
SEMIANNUAL REPORT TO CONGRESS       We further found that there were delays in           Recommendations
                                completing administrative tasks related to
                                opening and closing the Madoff investigation               The OIG issued a final report summariz-
                                that impaired Enforcement’s investigative ef-          ing the results of its review on September 29,
                                forts. We noted that Enforcement has begun             2009. The report included 21 recommenda-
                                to streamline processes related to the opening         tions to help strengthen management controls
                                of investigations, and stated that Enforcement         in Enforcement to address the deficiencies
                                should also examine ways to streamline the             identified and to help ensure the Enforcement
                                case closing process and devote adequate re-           program efficiently and effectively fulfills its
                                sources to do so.                                      mission.

                                    The review, through the OIG survey                    These recommendations were as follows:
                                results that were not directly related to the
                                Madoff investigation, also identified several          (1) # Enforcement should establish formal
                                additional areas in which opportunities existed              guidance for evaluating various types
                                                                                             of complaints (e.g., Ponzi schemes)
                                for making programmatic improvements
                                                                                             and train appropriate staff on the use
                                within Enforcement. We found that a trou-
                                                                                             of the guidance. The guidance
                                bling number of Enforcement staff stated that                should address the necessary steps and
                                they felt they had been in situations where                  key information required to be col-
                                there was a lack of impartiality. Additionally,              lected when conducting preliminary
                                a large percentage of Enforcement staff stated               inquiries of various types of com-
                                that they did not know where to find                         plaints, specify what information
                                information regarding requirements concern-                  should be documented, and list who
                                ing impartiality in the performance of official              should be consulted in other offices
                                duties (e.g., improper preferential treatment                within the SEC with relevant exper-
                                                                                             tise in various subject matters and
                                and external influences). We also found that
                                                                                             other pertinent data.
                                while the majority of Enforcement staff
                                believed that program priorities were clearly          (2) " Enforcement should ensure the SEC’s
                                established and communicated, a large per-                   tip and complaint-handling system
                                centage expressed concern over workload pri-                 provides for data capture of relevant
                                orities. In addition, while the majority of the              information relating to the vetting
                                feedback received from Enforcement staff                     process to document why a complaint
                                with regard to Enforcement’s case-handling                   was or was not acted upon and who
                                processes was positive, a considerable number                made that determination.
                                of staff expressed concerns about its case-
                                                                                       (3) # Enforcement should require tips and
                                selection process, as well as its methods of
                                                                                             complaints to be reviewed by at least
                                assigning resources to cases and rewarding
                                                                                             two individuals experienced in the
                                employees for their work on cases. Finally, in               subject matter prior to deciding not to
                                addition to concerns over obtaining assistance               take further action.
                                from outside divisions and offices, we found
                                that Enforcement staff did not always believe          (4) " Enforcement should establish guid-
                                that different groups within the Division                    ance to require that all complaints
                                worked together effectively.                                 that appear on the surface to be
                                                                                             credible and compelling be probed
                                                                                             further by in-depth interviews with


                                                                                  35
SEMIANNUAL REPORT TO CONGRESS
                                    the sources to assess the complaints’          (10) #Enforcement should require that after
                                    validity and to determine what issues                the Planning Memorandum is
                                    need to be investigated. Such guid-                  drafted, it is circulated to all team
                                    ance should also require that staff ob-              members assigned to the investigation,
                                    tain all relevant documentation re-                  and all team members then should
                                    lated to such complaints.                            meet to discuss the investigation ap-
                                                                                         proach, methodology and any con-
                                (5) " Enforcement should provide training                cerns team members wish to raise.
                                      to staff to ensure they are aware of
                                      the pertinent guidelines contained in        (11) #Enforcement should establish proce-
                                      the Enforcement Manual and the                     dures so that junior-level Enforcement
                                      SEC’s regulations for obtaining                    attorneys who are having difficulty
                                      information from media sources.                    with obtaining timely assistance from
                                                                                         outside offices are able to escalate
                                (6) # Enforcement should annually review                 their concerns to senior-level
                                      and test the effectiveness of its policies         management within Enforcement.
                                      and procedures with regard to its new
                                      tip and complaint-handling system.           (12) #Enforcement should conduct periodic
                                      Enforcement should also modify these               internal reviews of any newly-
                                      policies and procedures, where                     implemented policies and procedures
                                      needed, to ensure adherence and ade-               related to information sharing with
                                      quacy.                                             divisions and offices outside of
                                                                                         Enforcement to ensure they are oper-
                                (7) # Enforcement should put in place pro-               ating efficiently and effectively and
                                      cedures to ensure that investigations              necessary changes are made.
                                      are assigned to teams where at least
                                      one individual on the team has spe-          (13) "Enforcement should require that the
                                      cific and sufficient knowledge of the              Planning Memorandum and associ-
                                      subject matter (e.g., Ponzi schemes),              ated scope, methodology and time-
                                      and the team has access to at least one            frames be routinely reviewed by an
                                      additional individual who also has                 investigator’s immediate supervisor to
                                      such expertise or knowledge.                       ensure investigations remain on track
                                                                                         and to determine whether adjust-
                                (8) # Enforcement should train staff on                  ments in scope, etc. are necessary.
                                      what resources and information is
                                      available from the national specialized      (14) #Enforcement should ensure that suffi-
                                      units and when and how assistance                  cient resources, both supervisory and
                                      from these units should be requested.              support are dedicated to investigations
                                                                                         upfront to provide for adequate and
                                (9) # Enforcement should make it manda-                  thorough supervision of cases and ef-
                                      tory that Planning Memoranda be                    fective handling of the investigations.
                                      prepared during an investigation and
                                      that the plan includes a section identi-     (15)#Enforcement should put in place poli-
                                      fying what type of expertise or assis-            cies and procedures or training
                                      tance is needed from others within                mechanisms to ensure staff has an
                                      and outside the SEC. The plan                     understanding of what types of
                                      should also be reviewed and approved              information should be validated dur-
                                      by senior Enforcement personnel.                  ing investigations with independent
                                                                                        parties such as the Financial Industry
                                                                                        Regulatory Authority, Depository

                                                                                   36
SEMIANNUAL REPORT TO CONGRESS
                                    Trust Company, and Chicago Board                     lyze the OIG survey information re-
                                    Options Exchange.                                    garding staff concerns over working
                                                                                         relationships within Enforcement and
                                (16) #Enforcement should include in its                  make recommended improvements to
                                      complaint-handling guidance proper                 the Director of Enforcement.
                                      procedures for ensuring complaints
                                      received, even if an investigation is               Enforcement Management concurred with
                                      pending closure, are properly vetted.          all 21 recommendations. The OIG informed
                                                                                     Enforcement that it plans to follow up to en-
                                (17) #Enforcement should conduct periodic            sure that all 21 recommendations are imple-
                                      internal reviews to ensure that
                                                                                     mented in full and report back to the Con-
                                      investigations are opened in accor-
                                                                                     gress on the status of these efforts. The OIG
                                      dance with any newly-developed
                                      Commission guidance and examine                also indicated that it plans to conduct a follow-
                                      ways to streamline the case closing            up audit to determine if the changes to En-
                                      process. Enforcement should also en-           forcement’s operations are having the desired
                                      sure staff has adequate time in which          and appropriate effect.
                                      to complete these types of administra-
                                      tive tasks.
                                                                                     The SEC’s Role Regarding and
                                (18) #Enforcement should put in place a              Oversight of Nationally Recognized
                                      process to remind staff periodically of        Statistical Rating Organizations
                                      their responsibilities regarding impar-        (NRSROs) (Report No. 458)
                                      tiality in the performance of official
                                      duties and instruct staff where they             Background
                                      can find additional information re-
                                      garding impartiality.                               Due to the importance of credit rating
                                                                                     agencies (CRAs) to the U.S. securities markets
                                (19) #Enforcement should establish or util-          and the role they played in the recent credit
                                      ize an existing working group to ana-          crisis, the OIG conducted a limited review of
                                      lyze the OIG survey information re-            the SEC’s oversight of CRAs that have been
                                      garding staff concerns over communi-           designated as nationally recognized statistical
                                      cation of program priorities and make          rating organizations (NRSROs). A credit rat-
                                      recommended improvements to the
                                                                                     ing is an opinion issued by a CRA as of a spe-
                                      Director of Enforcement.
                                                                                     cific date, of the creditworthiness, i.e., the
                                (20) #Enforcement should establish or util-          ability to repay timely loan principal and in-
                                      ize an existing working group to ana-          terest, of an issuer or with respect to particu-
                                      lyze the OIG survey information re-            lar securities or money market instruments.
                                      garding staff concerns regarding case          Credit ratings are utilized in a variety of ca-
                                      handling procedures within                     pacities in the U.S. financial system, e.g., to
                                      Enforcement and make recommended               calculate bank capital requirements and to
                                      improvements to the Director of                place limits on the types of investments that
                                      Enforcement.                                   may be purchased by a particular type of in-
                                                                                     vestor such as a pension fund.
                                (21) #Enforcement should establish or util-
                                      ize an existing working group to ana-




                                                                                37
                                     The Commission first incorporated reli-        examinations of the three largest NRSROs to
SEMIANNUAL REPORT TO CONGRESS
                                ance on credit ratings into its rules and regula-   aid the Commission in assessing whether it
                                tions in 1975 in connection with the rule de-       should continue to use credit ratings in its
                                lineating how broker-dealers must compute           regulations and, if so, the categories of ac-
                                their net capital. In that rule, the Commission     ceptable credit ratings and the appropriate
                                specified that a broker-dealer, in computing its    level of oversight. OCIE’s examinations re-
                                net capital, could take a lesser deduction from     vealed a number of significant concerns, in-
                                its net worth as to securities that were rated as   cluding, among other things, difficulties en-
                                having a comparatively low chance of default        countered in obtaining relevant documents
                                according to a CRA of national repute, or an        from the NRSROs, and the potential for con-
                                NRSRO. Thereafter, the Commission incor-            flict of interest created by the industry prac-
                                porated the NRSRO concept into many rules           tice of issuers paying NRSROs for credit rat-
                                and regulations issued under the Federal            ings and the NRSROs’ marketing of other
                                securities laws, and the term was also used in a    types of services, e.g., corporate consulting
                                number of federal, state and foreign laws and       services, in addition to providing credit rat-
                                regulations.                                        ings. The Commission also held two public
                                                                                    hearings in 2002 on a wide variety of issues
                                    Until the enactment of the Credit Rating        impacting CRAs.
                                Agency Reform Act of 2006 (Rating Agency
                                Act), NRSROs were not required to file any               In addition, the Sarbanes-Oxley Act of
                                formal application with the Commission.             2002 (Sarbanes-Oxley Act) was enacted in re-
                                From 1975 to 2006, the Commission identi-           sponse to several major corporate and ac-
                                fied a total of seven NRSROs through the            counting scandals, including Enron’s bank-
                                staff no-action letter process. Commission          ruptcy, that shook the public’s confidence in
                                staff was criticized for not acting on some         the U.S. financial markets. The Sarbanes-
                                CRA no-action letter requests in a timely           Oxley Act, among other things, required the
                                manner.                                             Commission to prepare a report on the role
                                                                                    and function of CRAs. The Commission is-
                                    Beginning with the issuance of a concept        sued the report required by the Sarbanes-
                                release in 1994, the Commission considered,         Oxley Act in 2003, which identified a wide
                                but did not adopt, rules that would have,           range of issues pertinent to CRAs that war-
                                among other things, defined the term                ranted further examination. Also in that re-
                                NRSRO and formalized the NRSRO no-                  port, the Commission stated its intent to pub-
                                action letter process. The CRAs became sub-         lish another concept release and thereafter
                                ject to harsh criticism after Enron Corpora-        issue proposed rules. While the Commission
                                tion (Enron) filed for bankruptcy in 2001. In       subsequently issued a concept release in 2003
                                particular, a Senate committee staff report, on     and then proposed a rule to define the term
                                Enron’s bankruptcy strongly criticized the          NRSRO, the Commission adopted no rules
                                CRAs for failing to warn the public of Enron’s      setting conditions on NRSRO designation,
                                precarious financial situation until four days      despite the findings surrounding Enron’s
                                before it declared bankruptcy.                      bankruptcy, the problems revealed by the
                                                                                    2002 OCIE examinations and the results of
                                    After Enron’s bankruptcy, the                   the study required by the Sarbanes-Oxley Act.
                                Commission’s Office of Compliance Inspec-
                                tions and Examinations (OCIE) undertook

                                                                                    38
                                     In September 2006, the Rating Agency               in write-downs of billions of dollars in the
SEMIANNUAL REPORT TO CONGRESS
                                Act was enacted in an effort to improve the             value of mortgage securities. Serious ques-
                                quality of credit ratings for the protection of         tions then arose as to whether the CRAs ini-
                                investors by increasing accountability, trans-          tially rated the structured products accurately
                                parency and competition in the CRA industry.            and whether they should have subsequently
                                The Rating Agency Act for the first time re-            reassessed their credit ratings.
                                quired a CRA to register formally with the
                                Commission in order to qualify as an                        The role played by CRAs in the recent
                                NRSRO. The Rating Agency Act established                financial crisis has led to numerous reports
                                an application process for approval for a CRA           and proposed regulatory changes, including
                                to issue various classes of credit ratings as an        the SEC’s adoption of NRSRO rule amend-
                                NRSRO and required numerous pertinent                   ments in February 2009. Other proposed
                                disclosures in a CRA’s application for NRSRO            changes to the Commission’s NRSRO rules,
                                designation and in subsequent updates and               however, were not acted upon. In addition,
                                annual certifications. The Rating Agency Act            both President Obama’s Administration and
                                gave the Commission examination authority               Congress have recently proposed legislative
                                to ensure an NRSRO’s compliance with its                reforms that would strengthen the SEC’s over-
                                requirements and, since the fall of 2008,               sight of NRSROs. Also, the Administration’s
                                OCIE has been responsible for conducting                legislative proposal would make registration
                                these examinations. The Rating Agency Act,              with the Commission mandatory for all
                                however, prohibited the Commission from                 CRAs, not just those that choose to seek
                                regulating the substance of credit ratings or           NRSRO designation.
                                the procedures and methodologies by which
                                NRSROs determine credit ratings.                             The objective of our review was to iden-
                                                                                        tify improvements in the Commission’s over-
                                    The Rating Agency Act mandated that                 sight of NRSROs and was limited in scope.
                                the Commission issue final rules and regula-            The review focused primarily on the imple-
                                tions necessary to carry out the Act’s require-         mentation of and compliance with the Rating
                                ments within nine months after the date of              Agency Act and Commission rules. We also
                                enactment. The Commission adopted rules to              reviewed the Commission’s history with
                                implement the requirements of the Act in                NRSROs to assess the Commission’s efforts to
                                June 2007. Since the Rating Agency Act be-              oversee the NRSROs and to implement the
                                came effective, the Commission received 11              Rating Agency Act’s accountability, competi-
                                applications from a total of ten CRAs seeking           tion and transparency objectives. The OIG
                                NRSRO designation, all of which were ap-                did not take any position on, or render any
                                proved.                                                 opinion, with regard to how many firms the
                                                                                        Commission should approve as NRSROs and
                                     The CRAs have once again come under                whether the larger CRAs should be favored
                                criticism for the role they played in connection        over smaller CRAs.
                                with the recent financial crisis. Specifically,
                                the CRAs provided ratings on structured fi-
                                nance products that were based on risky or                Results
                                “subprime” mortgages. After home values
                                decreased beginning in 2006, the market value              Overall, our review found that, despite the
                                of the mortgage securities declined, resulting          importance of NRSROs to the U.S. securities


                                                                                   39
SEMIANNUAL REPORT TO CONGRESS
                                markets and the Commission’s reliance on           sents to a longer time period. The Rating
                                NRSROs in its rules and regulations, the           Agency Act provides that the Commission
                                Commission has historically been slow to act       shall grant the application except under cer-
                                in this area, even after Enron’s bankruptcy        tain circumstances, including where the CRA
                                and a Senate staff report recommendation           does not comply with the statutory require-
                                that the Commission set specific conditions on     ments and if the CRA lacks adequate finan-
                                the NRSRO designation. While, beginning in         cial and managerial resources to consistently
                                1994, the SEC issued concept releases, con-        produce credit ratings with integrity and to
                                ducted examinations, issued reports, held          materially comply with their disclosed proce-
                                hearings and proposed regulations, it adopted      dures and methodologies.
                                no regulations regarding NRSROs until re-
                                quired to do so after the Rating Agency Act            In its recommendation to the Commis-
                                was enacted in 2006. Further, our review           sion, TM acknowledged that its concerns
                                identified certain instances of non-compliance     about the CRA’s application were unresolved,
                                with the requirements of the Rating Agency         but recommended that they be addressed in
                                Act or Commission rules, as well as several        an examination of the firm to be conducted
                                areas in which we believe the SEC’s oversight      after the application was approved. Our re-
                                of NRSROs can be enhanced. The current             view found that an examination of this firm
                                SEC Chairman has, however, identified im-          was not initiated until ten months after the
                                proving the quality of credit ratings as one of    Commission approved its application and that
                                her priorities, directed the SEC staff to ex-      this examination still has not been completed.
                                plore possible new NRSRO regulations and           Because the issues identified by TM were re-
                                allocated additional resources to establish a      lated to whether the firm had met the statu-
                                branch of NRSRO examiners.                         tory eligibility requirements, our review con-
                                                                                   cluded that in accordance with the provisions
                                     Most significantly, our review’s compliance   of the Rating Agency Act, TM should not
                                testing identified one NRSRO application that      have recommended that the Commission ap-
                                the Commission approved based upon the Di-         prove the CRA’s application. Rather, TM
                                vision of Trading and Market’s (TM) recom-         should have recommended that the Commis-
                                mendation, despite the fact that TM identified     sion institute proceedings to determine
                                numerous significant concerns with the CRA’s       whether it should deny the application or have
                                application. These included concerns about         sought the CRA’s consent to an additional pe-
                                the adequacy of the CRA’s managerial re-           riod of time for the Commission to act on the
                                sources, suspicions regarding the accuracy of      application.
                                the financial information provided in its appli-
                                cation, and concerns about the authenticity of          Our compliance testing also revealed that,
                                a number of certifications required by the         while not to the same degree as with the ap-
                                Rating Agency Act. Under the process estab-        plication discussed above, TM identified nu-
                                lished by the Rating Agency Act, within 90         merous substantive concerns regarding the
                                days upon the filing of a CRA’s application for    applications of several other CRAs. These
                                NRSRO designation, the Commission must             included, among others, concerns about the
                                either approve the application or institute pro-   financial condition of a CRA, the absence of
                                ceedings to determine whether the application      required information regarding a CRA’s proc-
                                should be denied, unless the applicant con-        ess for rating structured products, and con-



                                                                                   40
SEMIANNUAL REPORT TO CONGRESS
                                cerns about some CRAs’ procedures for han-               fied with the applications could have been re-
                                dling material non-public information. De-               solved before TM made a recommendation
                                spite these numerous issues, which we believe            on those applications.
                                raised questions as to whether the approval of
                                these applications was in the public interest,                Our review also disclosed a number of
                                TM recommended that the Commission ap-                   policy issues involving NRSROs that the
                                prove the applications and stated that it would          Commission should address in order to en-
                                address the issues after the applications were           hance NRSRO oversight and improve the
                                approved. Our review found risks in this ap-             quality of credit ratings. These included,
                                proach and concluded that all significant is-            among others: (1) imposing further restric-
                                sues should be resolved before TM recom-                 tions on the consulting and advisory services
                                mends that the Commission approve a CRA’s                that NRSROs perform for issuers, underwrit-
                                application for NRSRO registration, to the               ers or obligors that have paid the NRSROs for
                                extent consistent with the Rating Agency Act.            credit ratings; (2) requiring NRSROs to moni-
                                                                                         tor and appropriately revise credit ratings on a
                                     The compliance testing also disclosed sev-          periodic basis; (3) implementing a credit rating
                                eral instances where TM did not comply with,             analyst rotation requirement in order to re-
                                or require firms to comply with, certain pro-            duce the risk of undue pressure on credit rat-
                                cedural requirements of the Rating Agency                ing analysts; (4) requiring enhanced disclo-
                                Act and the Commission’s implementing rules.             sures by NRSROs regarding the credit ratings
                                For example, in two instances, TM, acting on             process, including the key assumptions used in
                                its own, granted NRSROs extensions of time               credit ratings methodologies and procedures
                                to file required annual certifications or reports        and any shortcoming of or limitations on
                                when the applicable statute and regulation               credit ratings; (5) evaluating whether the qual-
                                required such extensions to be granted by the            ity of credit ratings is being negatively im-
                                Commission. The compliance testing also                  pacted by the revolving door, i.e., credit rating
                                revealed instances where TM received and                 analysts leaving to work for an issuer as to
                                accepted forms or reports from NRSROs that               which the analyst previously provided a credit
                                did not include a required financial statement           rating; (6) conducting an assessment of the
                                or certifications.                                       potential effects on competition in the
                                                                                         NRSRO industry of the proposed amend-
                                     We also identified several areas in which           ments regarding the disclosure of material
                                the effectiveness of OCIE’s NRSRO examina-               non-public information to other NRSROs, but
                                tion program could be improved. In particu-              not to CRAs that do not have NRSRO desig-
                                lar, our review found that the Commission’s              nation; (7) recommending rules designed to
                                ability to determine whether a CRA applying              address the problem of forum shopping for
                                for NRSRO registration has met the require-              credit ratings, i.e., seeking a credit rating from
                                ments of the Rating Agency Act would sig-                multiple NRSROs and hiring the one that
                                nificantly be enhanced if examinations were              provides the highest credit rating, to reduce
                                conducted as part of the application review              the potential harmful effects on the quality of
                                process, rather than after the application has           credit ratings; and (8) soliciting and obtaining
                                been approved. If examinations had been                  public comment on CRAs’ applications for
                                conducted as part of the review process for              NRSRO designation. In addition, our review
                                the applications discussed above, it is likely           identified several areas in which the
                                that some of the significant issues TM identi-           Commission’s annual report to Congress, as

                                                                                    41
SEMIANNUAL REPORT TO CONGRESS   required by the Rating Agency Act, could be              tory requirements pertaining to NRSROs,
                                improved.                                                that TM: (1) ensure in the future that it seeks
                                                                                         Commission orders regarding NRSROs when
                                                                                         required by statute or the Commission’s rules;
                                  Recommendations                                        and (2) ensure that CRAs applying for
                                                                                         NRSRO registration and firms that are regis-
                                    The OIG issued its final report on August            tered as NRSROs comply with the
                                27, 2009, which included a total of 24 rec-              Commission’s rules and requirements regard-
                                ommendations for improvements that we be-                ing the filing and certification of financial
                                lieve are needed to ensure compliance with               information.
                                the Rating Agency Act and the Commission’s
                                implementing regulations and to enhance                      In addition, our review made several rec-
                                NRSRO oversight.                                         ommendations designed to improve the effec-
                                                                                         tiveness of OCIE’s NRSRO examination pro-
                                    Specifically, we made several recommen-              gram, including the seeking of legislative
                                dations designed to ensure compliance with               authority to conduct examinations of CRAs
                                the NRSRO application approval process es-               as part of the NRSRO application process,
                                tablished by the Rating Agency Act. These                the inclusion of NRSROs in OCIE’s pilot
                                included, among others, that TM (1) ensure               monitoring program, and obtaining an addi-
                                that all significant issues identified in the ap-        tional review of OCIE’s NRSRO examination
                                plication review process are resolved prior to           module by someone with industry expertise.
                                TM recommending approval of the applica-
                                tion by the Commission; (2) in consultation                   With regard to the numerous NRSRO
                                with the appropriate offices, evaluate whether           policy issues that our review found the Com-
                                action should be taken regarding the CRA                 mission should address to enhance its over-
                                that was granted NRSRO designation despite               sight of NRSROs, we made several recom-
                                the numerous significant problems identified             mendations pertaining to, among other things:
                                with the application; and (3) ensure that all            (1) performing examination work regarding
                                pending issues previously identified during the          and assessing the adverse effect of the provi-
                                NRSRO application process be resolved                    sion of consulting and advisory service on the
                                within six months of the date of the issuance            quality of credit ratings; (2) implementing a
                                of the OIG’s report. We also recommended                 comprehensive credit rating monitoring re-
                                that TM, in consultation with other appropri-            quirement for NRSROs; (3) performing ex-
                                ate offices, request that the Office of General          amination work regarding and assessing un-
                                Counsel develop guidance to assist TM in de-             due influence on credit rating analysts and the
                                ciding under what circumstances it should                benefits of an analyst rotation requirement; (4)
                                seek consent from an applicant to waive the              recommending additional disclosures about
                                90-day statutory time period for Commission              the credit ratings process; (5) examining and
                                action on an NRSRO application, or recom-                assessing whether the revolving door problem
                                mend that the Commission institute proceed-              is negatively impacting the quality of credit
                                ings to determine whether registration should            ratings; (6) assessing the potential effects on
                                be denied.                                               competition in the credit rating industry of
                                                                                         proposed amendments regarding the disclo-
                                   We further recommended, in order to                   sure of material non-public information to
                                achieve compliance with statutory and regula-            other NRSROs, but not to CRAs that do not

                                                                                    42
SEMIANNUAL REPORT TO CONGRESS   have NRSRO designation; (7) recommending                (U.S.C.), Section 552. It generally provides
                                rules to reduce the potential harmful effects of        that any person has a right of access to agency
                                forum shopping on the quality of credit rat-            records, with certain exceptions. Agency re-
                                ings; and (8) incorporating the seeking and             cords that are not available to the public
                                consideration of public comments into the               through “reading rooms,” may be made avail-
                                NRSRO oversight process. Finally, we made               able in response to FOIA requests. All U.S.
                                several suggestions for including additional            government agencies are required to disclose
                                concepts identified by our review in the                their records, or portions of the records, upon
                                Commission’s annual report to Congress re-              receiving a written request, except when the
                                garding NRSROs.                                         records are protected from disclosure under
                                                                                        one or more of the FOIA’s nine exemptions.
                                    The Office of the Chairman and OCIE                 Pursuant to the Act, the right of access is en-
                                concurred with the 13 recommendations di-               forceable in court. The Act also generally re-
                                rected to these offices. TM fully or partially          quires agencies to respond to FOIA requests
                                concurred with 12 of the 13 recommenda-                 within 20 working days and to notify request-
                                tions directed to that Division. On September           ers of their right to appeal a response denying
                                17, 2009, the Commission voted to take sev-             access to records.
                                eral rulemaking actions to bolster oversight of
                                CRAs by enhancing disclosure and improving                   In FY 2007, the FOIA/PA Office had ap-
                                the quality of credit ratings, thereby address-         proximately 28 full-time personnel, total
                                ing several of the issues identified by the OIG.        FOIA processing costs were $3.78 million, and
                                                                                        the SEC collected $140,106 in fees, represent-
                                                                                        ing about 3.7 percent of its actual processing
                                Review of the SEC’s Compliance with                     costs. In FY 2008, the FOIA/PA Office had
                                the Freedom of Information Act                          27 full-time personnel, its processing costs
                                (Report No. 465)                                        were $4.29 million, and the office collected
                                                                                        $62,466 in fees, or 1.45 percent of the FY’s
                                  Background
                                                                                        processing costs. During FY 2007 through
                                    The OIG contracted with Elizabeth A.                2008, the SEC’s FOIA/PA Office’s achieve-
                                Bunker to conduct a review of the SEC’s                 ments were noteworthy. Overall, the FOIA/
                                Freedom of Information Act (FOIA or Act)                PA Office met and exceeded the backlog goals
                                processes and procedures. The review was                that were established in its “Program Action
                                conducted from March 2009 to July 2009.                 Plan.” The “Program Action Plan” was re-
                                The objectives of the review were to assess the         quired by Executive Order 13392, and was
                                SEC’s FOIA/Privacy Act (FOIA/PA) Office’s               submitted to the Department of Justice.
                                compliance with applicable laws and regula-             These results were accomplished with no sig-
                                tions, to assess the coordination with FOIA/            nificant changes in the FOIA/PA Office’s
                                PA Office liaison staff throughout the SEC,             staffing levels and overall costs. While other
                                select field offices, and the Office of General         divisions within the SEC had its staff and re-
                                Counsel (OGC), and to review the SEC’s                  sources increased to proactively make
                                compliance with prior OIG audit recommen-               information readily available to the public, the
                                dations.                                                FOIA/PA Office reduced its backlog and re-
                                                                                        sponded to new FOIA requests though neither
                                   The Act was enacted in 1966, and was                 its staff nor budget were increased.
                                codified in Title 5 of the United States Code

                                                                                   43
SEMIANNUAL REPORT TO CONGRESS     Results                                             systems is that even though a number of inves-
                                                                                      tigative cases may no longer be active, they
                                    The OIG’s review found that the manner            have not been officially closed in the data-
                                in which the SEC’s Chief FOIA Officer func-           bases. The effect of this weakness is that
                                tioned was not in compliance with the re-             Enforcement investigations, which for all in-
                                quirements of Executive Order 13392, or the           tents and purposes are closed, appear in the
                                OPEN Government Act. Prior to our review              databases as open. Therefore, the initial deci-
                                of the FOIA program in connection with this           sion, determining if any responsive
                                report, the SEC had not defined any explicit          information is available, can be faulty because
                                authorities, responsibilities, or reporting duties    searches are conducted using databases that
                                for the Chief FOIA Officer. During the                have incomplete and inaccurate information.
                                course of the review, the SEC took steps to fill      Thus, searches of these systems show that an
                                the Chief FOIA Officer position and to ad-            Enforcement investigation is open when it is in
                                dress deficiencies identified in the position.        fact essentially closed, so the requested FOIA
                                    Further, we reviewed data that measured           information relating to that investigation could
                                the SEC’s compliance with the FOIA and                actually be produced.
                                found that in all FOIA request disposition
                                categories, the SEC’s overall rate was signifi-            We also found that a second deficiency
                                cantly lower when compared to all other fed-          contributing to the inappropriate application
                                eral agencies. Specifically, we found that the        of FOIA exemption (b)(7)(A) was the SEC
                                SEC’s FOIA process denied the disclosure of           staff ’s judgment, without the visual inspection
                                information due to exemption (b)(7)(A), “Inter-       of documents, that the disclosure of any
                                ference with Law Enforcement Proceedings,”            information relating to an investigation (in-
                                in 67 percent of all FOIA denials in FY 2007          cluding information available publically) con-
                                and 66 percent in FY 2008. This exemption is          stitutes “interference with law enforcement
                                most frequently applied to requests for records       proceedings.” There was no well-documented
                                from the Division of Enforcement’s                    process for reviewing documents to segregate
                                (Enforcement) investigative caseload. We de-          potentially responsive documents that could
                                termined that the deficiencies in the SEC’s           be disclosed and, thus, the search may not be
                                method of processing FOIA requests may ac-            sufficient, particularly to justify an all-inclusive
                                count for the frequent use of the FOIA ex-            denial that is based on FOIA exemption
                                emption (b)(7)(A).                                    (b)(7)(A). Many decisions concerning the re-
                                                                                      sponsiveness of the records were inferred
                                    We also analyzed the SEC’s search process         broadly from the recorded narratives in the
                                for responsive records pursuant to the FOIA           inaccurate SEC systems and not by reviewing
                                and found that in many cases, this search             actual documents.
                                process actually prevented the discovery of
                                information that was responsive to FOIA re-                Notwithstanding Enforcement’s recent ef-
                                quests. Repeated studies issued by the GAO            forts to close cases that are inactive, we found
                                identified ongoing deficiencies and weaknesses        that cases labeled as “open” that show some
                                in Enforcement’s information systems, such as         investigative activity in its systems were most
                                inadequate integration with other systems for         often presumed to be exempt from disclosure
                                data entry and case record updates. The En-           unless the Enforcement FOIA liaison could
                                forcement’s FOIA liaison, corroborated by a           determine that a case was pending payments
                                GAO review, established that a weakness in its        (e.g., penalties or disgorgements) and that re-

                                                                                     44
SEMIANNUAL REPORT TO CONGRESS   sponsive information could be disclosed.               found ten examples of legal memoranda pre-
                                Thus, instead of actually reviewing relevant           pared by OGC attorneys that contained stan-
                                documents relating to the investigation that is        dardized, boilerplate legal explanations up-
                                the subject of the FOIA request, the FOIA              holding the SEC’s routine application of
                                liaison relied upon a database that did not            FOIA exemption (b)(7)(A).
                                fully have accurate information and made the
                                decision to withhold any and all potential re-             Some appeal case files that OIG examined
                                sponsive documents in their entirety. Also, we         for this review contained notes and copies of
                                determined that insufficient time and atten-           e-mails that documented OGC attorneys’ at-
                                tion was paid to determining if a partial              tempt to verify the status of a case that was
                                FOIA release could be made.                            presumed to be “open,” prior to the appeal
                                                                                       being decided. However, there was no record
                                    The third obstacle that we found regarded          or any affidavit confirming a document review
                                the volume and organization of documents               was completed, or verifying that responsive
                                that needed to be reviewed, segregated, and            records were withheld “which, if released,
                                redacted by the Enforcement FOIA liaisons              could reasonably be expected to interfere with
                                and the FOIA/PA Office staff to properly               Enforcement’s proceedings,” neither at the
                                process the information that is subject to             time of the initial FOIA response, nor at the
                                FOIA exemption (b)(7)(A). Consultations with           time of the appeal.
                                information management staff from
                                Enforcement revealed that the volume of                    In our review, we found many cases where
                                information increased beyond the capabilities          no efforts were made to segregate portions of
                                of the available staff to address FOIA re-             records for disclosure purposes. Accordingly,
                                quests. The result was that case records,              the effect was a practical presumption in favor
                                whether closed, open and inactive, or open             of withholding information, rather than the
                                and active, were not consistently reviewed for         presumption of disclosure required by the
                                information that might be responsive to FOIA           FOIA. We found that when an initial FOIA
                                requests, because an exhaustive search to seg-         decision was appealed, while a thorough re-
                                regate releasable documents was often judged           view of responsive documents was still not
                                not to be feasible. While the volume of re-            performed, OGC personnel would at least
                                cords was never stated as a basis for a denial,        contact the staff attorney assigned to the in-
                                the expense and time that was needed to re-            vestigation that was the subject of the FOIA
                                view the documents effectively deprived the            request and obtain oral confirmation of the
                                requester of a legitimate response.                    status of the investigation. However, because
                                                                                       only a small percentage of requesters chal-
                                    We also found evidence that the OGC                lenged the initial denial by filing an appeal,
                                supported and defended the practice of lim-            the majority of requesters were deprived of
                                ited and perfunctory document review. We               this additional step taken by OGC attorneys.
                                examined 19 FOIA appeal case files that were
                                closed during FY 2007 and FY 2008. Our                     We further found that the practice of the
                                sample of 19 appeal files included 16 appeals          SEC not conducting a document-by-
                                from commercial requestors, two from media             document review had been challenged and
                                requesters, and a disputed fee charge from an          resulted in censure by the courts on two recent
                                individual requestor. Based on our review, we          occasions. These court decisions revealed the


                                                                                  45
SEMIANNUAL REPORT TO CONGRESS   SEC’s consistent pattern of non-disclosure             processes. Our report recommended that the
                                and exposed the SEC to the costs of litigation         Chairman’s Office ensure the Chief FOIA
                                and negative publicity. We determined that             Officer has sufficient SEC-wide support to
                                the current SEC practice and policy disre-             fulfill the responsibilities outlined in the
                                garded the intent of the FOIA to maximize              OPEN Government Act and should affirm the
                                disclosure and, more importantly, negated the          importance of the FOIA to the SEC’s mission.
                                principle of openness in government that is            We further recommended that the Chairman’s
                                embodied by the FOIA.                                  Office direct the Chief FOIA Officer to en-
                                                                                       sure that accurate searches are made for re-
                                     In addition, we found that the SEC had            sponsive information that go beyond
                                not established comprehensive management,              information available in the databases and, in
                                supervisory, or personnel practices for staff          the event of a denial of a FOIA request,
                                who were responsible for FOIA processing.              documented evidence is provided to certify
                                SEC management needed to improve the skill             that a document-by-document review to seg-
                                set of FOIA liaison staff by providing them            regate responsive records has been conducted.
                                with FOIA training opportunities, updating
                                position descriptions, and revising FOIA liai-             We recommended that OGC provide and
                                son staff ’s performance standards to include          enforce a clear policy of the separation of its
                                FOIA liaison duties. We also determined that           roles and responsibilities and stipulate that
                                inefficient retrieval systems, voluminous paper        OGC lawyers who provide advice and counsel
                                and electronic records, and documents that             regarding any initial FOIA request shall not
                                were not organized for efficient FOIA review           participate in the appeal process.
                                contributed to delays in processing FOIA re-
                                quests. Finally, we found that a March 2007                We also recommended that the Chair-
                                OIG audit report recommendation that FOIA              man’s Office direct the Chief FOIA Officer to
                                liaisons have access to a tracking system,             ensure that sufficient legal expertise is avail-
                                FOIAXpress, had not been fully implemented.            able to the FOIA/PA Operations staff to
                                We found that only three of 19 designated              process FOIA requests in compliance with the
                                FOIA liaisons in OGC and the Division of               FOIA, to correctly apply the exemptions, and
                                Corporation Finance reported that they had             to provide legal support to SEC staff regard-
                                read-only access to the FOIA database and              ing the Act.
                                used FOIAXpress regularly to check the
                                FOIA cases that are assigned to them. Other                 We also made recommendations concern-
                                liaisons we interviewed stated they did not            ing training opportunities for SEC staff ap-
                                know they had access to the FOIAXpress and             propriate for their level of FOIA responsibili-
                                did not know how they would use the                    ties, and specifically to fully implement the
                                information in that system to facilitate FOIA          productive and suitable use of the FOIAX-
                                work.                                                  press tracking and document management
                                                                                       system.

                                  Recommendations
                                                                                           The Chairman’s Office concurred with
                                    The OIG issued its final report on Sep-            the eight recommendations addressed to that
                                tember 25, 2009, containing ten recommen-              Office, and the OGC partially concurred with
                                dations designed to strength the SEC’s FOIA            the two remaining recommendations. We ex-


                                                                                  46
                                pressed our concern that the OGC did not                able, and reasonable; and determine if pro-
SEMIANNUAL REPORT TO CONGRESS
                                fully concur with the recommendation that               curement activities in the regional offices are
                                when the SEC denies a request under the                 effectively managed and whether individuals
                                FOIA, documented evidence should be pro-                performing procurement activities are prop-
                                vided to certify that there was a document-by-          erly trained.
                                document review to segregate responsive ma-
                                terials. We noted the OGC acknowledged in
                                its comments to our report that a Federal                 Results
                                court rejected its position that if an agency
                                establishes categories of documents, a                       The audit found that OAS’s Office of Ac-
                                document-by-document review is not neces-               quisitions (OA) did not maintain accurate re-
                                sary. We also expressed disappointment that             cords and data on their procurement and con-
                                the OGC was unwilling to enforce a clear                tracting activities. We requested a list of open
                                separation of roles and responsibilities under          and closed contracts from OA and the Office
                                the FOIA, and will continue its practice of             of Financial Management (OFM) to verify the
                                having the same personnel who counsel staff             universe of all SEC contracts. OA provided
                                during the initial FOIA request process later           us with a consolidated spreadsheet, which
                                evaluate the appeal decision, notwithstanding           consisted of its open contracts that were de-
                                the conflict. We fear that continuing this prac-        veloped based on data maintained and
                                tice will compromise the FOIA process and               tracked by three different contracting officers.
                                deprive FOIA requesters from receiving an               We found that these three contracting officers
                                impartial and unbiased review during an ap-             maintained the contracts under their purview
                                peal.                                                   differently. Our review of the consolidated
                                                                                        spreadsheet further found that 14 of 50 data
                                                                                        fields on the spreadsheet were blank. The con-
                                Audit of the Office of Acquisitions’                    tracting officers’ spreadsheets are the main
                                Procurement and Contract                                instruments that OA uses to track its pro-
                                Management Functions                                    curement and contracting data for the SEC’s
                                (Report No. 471)                                        headquarters offices/divisions and select re-
                                                                                        gional offices. Yet, OA did not have policies
                                  Background
                                                                                        or standard operating procedures to identify
                                    The OIG contracted with Regis and Asso-             the acquisition data that should be tracked
                                ciates, PC (Regis) to conduct an audit of the           and how its contracting officers should main-
                                SEC’s contract management processes and                 tain contracting data. We also found that
                                functions covering Fiscal Years 2006 to 2008.           OA’s consolidated spreadsheet could not be
                                Regis conducted the audit during January and            reconciled with OFM’s records. Furthermore,
                                February 2009. The objectives of the audit              we found that OA was unable to provide re-
                                were to identify the population of contracts            quested data on contracting activities that
                                and other procurement vehicles administered             originated from the regional offices.
                                by the Office of Administrative Services
                                (OAS); determine if cost-reimbursable type                  The audit also found that contracting data
                                contracts have been properly closed in accor-           reported in the Federal Procurement Data
                                dance with the Federal Acquisition Regulation           System (FPDS) was not accurate. We found
                                (FAR) and if the costs were allowable, alloc-           the data OA reported to FPDS did not include



                                                                                   47
SEMIANNUAL REPORT TO CONGRESS   all of the SEC’s procurement activities, such            procedures governing the management of
                                as modifications and information regarding               OA’s procurement and contracting function.
                                procurement contracts for the regional offices.
                                We further found that a significant number of
                                personnel did not understand all of their job              Recommendations
                                functions and did not know how to use the
                                FPDS.                                                         On September 25, 2009, we issued the
                                                                                         final audit report containing ten recommenda-
                                     The audit further found that OA did not             tions to help strengthen management controls
                                adequately oversee and monitor regional of-              with respect to the SEC’s procurement and
                                fices’ contract activities or training of person-        contract management functions. These rec-
                                nel. An OIG survey found that OA granted                 ommendations included the development of:
                                16 personnel in the regional offices limited             (a) record-keeping standard operating proce-
                                warrant authority to enter into contracts for            dures to track procurement and contracting
                                Enforcement. However, OA did not establish               activities; (b) a periodic internal review process
                                a process by which its contracting officers              to ensure that the newly-developed record-
                                would have oversight or knowledge of these               keeping standards are followed; (c) an internal
                                contracts, and the regional office personnel             process to ensure procurement data is accu-
                                were not required to submit monthly, quar-               rately and fully reported in the FPDS for both
                                terly, or even annual reports on contract ac-            the headquarters and regional offices/
                                tivities to OA. We also found that some of               divisions; (d) an acquisition training plan to
                                these regional office personnel were unfamiliar          ensure all headquarters and regional offices/
                                and not in compliance with applicable federal            divisions acquisition workforce performing
                                and SEC regulations.                                     procurement and contracting duties have req-
                                                                                         uisite acquisition training that complies with
                                    We also found in the audit that OA did not           the applicable Office of Federal Procurement
                                have an adequate migration plan for its new              Policy training requirements; and (e) an inter-
                                automated procurement system, PRISM, they                nal review process and checklist to further en-
                                were not adequately supporting payments on               sure compliance with the FAR contract close-
                                time-and-materials and labor-hour contracts,             out procedures. In addition, the audit rec-
                                and they have not been conducting contract               ommended that the SEC determine the uni-
                                close-out procedures in compliance with SEC              verse of active and open contracts and the
                                and FAR regulations.                                     corresponding value of the contracts, provide
                                                                                         regional offices with appropriate oversight,
                                    The audit found that these deficiencies              and provide for revisions to OA’s data migra-
                                resulted from the absence of comprehensive               tion plan and the reeducation of the acquisi-
                                data that is needed to manage operations and             tion workforce on the FAR requirements that
                                report on performance, inconsistent opera-               are related to time-and-materials, and labor-
                                tional processes, performance of contractual             hour contracts.
                                functions by inadequately trained personnel at
                                the regional offices, noncompliance with FAR                 Management concurred with all ten OIG
                                and SEC procurement and contracting poli-                recommendations.
                                cies, and the lack of adequate policies and



                                                                                    48
                                Management Alert - Microsoft Premier                    June 1, 2006 to May 31, 2007) and three op-
SEMIANNUAL REPORT TO CONGRESS
                                Support Services Contract                               tion years. The total contract value, including
                                (Report No. 469)                                        all option years, amounted to $1,009,643.
                                  Background
                                                                                            On May 10, 2007, OA issued a modifica-
                                    The OIG conducted a limited-scope re-               tion to exercise and fully fund Option Year 1
                                view of the Commission’s sole-source contract           of the contract. On May 22, 2008, the SEC
                                for Microsoft Premier Support Services as a             issued a modification to exercise and fully
                                result of an anonymous complaint received               fund Option Year 2 of the contract, which
                                through the GAO. The complaint raised con-              also incorporated an attached amendment.
                                cerns regarding the method that was used to             The amendment expanded the scope of the
                                award the contract and the Commission’s sub-            contract by enhancing the existing software
                                sequent issuance of contract modifications              support options, adding consulting services to
                                that the complainant believed were outside the          the contract’s scope on a Firm Fixed Price In-
                                scope of the original contract. The review              definite Delivery Indefinite Quantity basis,
                                was conducted during April and May 2009.                and including language to incorporate 96
                                                                                        agencies that are members of the Federal
                                     On March 27, 2006, Microsoft provided              Small Independent Agency (FSIA) Chief
                                OA with a proposal pertaining to the acquisi-           Information Officer Council as “affiliates” to
                                tion of software support services (termed Mi-           the contract.
                                crosoft Premier Support Services), based on its
                                understanding of OA’s requirements and its
                                past experience in working with the SEC. On               Results
                                April 27, 2006, the SEC’s Office of
                                Information Technology (OIT) and OA ap-                     The review identified five significant prac-
                                proved a justification and approval (J&A) for           tices related to the award of the Microsoft
                                other than full and open competition and                contract that are problematic. First, we found
                                                                                        that OA’s J&A did not support purchasing the
                                awarded the Microsoft Premier Support Serv-
                                ices, contract SECHQ1-06-P-0176, to Micro-              Microsoft Premier Support Services directly
                                soft, citing as statutory authority, “41 U.S.C.         from Microsoft as opposed to obtaining those
                                253(c)(1) [Federal Acquisition Regulation               services from Microsoft resellers. Additionally,
                                (FAR)] 6.302-1(a)(2) – Only one responsible             the OIG determined that any future SEC
                                                                                        procurement for Microsoft Premier Support
                                source.” On that same day, OA publicized its
                                intent to award the sole-source contract for            Services should allow Microsoft resellers to
                                Microsoft software support services to Micro-           compete for the contract. By sole sourcing the
                                soft on the Federal Business Opportunities              requirement for these services, we found that
                                (FedBizOpps) website. While this notice was             OA excluded resellers, many of which are
                                                                                        small businesses.
                                not a request for quotations, interested con-
                                tractors were allowed to submit their capabili-
                                ties and qualifications to perform the effort in            Second, we found that the J&A for the
                                writing to OA by May 4, 2006. On May 5,                 Microsoft contract was not approved by the
                                2006, OA awarded a contract to Microsoft for            appropriate level of contracting official. FAR
                                                                                        6.304, Approval of the Justification, requires
                                $227,400 for the software support services.
                                The award document stated that the period of            justifications for other than full and open
                                performance consisted of a base year (from              competition for proposed contract actions

                                                                                   49
                                over $550,000, but not exceeding                        ices, and was marked on its face as a delivery
SEMIANNUAL REPORT TO CONGRESS
                                $11,500,000, to be approved by the competi-             order, although it was referred to elsewhere in
                                tion advocate designated pursuant to FAR                the document as a contract. The requirement
                                6.501, or an official described in paragraph            was then reported to the Federal Procurement
                                a(3) or a(4) of FAR 6.304. FAR 6.502, Duties            Data Center as a purchase order. Further, the
                                and Responsibilities, states that one of the du-        award was only signed by the contracting offi-
                                ties of a competition advocate is to review the         cer and not by a Microsoft representative.
                                contracting operation of the agency and iden-           Accordingly, we found it questionable whether
                                tify and report to the agency senior procure-           the award even constituted a properly exe-
                                ment executive “[a]ny condition or action that          cuted and binding contract.
                                has the effect of unnecessarily restricting the
                                acquisition of commercial items or competi-                 Fourth, we found that OA improperly ex-
                                tion in the contract actions of the agency . . .        panded the scope of the original contract
                                .” In a memorandum for Chief Acquisition                when it exercised Option Year 2, essentially
                                Officers and Senior Procurement Executives              violating the FAR’s competition requirements.
                                from Paul A. Denett, Subject: Enhancing                 FAR Part 5, Publicizing Contract Actions, re-
                                Competition in Federal Acquisition, dated               quires any contract actions for additional sup-
                                May 31, 2007, the Administrator of the Office           plies or services outside the existing contract
                                of Federal Procurement Policy requested that            scope to be publicized to the Government-
                                agencies “reinvigorate the role of the competi-         wide point of entry (GPE) in order to increase
                                tion advocate.” We found that the April 27,             competition, broaden industry participation in
                                2006 J&A erroneously reflected only the base            meeting Government requirements, and to
                                year contract value of $228,100 and was not             assist small business concerns in obtaining
                                signed by the competition advocate, although            contracts and subcontracts. The GPE may be
                                the total contract value was in excess of               accessed via the Internet at
                                $1,000,000. The contract file contained a               http://www.fedbizopps.gov.
                                proposal that Microsoft had provided to OIT
                                on March 27, 2006, which showed a proposed                  On May 22, 2008, OA modified the origi-
                                total contract price of $1,009,643, consisting          nal Microsoft contract by exercising Option
                                of a base year and three option years. The              Year 2 and amending the terms and condi-
                                J&A, however, only contained the dollar                 tions of the contract. The amendments,
                                amount for the base year and was signed only            which were drafted by Microsoft, clearly ex-
                                by the contracting officer. Had the J&A been            panded the scope of the contract by: (1) en-
                                signed by the competition advocate as re-               hancing existing software support options
                                quired by the FAR, this individual may have             (Premier Support Services by Microsoft); (2)
                                discovered the aforementioned deficiencies              adding consulting services to the scope of the
                                regarding the sole source statutory authority           contract on a Firm Fixed Price Indefinite De-
                                before the contract was awarded.                        livery Indefinite Quantity basis; and (3) includ-
                                                                                        ing language to add 96 agencies that are
                                    Third, we determined that the type of               members of the FSIA Chief Information Of-
                                contract vehicle that was used to procure the           ficer Council as affiliates to the contract. De-
                                Microsoft Premiere Support Services was im-             spite Microsoft’s clear intent to expand its
                                proper. The contract was awarded using Op-              services to the SEC and to provide a vehicle
                                tional Form 347, Order for Supplies and Serv-           under which other agencies could order the


                                                                                   50
SEMIANNUAL REPORT TO CONGRESS   same expanded services under the SEC’s con-              award of the Microsoft contract and subse-
                                tract, we found no documentation in the con-             quent modification. Management issued a
                                tract file to show that OA recognized or ac-             response on August 17, 2009, in which it
                                knowledged that the amendment Microsoft                  agreed with the findings, stated it would take
                                provided was outside the scope of the original           action to remedy the deficiencies identified,
                                contract. Accordingly, the contract action was           and promised to ensure that future procure-
                                not publicized on FedBizOpps as required by              ments are conducted appropriately and in ac-
                                the FAR, and no J&A was prepared to cover                cordance with the regulations.
                                the additional consulting services. Further, by
                                naming other agencies as affiliates to the con-
                                tract, OA may have opened the SEC up to                  PENDING AUDITS AND EVALUATIONS
                                unexpected contractual and legal implications.
                                Accordingly, we determined that it appeared              Review of the Commission’s
                                that OA violated the FAR’s competition re-               Processes for Selecting Investment
                                                                                         Advisers and Investment Companies
                                quirements and provided a vehicle for other              for Examination
                                agencies to do the same. Additionally, we did
                                not believe the SEC had authority to enter                   We will be shortly issuing our final report
                                into this type of multi-agency contract agree-           in connection with the SEC’s failure to un-
                                ment without first obtaining approval from the           cover Madoff ’s Ponzi scheme. Previously, we
                                Office of Federal Procurement Policy.                    issued a 457-page investigative report, as well
                                                                                         as two audit reports providing recommenda-
                                    Fifth, we noted that the price reasonable-           tions for both Enforcement and OCIE to im-
                                ness determination for the original contract             prove their operations based on our investiga-
                                award cited FAR 13.106, Soliciting Competi-              tive findings. These reports are described in
                                tion, Evaluation of Quotations or Offers,                detail in the Investigations and Inquiry Con-
                                Award and Documentation, as the basis for                ducted and the Audits and Evaluations Con-
                                determining that Microsoft’s price was fair              ducted sections of this report, respectively.
                                and reasonable. FAR, Part 13, Simplified Ac-
                                quisition Procedures, however, pertains to                    The investigative report chronicled in de-
                                price reasonableness under simplified acquisi-           tail how the SEC Enforcement staff effectively
                                tion procedures. Because the value of the Mi-            closed the Madoff investigation in August
                                crosoft contract was in excess of $100,000,              2006, after Madoff agreed to register as an
                                simplified acquisition procedures were not ap-           investment adviser. The investigative report
                                plicable in this situation.                              found that the SEC Enforcement lawyers be-
                                                                                         lieved that this was a “beneficial result” be-
                                                                                         cause, once he registered, “he would have to
                                  Recommendations                                        have a compliance program, and he would be
                                                                                         subject to an examination by [the Investment
                                   OIG issued the Management Alert memo-                 Adviser] team.” Further, the Branch Chief on
                                randum to OAS managers on August 10,                     the Enforcement investigation stated that “one
                                2009, to make them aware of the OIG’s con-               of the reasons that registration felt really im-
                                cerns. The memorandum requested that                     portant to [them] was to – keep opening him
                                management respond within five business days             to extra regulatory scrutiny, you know, in case
                                and identify what actions would be taken to              there was something that [they] just weren’t
                                address the five significant areas related to the        able to find.” However, we found that no ex-

                                                                                    51
SEMIANNUAL REPORT TO CONGRESS   amination was ever conducted of Madoff af-              SEC’s contracting activities identified a num-
                                ter he registered as an investment adviser.             ber of potential risk areas that could affect the
                                                                                        management of its interagency agreements.!
                                    As a consequence of the findings discussed
                                above, we are performing a review to analyze                We are finalizing our audit to assess
                                the circumstances surrounding the failure of            whether the SEC obtains, manages, and closes
                                OCIE’s investment adviser program to con-               interagency agreements and acquisitions in
                                duct an examination of Madoff. The specific             accordance with applicable requirements. We
                                objectives of this review are to determine the          expect to issue the audit report shortly.
                                SEC’s rationale for not performing an exami-
                                nation of Madoff ’s investment advisory busi-
                                ness soon after the firm registered as an in-           Audit of the SEC’s Information
                                vestment adviser in 2006, and to make rec-              Technology Investment Process
                                ommendations to improve OCIE’s process for
                                                                                            We have also commenced an audit of the
                                selecting which investment advisers and in-
                                                                                        SEC’s approval process for major IT invest-
                                vestment companies it examines. In this re-
                                                                                        ments. The audit will examine whether pro-
                                view, we will analyze Madoff ’s filings with the
                                                                                        cedures exist to ensure that major IT invest-
                                Commission as a result of his investment ad-
                                                                                        ments are properly approved by the appropri-
                                viser registration, as well as OCIE’s processes
                                                                                        ate IT boards as outlined in the SEC’s Capital
                                for identifying risks related to investment ad-
                                                                                        Planning and Investment Control (CPIC) by-
                                visers, and for rating and examining invest-
                                                                                        laws. We will determine whether the CPIC
                                ment advisers.
                                                                                        structure, approval processes and procedures
                                                                                        adhere to governing Commission policy and
                                                                                        applicable Federal laws and regulations. We
                                Assessment of Interagency Acquisition
                                Agreements to Improve Efficiency                        will further assess whether major IT invest-
                                                                                        ment projects are properly approved by the
                                    The OIG is continuing its audit of the              appropriate agency committees or boards.
                                SEC’s interagency agreements and acquisi-
                                tions. Government agencies use interagency                  The OIG will also survey the SEC’s offices
                                agreements and acquisitions to take advantage           and divisions to assess whether all major IT
                                of contracts, expertise and experience in other         investments are properly controlled through-
                                government agencies that they might not have            out the agency.
                                internally. They can also use interagency
                                agreements and acquisitions to provide serv-
                                ices to other agencies. Interagency agree-              2009 Federal Information Security
                                ments provide government agencies with con-             Management Act Assessments
                                venient access to commonly-needed goods
                                                                                            The OIG has contracted with the Com-
                                and services. Using these types of acquisitions
                                                                                        mand, Control, Communications, Collabo-
                                can provide an agency with improved effi-
                                                                                        rate, Combat and Intelligence Corporation
                                ciency and convenience through a streamlined
                                                                                        (C5i) to perform an independent review of the
                                procurement process. However, interagency
                                                                                        SEC’s IT systems, in accordance with the
                                agreements must be effectively managed. In
                                                                                        Federal Information Security Management
                                2005, the GAO designated the management
                                                                                        Act. C5i will independently evaluate and re-
                                of interagency contracting as a high-risk area.
                                                                                        port on how the SEC has implemented its
                                Also, a recent risk assessment survey of the
                                                                                   52
SEMIANNUAL REPORT TO CONGRESS   mandated information security requirements            conduct testing and work in the areas of sensi-
                                regarding the following components:                   tive payments and contract and consulting
                                                                                      services (described in more detail below). The
                                •   Security management structure;                    OIG will also determine whether the SEC’s
                                                                                      special-purpose financial statements, and the
                                •   Risk management process;                          accompanying notes, fairly present the
                                                                                      agency’s financial position in all material re-
                                •   System security plans;                            spects. We will further test the intragovermen-
                                                                                      tal and other related parties activity balances,
                                •   Certification and accreditation process;
                                                                                      render an opinion, transmit the SEC’s finan-
                                •   Computer incident response capability;            cial statements and legal representation letter,
                                                                                      and complete the agreed-upon procedural re-
                                •   Contingency planning process and proce-           quirements.
                                    dures;

                                •   Security awareness environment;                   FY 2009 Assessment of Sensitive
                                                                                      Payments
                                •   Life-cycle management of security and
                                    management of personnel security; and                 The OIG is performing an assessment of
                                                                                      the SEC’s sensitive payment areas in support
                                •   Privacy.                                          of the GAO’s audit of the SEC’s FY 2009 fi-
                                                                                      nancial statements. Specifically, the OIG will
                                    C5i will also conduct an assessment of two        assess the effectiveness of management con-
                                major SEC security programs, encryption and           trols over sensitive payments and contract and
                                privacy, and determine whether the programs           consulting services for senior executive salaries
                                meet the Office of Management and Budget’s            and bonuses, official entertainment, consulting
                                and the National Institute of Standards and           services, speaking honoraria and gifts, execu-
                                Technology’s requirements.                            tive perquisites, etc., to ensure compliance
                                                                                      with applicable requirements and to detect
                                                                                      fraud, waste or mismanagement. We will test
                                U.S. Securities and Exchange                          the sensitive payment areas to ensure that the
                                Commission’s FY 2009 Financial
                                Statements                                            SEC’s senior executives adhere to established
                                                                                      policies and procedures over sensitive pay-
                                    The GAO conducts the SEC’s financial              ments and to determine whether inappropri-
                                statement audit. In support of the SEC’s FY           ate acts or misconduct have occurred.
                                2009 financial statement audit, the OIG will




                                                                                 53
54
U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          INVESTIGATIONS

                                          OVERVIEW                                                     The Office of Investigations conducts
                                                                                                  thorough and independent investigations in
                                              The OIG’s Office of Investigations re-              accordance with the Quality Standards for
                                          sponds to allegations of violations of statutes,        Investigations of the Council of the Inspectors
                                          rules and regulations, and other misconduct by          General on Integrity and Efficiency. In in-
                                          SEC staff and contractors. The misconduct               stances where it is determined that something
                                          investigated ranges from criminal wrongdoing            less than a full investigation is appropriate, the
                                          and fraud to violations of SEC rules and poli-          Office of Investigations conducts a prelimi-
                                          cies and the Government-wide standards of               nary inquiry into the allegation. If the
                                          conduct. The OIG receives complaints                    information obtained during the inquiry indi-
                                          through the OIG Hotline, an office electronic           cates that a full investigation is warranted, the
                                          mailbox or by mail, facsimile or telephone.             Office of Investigations will commence an in-
                                                                                                  vestigation of the allegation.
                                               The most common way complaints were
                                          received during this reporting period contin-               Upon the opening of an investigation, the
                                          ued to be through the OIG Hotline, which                primary OIG investigator assigned to the case
                                          consists of both telephone and web-based                prepares a comprehensive plan of investiga-
                                          complaint mechanisms. Complaints may be                 tion that describes the focus and scope of the
                                          made anonymously by calling the Hotline,                investigation, as well as the specific investiga-
                                          which is staffed and answered 24 hours a day,           tive steps to be performed during the investi-
                                          seven days a week. Complaints may also be               gation. In all investigations, the OIG investi-
                                          made to the Hotline through an Online Com-              gator interviews the complainant whenever
                                          plaint Form, which is accessible through the            feasible and conducts significant interviews
                                          OIG’s website. In addition to a mechanism               under oath and on the record. Where there is
                                          for the receipt of complaints, the OIG’s web-           any reason to believe a witness will not provide
                                          site also provides the public with an overview          truthful testimony, the OIG investigator pro-
                                          of the work of the Office of Investigations, as         vides an appropriate perjury warning. In ad-
                                          well as links to investigative memoranda issued         dition, the OIG investigator gives assurances
                                          by the Office.
                                                                                             55
SEMIANNUAL REPORT TO CONGRESS   of confidentiality to potential witnesses who            INVESTIGATIONS AND INQUIRIES
                                have expressed a reluctance to come forward.             CONDUCTED

                                    Where allegations of criminal conduct are            Failure of the SEC to Uncover Bernard
                                                                                         Madoff’s Ponzi Scheme
                                involved, the Office of Investigations notifies
                                and works with the Department of Justice,                  Opening of the Investigation
                                including the FBI, as appropriate. The OIG
                                also obtains necessary investigative assistance              On December 17, 2008, the OIG opened
                                from the SEC’s Office of Information                     an investigation after a request was made the
                                Technology (OIT), including the prompt re-               previous evening by former SEC Chairman
                                trieval of employee e-mail accounts as re-               Christopher R. Cox that the OIG investigate
                                quested by the OIG investigators and forensic            allegations made to the SEC regarding Ber-
                                analysis of computer hard drives. The OIG                nard L. Madoff (Madoff), who had just con-
                                investigative staff meets with the Inspector             fessed to operating a multi-billion dollar Ponzi
                                General frequently to review the progress of             scheme, and the reasons why the SEC had
                                ongoing investigations. The OIG investigative            found these allegations to be not credible.
                                unit also meets periodically with the
                                Commission’s Ethics Counsel to coordinate
                                activities.                                                Initial Investigatory Efforts

                                    Upon completion of an investigation, the                  On December 17, 2008, the OIG initiated
                                OIG investigator prepares a comprehensive                its first request for e-mail records from the
                                report of investigation that sets forth in detail        SEC’s OIT. Over the course of the investiga-
                                the evidence obtained during the investiga-              tion, the OIG made numerous requests from
                                tion. Investigative matters are referred to the          OIT for e-mails, including: (1) all e-mails of
                                Department of Justice and SEC management                 former Office of Compliance Inspections and
                                as appropriate. In the investigative reports             Examinations (OCIE) employee Eric Swanson
                                provided to SEC management, the OIG                      during his tenure with the SEC; (2) all e-mails
                                makes specific findings and recommendations,             of six staff members who were involved in the
                                including whether the OIG believes discipli-             SEC’s investigation of the Madoff firm that
                                nary or other action should be taken. The                was initiated in 2006 for the period from
                                OIG requests that management report back                 January 2006 through January 2008; (3) all e-
                                on the disciplinary action taken in response to          mails for SEC Headquarters, New York Re-
                                an OIG investigative report within 45 days of            gional Office (NYRO) and Boston Regional
                                the issuance of the report. The OIG follows              Office (BRO) staff members from January 1,
                                up as appropriate with management to de-                 1999 through December 11, 2008, that con-
                                termine the status of disciplinary action taken          tained the word “Madoff ”; (4) additional e-
                                in matters referred by the OIG.                          mails for approximately 68 current and for-
                                                                                         mer SEC employees for various time periods
                                                                                         relevant to the investigation, ranging from
                                                                                         1999 to 2009. In all, we estimate that we ob-




                                                                                    56
                                tained and searched approximately 3.7 million      Clearing Corporation (NSCC) relating to
SEMIANNUAL REPORT TO CONGRESS   e-mails during the course of our investigation.    clearing data records for executions effected
                                                                                   by Madoff ’s firms; and (3) the Financial In-
                                    On December 24, 2008, we sent compre-          dustry Regulatory Authority (FINRA) for Or-
                                hensive document requests to both the Divi-        der Audit Trail System (OATS) data submit-
                                sion of Enforcement (Enforcement) and              ted by Madoff ’s firms for six National Asso-
                                OCIE, specifying the documents and records         ciation of Securities Dealers Automated Quo-
                                we required to be produced for the investiga-      tations (NASDAQ)-listed stocks and the
                                tion. We followed up with memoranda to             NASDAQ Automated Confirmation of
                                OCIE in April, May and June of 2009. We            Transactions (ACT) database for a trading
                                also had follow-up communications with             period in March 2005.
                                Enforcement on January 21, 2009 and July
                                22, 2009. We further had numerous e-mail
                                and telephonic communications with both                Retention of Experts
                                OCIE and Enforcement regarding the scope
                                and timing of the document requests and re-             In order to assist us in the Madoff investi-
                                sponses, as well as meetings to clarify and ex-    gation, we retained two sets of outside con-
                                pand the document requests as was necessary.       sultants. In February 2009, we retained FTI
                                                                                   Consulting, Inc. (FTI Engagement Team) to
                                    We collected all the information produced      assist with the review of the examinations of
                                in response to our document production re-         Madoff and his firms that were conducted by
                                quests. We then carefully reviewed and ana-        the SEC. Members of the FTI Engagement
                                lyzed the investigative records of all SEC         Team included Charles R. Lundelius, Jr., Sen-
                                investigations conducted relating to Madoff,       ior Managing Director, Forensic and Litiga-
                                Madoff ’s firms, members of Madoff ’s family,      tion Consulting; Simon Wu, Managing Direc-
                                and Madoff ’s associates from 1975 to the pre-     tor, Forensic and Litigation Consulting; John
                                sent.                                              C. Crittenden III, Managing Director, Corpo-
                                                                                   rate Finance Group; and James Conversano,
                                    During the investigation, we also reviewed     Director, Forensic and Litigation Consulting.
                                the workpapers and examination files of nine       Each individual member of the FTI Engage-
                                SEC examinations of Madoff ’s firms from           ment Team brought a unique and specialized
                                1990 to December 11, 2008. Where docu-             experience to the analyses that the FTI En-
                                ments from the examinations were not avail-        gagement Team conducted, including exper-
                                able, we sought testimony and conducted in-        tise in complex financial fraud investigations,
                                terviews of current and former SEC person-         securities-related inspections and
                                nel who had worked on the examinations.            examinations, hedge fund operations, cash
                                                                                   flow analysis and valuations, market regula-
                                    We also sought information and docu-           tion rules, market structure issues, accounting
                                mentation from third parties in order to un-       fraud, investment suitability, the underwriting
                                dertake our own analysis of Madoff ’s trading      process and compliance and due diligence
                                records.! During the course of the OIG inves-      practices.
                                tigation, we requested and obtained records
                                from: (1) the Depository Trust Company                 At our direction, the FTI Engagement
                                (DTC) relating to position reports for             Team conducted a thorough review of all
                                Madoff ’s firms; (2) the National Securities       relevant workpapers and documents associ-


                                                                                  57
SEMIANNUAL REPORT TO CONGRESS   ated with the OCIE examinations of Madoff ’s               Testimony and Interviews Conducted
                                firm, scrutinized the conduct of the Madoff-               in the Madoff Investigation
                                related SEC examinations and investigations,
                                                                                             We also conducted 140 testimonies under
                                and analyzed whether the SEC examiners
                                                                                         oath or interviews of 122 individuals with
                                overlooked red flags that could have led to the
                                                                                         knowledge of facts or circumstances surround-
                                discovery of Madoff ’s Ponzi scheme. The FTI
                                                                                         ing the SEC’s examinations and/or
                                Engagement Team also replicated aspects of
                                                                                         investigations of Madoff and his firms. We
                                the OCIE cause examinations of Madoff to
                                                                                         interviewed all current or former SEC em-
                                determine whether the SEC sought the appro-
                                                                                         ployees who had played any significant role in
                                priate information in the examinations and
                                                                                         the SEC’s significant examinations and
                                analyzed that information correctly.
                                                                                         investigations of Madoff and his firms over a
                                                                                         period spanning approximately 20 years.
                                    In addition, OIT advised us during the
                                course of our investigation that there were
                                substantial gaps in the e-mails we were seeking
                                to review as part of our investigation because             Issuance of the Report of
                                                                                           Investigation
                                of failures to backup tapes, hardware or soft-
                                ware failures during the backup process, and/                 On August 31, 2009, we issued to the
                                or lost, mislabeled or corrupted tapes. In or-           Chairman of the SEC a comprehensive report
                                der to ensure that we were able to conduct a             of investigation (ROI) in the Madoff matter
                                thorough and comprehensive investigation, in             containing 457 pages of analysis. The com-
                                June 2009, we retained the services of First             plete public version of the report is available at
                                Advantage Litigation Consulting Services                 http://www.sec.gov/news/studies/2009/oig-5
                                (First Advantage) to assist us in the restoration        09.pdf. The ROI detailed the SEC’s response
                                and production of relevant electronic data.              to all complaints it received regarding the ac-
                                First Advantage’s team had significant experi-           tivities of Madoff and his firms, and traced the
                                ence in leading numerous large-scale elec-               path of these complaints through the Commis-
                                tronic discovery consulting projects, as well as         sion from their inception, reviewing the inves-
                                assisting with highly sensitive and confidential         tigative or examination work that was con-
                                investigations for corporations and the FBI.             ducted with respect to the allegations. Further,
                                                                                         the ROI assessed the conduct of examinations
                                    In connection with its retention on the              and/or investigations of Madoff and his firms
                                Madoff investigation, First Advantage pro-               by the SEC and analyzed whether the SEC
                                vided consulting and technical support to the            examiners or investigators overlooked red flags
                                OIG and the SEC, and was able to success-                (which other entities conducting due diligence
                                fully preserve and restore potentially relevant          identified) that could have led to a more com-
                                data within the universe of electronic data we           prehensive examination or investigation and
                                had requested from OIT. As a result, we were             the discovery of Madoff ’s Ponzi scheme.
                                able to review additional Madoff-related e-
                                mails that were pertinent to our investigation.             Our ROI also analyzed the allegations of
                                                                                         conflicts of interest arising from relationships
                                                                                         between any SEC officials or staff and mem-
                                                                                         bers of the Madoff family. This included an



                                                                                    58
SEMIANNUAL REPORT TO CONGRESS   examination of the role that former SEC                       The OIG investigation did find, however,
                                OCIE Assistant Director Eric Swanson, who                 that the SEC received more than ample
                                eventually married Madoff ’s niece Shana                  information in the form of detailed and sub-
                                Madoff, may have played in the examination                stantive complaints over the years to warrant a
                                or other work conducted by the SEC with re-               thorough and comprehensive examination
                                spect to Madoff or related entities, and                  and/or investigation of Bernard Madoff and
                                whether such role or relationship in any way              BMIS for operating a Ponzi scheme, and that
                                affected the manner in which the SEC con-                 despite three examinations and two
                                ducted its regulatory oversight of Madoff and             investigations being conducted, a thorough
                                any related entities.                                     and competent investigation or examination
                                                                                          was never performed. The OIG found that
                                    We have also considered the extent to                 between June 1992 and December 2008,
                                which the reputation and status of Madoff                 when Madoff confessed, the SEC received six
                                and the fact that he served on SEC Advisory               substantive complaints that raised significant
                                Committees, participated on securities indus-             red flags concerning Madoff ’s hedge fund op-
                                try boards and panels, and had social and pro-            erations and should have led to questions
                                fessional relationships with SEC officials, may           about whether Madoff was actually engaged
                                have affected Commission decisions regarding              in trading. Finally, the SEC was also aware of
                                investigations, examinations, and inspections             two articles regarding Madoff ’s investment
                                of his firms.                                             operations that appeared in reputable publica-
                                                                                          tions in 2001 and questioned Madoff ’s unusu-
                                                                                          ally consistent returns.
                                  Summary of Findings in the Report
                                  of Investigation                                            The first complaint, brought to the SEC’s
                                                                                          attention in 1992, related to allegations that
                                     The OIG investigation did not find evi-
                                                                                          an unregistered investment company was of-
                                dence that any SEC personnel who worked on                fering “100%” safe investments with high and
                                an SEC examination or investigation of Ber-
                                                                                          extremely consistent rates of return over sig-
                                nard L. Madoff Investment Securities, LLC
                                                                                          nificant periods of time to “special” custom-
                                (BMIS) had any financial or other inappropri-
                                                                                          ers. The SEC actually suspected the invest-
                                ate connection with Bernard Madoff, or the
                                                                                          ment company was operating a Ponzi scheme
                                Madoff family, that influenced the conduct of             and learned in its investigation that all of the
                                their examination or investigatory work. The
                                                                                          investments were placed entirely through
                                OIG also did not find that former SEC Assis-
                                                                                          Madoff and consistent returns were claimed
                                tant Director Eric Swanson’s romantic rela-
                                                                                          to have been achieved for numerous years
                                tionship with Bernard Madoff ’s niece, Shana
                                                                                          without a single loss.
                                Madoff, influenced the conduct of the SEC
                                examinations of Madoff and his firms. Fur-
                                                                                              The second complaint was very specific
                                ther, we did not find that senior officials at the
                                                                                          and different versions were provided to the
                                SEC directly attempted to influence
                                                                                          SEC in May 2000, March 2001 and October
                                examinations or investigations of Madoff or
                                                                                          2005. The complaint submitted in 2005 was
                                his firms, nor was there evidence any senior              entitled “The World’s Largest Hedge Fund is
                                SEC official interfered with the staff ’s ability
                                                                                          a Fraud,” and detailed approximately 30 red
                                to perform its work.
                                                                                          flags indicating that Madoff was operating a


                                                                                     59
SEMIANNUAL REPORT TO CONGRESS   Ponzi scheme, a scenario it described as                      The fifth complaint was received by the
                                “highly likely.” The red flags included the im-           SEC in October 2005 from an anonymous in-
                                possibility of Madoff ’s returns, particularly the        formant and stated, “I know that Madoff [sic]
                                consistency of those returns and the unrealistic          company is very secretive about their opera-
                                volume of options Madoff represented to have              tions and they refuse to disclose anything. If
                                traded.                                                   my suspicions are true, then they are running a
                                                                                          highly sophisticated scheme on a massive scale.
                                    In May 2003, the SEC received a third                 And they have been doing it for a long time.”
                                complaint from a respected Hedge Fund Man-                The informant also stated, “After a short pe-
                                ager identifying numerous concerns about                  riod of time, I decided to withdraw all my
                                Madoff ’s strategy and purported returns, ques-           money (over $5 million).”
                                tioning whether Madoff was actually trading
                                options in the volume he claimed, noting that                 The sixth complaint was sent to the SEC
                                Madoff ’s strategy and purported returns were             by a “concerned citizen” in December 2006,
                                not duplicable by anyone else, and stating                advising the SEC to look into Madoff and his
                                Madoff ’s strategy had no correlation to the              firm as follows:
                                overall equity markets in over ten years. Ac-
                                cording to an SEC manager, the Hedge Fund                        Your attention is directed to a
                                Manager’s complaint laid out issues that were                scandal of major proportion which
                                “indicia of a Ponzi scheme.”                                 was executed by the investment firm
                                                                                             Bernard L. Madoff . . . . Assets well in
                                     The fourth complaint was part of a series               excess of $10 Billion owned by the
                                of internal e-mails of another registrant that               late [investor], an ultra-wealthy long
                                the SEC discovered in April 2004. The e-mails                time client of the Madoff firm have
                                described the red flags that a registrant’s em-              been “co-mingled” with funds
                                ployees had identified while performing due                  controlled by the Madoff company
                                diligence on their own Madoff investment us-                 with gains thereon retained by
                                ing publicly-available information. The red                  Madoff.
                                flags identified included Madoff ’s incredible
                                and highly unusual fills for equity trades, his               In March 2008, the SEC Chairman’s office
                                misrepresentation of his options trading and              received a second copy of the previous com-
                                his unusually consistent, non-volatile returns            plaint, with additional information from the
                                over several years. One of the internal e-mails           same source regarding Madoff ’s involvement
                                provided a step-by-step analysis of why Madoff            with the investor’s money, as follows:
                                must be misrepresenting his options trading.
                                The e-mail clearly explained that Madoff                         It may be of interest to you to that
                                could not be trading on an options exchange                  Mr. Bernard Madoff keeps two (2)
                                because of insufficient volume and could not                 sets of records. The most interesting
                                be trading options over-the-counter because it               of which is on his computer which is
                                was inconceivable that he could find a coun-                 always on his person.
                                terparty for the trading. The SEC examiners
                                who initially discovered the e-mails viewed                   The two 2001 journal articles also raised
                                them as indicating, “some suspicion as to                 significant questions about Madoff ’s unusually
                                whether Madoff is trading at all.”                        consistent returns. One of the articles noted
                                                                                          his “astonishing ability to time the market and
                                                                                          move to cash in the underlying securities before
                                                                                     60
SEMIANNUAL REPORT TO CONGRESS   market conditions turn negative and the re-             1992 after the SEC received information that
                                lated ability to buy and sell the underlying            led it to suspect that a Madoff associate had
                                stocks without noticeably affecting the mar-            been conducting a Ponzi scheme. Yet, the
                                ket.” This article also described that, “experts        SEC focused its efforts on Madoff ’s associate
                                ask why no one has been able to duplicate               and never thoroughly scrutinized Madoff ’s
                                similar returns using [Madoff ’s] strategy.”            operations, even after learning that the in-
                                The second article quoted a former Madoff               vestment decisions were made by Madoff and
                                investor as saying, “Anybody who’s a seasoned           being apprised of the remarkably consistent
                                hedge-fund investor knows the split-strike con-         returns over a period of numerous years that
                                version is not the whole story. To take it at           Madoff had achieved with a basic trading
                                face value is a bit naïve.”                             strategy. While the SEC ensured that all of
                                                                                        Madoff ’s associate’s customers received their
                                    The complaints all contained specific               money back, they took no steps to investigate
                                information and could not have been fully and           Madoff. The SEC focused its investigation
                                adequately resolved without thoroughly exam-            too narrowly and seemed not to have consid-
                                ining and investigating Madoff for operating a          ered the possibility that Madoff could have
                                Ponzi scheme. The journal articles should               taken the money that was used to pay back his
                                have reinforced the concerns about how                  associate’s customers from other clients for
                                Madoff could have been achieving his returns.           which Madoff may have had held discretion-
                                                                                        ary brokerage accounts. In the examination
                                    As noted above, the OIG retained an ex-             of Madoff, the SEC did not seek records from
                                pert in connection with its investigation to            the Depository Trust Company (DTC) (an
                                analyze both the information the SEC re-                independent third party), but sought copies of
                                ceived regarding Madoff and the examination             such records from Madoff himself. Had they
                                work conducted. According to the OIG’s ex-              sought records from DTC, there is an excel-
                                pert, the most critical step in examining or            lent chance that they would have uncovered
                                investigating a potential Ponzi scheme is to            Madoff ’s Ponzi scheme in 1992.
                                verify the subject’s trading through an inde-
                                pendent third party.                                        In 2004 and 2005, the SEC’s examination
                                                                                        unit, OCIE, conducted two parallel cause
                                    The OIG investigation found the SEC                 examinations of Madoff based upon the
                                conducted two investigations and three                  Hedge Fund Manager’s complaint and the
                                examinations related to Madoff ’s investment            series of internal e-mails that the SEC discov-
                                advisory business based upon the detailed and           ered. The examinations were remarkably
                                credible complaints that raised the possibility         similar. There were initial significant delays in
                                that Madoff was misrepresenting his trading             the commencement of the examinations,
                                and could have been operating a Ponzi                   notwithstanding the urgency of the com-
                                scheme. Yet, at no time did the SEC ever ver-           plaints. The teams assembled were relatively
                                ify Madoff ’s trading through an independent            inexperienced, and there was insufficient
                                third party, and in fact, it never actually con-        planning for the examinations. The scopes of
                                ducted a Ponzi scheme examination or inves-             the examination were in both cases too nar-
                                tigation of Madoff.                                     rowly focused on the possibility of front-
                                                                                        running, with no significant attempts made to
                                   The first examination and first                      analyze the numerous red flags about
                                Enforcement investigation were conducted in             Madoff ’s trading and returns.

                                                                                   61
SEMIANNUAL REPORT TO CONGRESS       During the course of both examinations,            Madoff ’s account for that period. However,
                                the examination teams discovered suspicious            the Assistant Director did not determine that
                                information and evidence and caught Madoff             the response required any follow-up and the
                                in contradictions and inconsistencies. How-            examiners testified that the response was not
                                ever, they either disregarded these concerns or        shared with them.
                                simply asked Madoff about them. Even when
                                Madoff ’s answers were seemingly implausible,              Both examinations concluded with nu-
                                the SEC examiners accepted them at face                merous unresolved questions and without any
                                value.                                                 significant attempt to examine the possibility
                                                                                       that Madoff was misrepresenting his trading
                                    In both examinations, the examiners made           and operating a Ponzi scheme.
                                the surprising discovery that Madoff ’s myste-
                                rious hedge fund business was making signifi-              The investigation that arose from the most
                                cantly more money than his well-known                  detailed complaint provided to the SEC,
                                market-making operation. However, no one               which explicitly stated it was “highly likely”
                                identified this revelation as a cause for con-         that “Madoff was operating a Ponzi scheme,”
                                cern.                                                  never really investigated the possibility of a
                                                                                       Ponzi scheme. The relatively inexperienced
                                    Astoundingly, both examinations were               Enforcement staff failed to appreciate the sig-
                                open at the same time in different offices             nificance of the analysis in the complaint, and
                                without either knowing the other one was               almost immediately expressed skepticism and
                                conducting an identical examination. In fact,          disbelief. Most of their investigation was di-
                                it was Madoff himself who informed one of              rected at determining whether Madoff should
                                the examination teams that the other exami-            register as an investment adviser or whether
                                nation team had already received the                   Madoff ’s hedge fund investors’ disclosures
                                information they were seeking from him.                were adequate.

                                     In the first of the two OCIE examinations,             As with the examinations, the
                                the examiners drafted a letter to the National         Enforcement staff almost immediately caught
                                Association of Securities Dealers (NASD) (an-          Madoff in lies and misrepresentations, but
                                other independent third party) seeking inde-           failed to follow up on these inconsistencies.
                                pendent trade data, but they never sent the            They rebuffed offers of additional evidence
                                letter, claiming that it would have been too           from the complainant, and were confused
                                time-consuming to review the data they would           about certain critical and fundamental aspects
                                have obtained. The OIG’s expert opined that            of Madoff ’s operations. When Madoff pro-
                                had the letter to the NASD been sent, the data         vided evasive or contradictory answers to im-
                                would have provided the information neces-             portant questions in testimony, they simply
                                sary to reveal the Ponzi scheme. In the second         accepted his explanations as plausible.
                                examination, the OCIE Assistant Director
                                sent a document request to a financial institu-            Although the Enforcement staff made at-
                                tion that Madoff claimed he used to clear his          tempts to seek information from independent
                                trades, requesting trading done by or on be-           third parties, they failed to follow up on these
                                half of particular Madoff feeder funds during          requests. They reached out to the NASD and
                                a specific time period, and received a response        asked for information on whether Madoff had
                                that there was no transaction activity in              options positions on a certain date, but when

                                                                                  62
SEMIANNUAL REPORT TO CONGRESS   they received a report that there were in fact         Moreover, we found that Madoff proactively
                                no options positions on that date, they did not        informed potential investors that the SEC had
                                take any further steps. An Enforcement staff           examined his operations. When potential in-
                                attorney made several attempts to obtain               vestors expressed hesitation about investing
                                documentation from European counterparties             with Madoff, he cited the prior SEC
                                (other independent third parties) and, al-             examinations to establish credibility and allay
                                though a letter was drafted, the Enforcement           suspicions or investor doubts that may have
                                staff decided not to send it. Had any of these         arisen while due diligence was being con-
                                efforts been fully executed, they would have           ducted. Thus, the fact the SEC had con-
                                led to Madoff ’s Ponzi scheme being uncov-             ducted examinations and investigations and
                                ered.                                                  did not detect the fraud, lent credibility to
                                                                                       Madoff ’s operations and had the effect of en-
                                    The OIG also found that numerous pri-              couraging additional individuals and entities
                                vate entities conducted basic due diligence of         to invest with him.
                                Madoff ’s operations and, without regulatory
                                authority to compel information, came to the               A more detailed description of the circum-
                                conclusion that an investment with Madoff              stances surrounding the five major
                                was unwise. Specifically, Madoff ’s description        investigations and examinations that the SEC
                                of both his equity and options trading prac-           conducted of Madoff and his firms is provided
                                tices immediately led to suspicions about              below. In June 1992, several customers of an
                                Madoff ’s operations. With respect to his pur-         investment firm known as Avellino & Bienes
                                ported trading strategy, many simply did not           approached the SEC conveying concerns
                                believe that it was possible for Madoff to             about investments they had made. The SEC
                                achieve his returns using a strategy described         was provided with several documents created
                                by some industry leaders as common and un-             by Avellino & Bienes that indicated they were
                                sophisticated. In addition, there was a great          offering “100%” safe investments, which they
                                deal of suspicion about Madoff ’s purported            characterized as loans, with high and ex-
                                options trading, with several entities not be-         tremely consistent rates of return over signifi-
                                lieving that Madoff could be trading options           cant periods of time. Not everyone could in-
                                in such high volumes where there was no evi-           vest with Avellino & Bienes, as this was a “spe-
                                dence that any counterparties had been trad-           cial” and exclusive club, with some special in-
                                ing options with Madoff.                               vestors getting higher returns than others.

                                   The private entities’ conclusions were                  As the SEC began investigating the matter,
                                drawn from the same red flags in Madoff ’s             they learned that Madoff had complete con-
                                operations that the SEC considered in its              trol over all of Avellino & Bienes’ customer
                                examinations and investigations, but ultimately        funds and made all investment decisions for
                                dismissed.                                             them and, according to Avellino, Madoff had
                                                                                       achieved these consistent returns for them for
                                   We also found that investors who may have           numerous years without a single loss. Avellino
                                been uncertain about whether to invest with            described Madoff ’s strategy for these extraor-
                                Madoff were reassured by the fact that the             dinarily consistent returns as very basic: invest-
                                SEC had investigated and/or examined                   ing in long-term Fortune 500 securities with
                                Madoff, or entities that did business with             hedges of the Standard & Poor’s (S&P) index.
                                Madoff, and found no evidence of fraud.

                                                                                  63
SEMIANNUAL REPORT TO CONGRESS       The SEC suspected that Avellino & Bienes            and the fact that all the investment decisions
                                was operating a Ponzi scheme and took action            were made by Madoff, but the focus of the
                                to ensure that all of Avellino & Bienes’ inves-         investigation was limited to whether Avellino
                                tors were refunded their investments. Yet, the          & Bienes was selling unregistered securities or
                                OIG found that the SEC never considered the             operating an unregistered investment firm. A
                                possibility that Madoff could have taken the            trustee and accounting firm were retained to
                                money that was used to pay back Avellino &              ensure full distribution of the assets, but their
                                Bienes’ customers from other clients as part of         jurisdiction was limited, and they did not take
                                a larger Ponzi scheme.                                  any action to independently verify account
                                                                                        balances and transaction activity included in
                                    The SEC actually conducted an examina-              Madoff ’s financial and accounting records.
                                tion of Madoff that was triggered by the in-            Even after the accounting firm was unable to
                                vestigation of Avellino & Bienes, but assem-            audit Avellino & Bienes’ financial statements
                                bled an inexperienced examination team.                 and uncovered additional red flags, such as
                                The examination team conducted a brief and              Avellino & Bienes’ failure to produce financial
                                very limited examination of Madoff, but made            statements or have the records one would have
                                no effort to trace where the money that was             expected from such a large operation, no fur-
                                used to repay Avellino & Bienes’ investors              ther efforts were made to delve more deeply
                                came from. In addition, although the SEC                into either Avellino & Bienes’ or Madoff ’s
                                examiners did review records from DTC, they             operations.
                                obtained those DTC records from Madoff,
                                rather than going to DTC itself to verify if                 The result was a missed opportunity to
                                trading occurred. According to the lead SEC             uncover Madoff ’s Ponzi scheme 16 years be-
                                examiner, someone should have been aware of             fore Madoff confessed. The SEC had suffi-
                                the fact that the money used to pay back Avel-          cient information to inquire further and inves-
                                lino & Bienes’ customers could have come                tigate Madoff for a Ponzi scheme back in
                                from other investors, but there was no exami-           1992. There was evidence of incredibly con-
                                nation of where the money that was used to              sistent returns over a significant period of time
                                pay back the investors came from. Another               without any losses, purportedly achieved by
                                examiner said such a basic examination of the           Madoff using a basic trading strategy of buy-
                                source of the funds would have been “com-               ing Fortune 500 stocks and hedging against
                                mon sense.” In addition, although the SEC’s             the S&P index. Yet, the SEC seemed satisfied
                                lead examiner indicated that the investment             with closing Avellino & Bienes down, and
                                vehicle offered by Avellino & Bienes had nu-            never even considered investigating Madoff,
                                merous “red flags” and was “suspicious,” no             despite knowing that Avellino & Bienes in-
                                effort was made to look at the investment               vested all of its clients’ money exclusively with
                                strategy and returns.                                   Madoff. The SEC’s lead examiner said
                                                                                        Madoff ’s reputation as a broker-dealer may
                                    Instead, the SEC investigative team, which          have influenced the inexperienced team not to
                                was also inexperienced, brought a limited ac-           inquire into Madoff ’s operations.
                                tion against Avellino & Bienes for selling un-
                                registered securities, not fraud, and did not               In May 2000, Harry Markopolos provided
                                take any further steps to inquire into Madoff ’s        the SEC’s Boston District Office (BDO) with
                                firms. The SEC lawyers working on the mat-              an eight-page complaint questioning the le-
                                ter were aware of the questionable returns              gitimacy of Madoff ’s reported returns. The

                                                                                   64
SEMIANNUAL REPORT TO CONGRESS   2000 complaint posited the following two ex-              Although this time the BDO did refer
                                planations for Madoff ’s unusually consistent         Markopolos’ complaint, NERO decided not to
                                returns: (1) that “[t]he returns are real, but        investigate the complaint only one day after
                                they are coming from some process other than          receiving it. The matter was assigned to an
                                the one being advertised, in which case an in-        Assistant Regional Director in Enforcement
                                vestigation is in order;” or (2) “[t]he entire        for initial inquiry, who reviewed the com-
                                fund is nothing more than a Ponzi scheme.”            plaint, determined that Madoff was not regis-
                                Markopolos’ complaint stated that Madoff ’s           tered as an investment adviser, and the next
                                returns were unachievable using the trading           day, sent an e-mail stating, “I don’t think we
                                strategy he claimed to employ, noting                 should pursue this matter further.” The OIG
                                Madoff ’s “perfect market-timing ability.”            could find no explanation for why Marko-
                                Markopolos also referenced the fact that              polos’ complaint, which the Enforcement at-
                                Madoff did not allow outside performance              torney and the former head of NERO ac-
                                audits.                                               knowledged was “more detailed than the av-
                                                                                      erage complaint,” was disregarded so quickly.
                                    Markopolos explained his analysis pre-
                                sented in the 2000 complaint at a meeting at              Just one month after NERO decided not
                                the SEC’s BDO and encouraged the SEC to               to pursue Markopolos’ second submission to
                                investigate Madoff. Both Markopolos and an            the SEC, in May 2001, MARHedge and Bar-
                                SEC staff accountant testified that after the         ron’s both published articles questioning
                                meeting, it was clear that the BDO’s Assistant        Madoff ’s unusually consistent returns and se-
                                District Administrator did not understand the         cretive operations. The MARHedge article,
                                information presented. Our investigation              written by Michael Ocrant and entitled,
                                found that this was likely the reason that the        “Madoff tops charts; skeptics ask how,” stated
                                BDO decided not to pursue Markopolos’                 how many were “baffled by the way
                                complaint or even refer it to the SEC’s North-        [Madoff ’s] firm has obtained such consistent,
                                east Regional Office (NERO).                          non-volatile returns month after month and
                                                                                      year after year,” and described the fact Madoff
                                    In March 2001, Markopolos provided the            “reported losses of no more than 55 basis
                                BDO with a second complaint, which sup-               points in just four of the past 139 consecutive
                                plemented his previous 2000 complaint with            months, while generating highly consistent
                                updated information and additional analysis.          gross returns of slightly more than 1.5% a
                                Markopolos’ 2001 complaint included an                month and net annual returns roughly in the
                                analysis of Madoff ’s returns versus the S&P          range of 15.0%.” The MARHedge article
                                500, showing that he had only three down              further discussed how industry professionals
                                months versus the market’s 26 down months             “marvel at [Madoff ’s] seemingly astonishing
                                during the same period, with a worst down             ability to time the market and move to cash in
                                month of only -1.44% versus the market’s              the underlying securities before market condi-
                                worst down month of -14.58%. Markopolos               tions turn negative and the related ability to
                                concluded that Madoff ’s “numbers really are          buy and sell the underlying stocks without no-
                                too good to be true.” Markopolos’ analysis            ticeably affecting the market.” It further de-
                                was supported by the experience of two of his         scribed how “experts ask why no one has been
                                colleagues, Neil Chelo and Frank Casey, both          able to duplicate similar returns using
                                of whom had substantial experience with and           [Madoff ’s] strategy.”
                                knowledge of investment funds.

                                                                                 65
SEMIANNUAL REPORT TO CONGRESS       The Barron’s article, written by Erin Arv-          MARHedge article.
                                edlund and entitled, “Don’t Ask, Don’t Tell:
                                Bernie Madoff is so secretive, he even asks his             The Hedge Fund Manager’s complaint
                                investors to keep mum,” discussed how                   identified numerous concerns about Madoff ’s
                                Madoff ’s operation was among the three larg-           strategy and purported returns. According to
                                est hedge funds, and has “produced com-                 the Hedge Fund Manager’s complaint, while
                                pound average annual returns of 15% for                 Madoff purported to trade $8-$10 billion in
                                more than a decade,” with the largest fund              options, he and his partner had checked with
                                “never [having] had a down year.” The Bar-              some of the largest brokers and did not see
                                ron’s article further questioned whether                the volume in the market. Further, the Hedge
                                Madoff ’s trading strategy could have been              Fund Manager explained in his complaint
                                achieving those remarkably consistent returns.          that Madoff ’s fee structure was suspicious be-
                                                                                        cause Madoff was foregoing the significant
                                    The OIG found that the SEC was aware                management and performance fees typically
                                of the Barron’s article when it was published           charged by asset managers. The complaint
                                in May 2001. On May 7, 2001, an                         also described specific concerns about
                                Enforcement Branch Chief in the BDO fol-                Madoff ’s strategy and purported returns such
                                lowed up with NERO regarding Markopolos’                as the fact that the strategy was not duplicable
                                2001 complaint and the Barron’s article, and            by anyone else, there was no correlation to the
                                asked the Director of NERO if he wanted a               overall equity markets (in over ten years), ac-
                                copy of the article. However, the decision not          counts were typically in cash at month end,
                                to commence an investigation was not recon-             the auditor of the firm was a related party to
                                sidered and there is no evidence the Barron’s           the principal, and Madoff ’s firms never had to
                                article was ever even reviewed. In addition,            face redemption.
                                we found that former OCIE Director Lori
                                Richards reviewed the Barron’s article in May               According to an SEC supervisor, the
                                2001 and sent a copy to an Associate Director           Hedge Fund Manager’s complaint implied
                                in OCIE shortly thereafter, with a note on the          that Madoff might be lying about his options
                                top stating that Arvedlund is “very good” and,          trading and laid out issues that were “indicia
                                “This is a great exam for us!” However,                 of a Ponzi scheme.” One of the senior exam-
                                OCIE did not open an examination, and                   iners on the team also acknowledged that the
                                there is no record of anyone else in OCIE re-           Hedge Fund Manager’s complaint could be
                                viewing the Barron’s article until several years        interpreted as alleging that Madoff was run-
                                later.                                                  ning a Ponzi scheme.

                                    In May 2003, OCIE’s investment man-                     The OIG’s expert concluded that based
                                agement group in Washington, D.C. received              upon issues raised in the Hedge Fund Man-
                                a detailed complaint from a reputable Hedge             ager’s complaint, had the examination been
                                Fund Manager, in which he laid out the red              staffed and conducted appropriately and basic
                                flags that his hedge fund had identified about          steps taken to obtain third-party verifications,
                                Madoff while performing due diligence on                Madoff ’s Ponzi scheme should and would
                                two Madoff feeder funds. The Hedge Fund                 have been uncovered.
                                Manager attached four documents to his
                                complaint, including performance statistics for             However, we found that OCIE did not
                                three Madoff feeder funds and the                       staff or conduct the examination adequately

                                                                                   66
SEMIANNUAL REPORT TO CONGRESS   and, thus, missed another opportunity to un-                 The OIG investigation also found that the
                                cover Madoff ’s fraud. The complaint was                complaint was poorly analyzed and the focus
                                immediately referred to OCIE’s broker-dealer            of the examination was much too limited.
                                examination group even though the com-                  The examination focused solely on front-
                                plaint mainly raised investment management              running, notwithstanding the numerous other
                                issues. The broker-dealer group decided not             “red flags” raised in the complaint, and failed
                                to request investment adviser staff support for         to analyze how Madoff could have achieved
                                the examination even though the examiners               his extraordinarily consistent returns, which
                                testified that such support could have been             had no correlation to the overall markets.
                                arranged whether or not Madoff was regis-               When asked why the other issues in the
                                tered as an investment adviser. The OIG was             Hedge Fund Manager’s complaint and the
                                informed that, at that time, the two OCIE               two 2001 articles were not investigated, the
                                groups rarely collaborated on examinations.             Associate Director stated he focused on front-
                                                                                        running because “that was the area of exper-
                                     The broker-dealer examination team as-             tise for my crew.”
                                signed to the examination was inexperienced.
                                According to an examiner, at the time of the                A Planning Memorandum for the exami-
                                Madoff examination, OCIE “didn’t have                   nation was prepared, but it failed to address
                                many experienced people at all,” noting that            several critical issues from the complaint, in-
                                OCIE was “expanding rapidly and had a lot               cluding the unusual fee structure; the inability
                                of inexperienced people” conducting                     to see the volume of options in the market-
                                examinations. Another OCIE examiner                     place; the remarkable returns; the fact that
                                stated that “there was no training,” “this was a        Madoff ’s trading strategy was not duplicable;
                                trial by fire kind of job,” and there were a lot        the returns had no correlation to actual equity
                                of examiners who “weren’t familiar with                 markets; the accounts were in cash at month’s
                                securities laws.” The team was composed en-             end; there were no third-party brokers; and
                                tirely of attorneys, who, according to one              the auditor of Madoff ’s firms was a related
                                member, did “not have much experience in                party.
                                equity and options trading” but “rather, their
                                experience was in general litigation.” As                    In addition, courses of action outlined in
                                noted above, the complaint included issues              the Planning Memorandum that involved
                                typically examined by investment adviser per-           verification of trading with independent third
                                sonnel, such as verification of purported in-           parties should have been carried out, but were
                                vestment returns and account balances, but              not. For example, the staff drafted a letter to
                                the group assigned to the examination had no            the NASD (an independent third party),
                                significant experience conducting                       which was critical to any adequate review of
                                examinations of these issues.                           the complaint because the data and
                                                                                        information from the NASD would have as-
                                    In addition, notwithstanding the serious            sisted in independently verifying trading activ-
                                issues raised in the Hedge Fund Manager’s               ity conducted at Madoff ’s firms. However,
                                complaint, the start of the examination was             the letter was never sent, with the explanation
                                delayed for seven months, until December                given by staff that it would have been too
                                2003. No reason was given for this delay.               time-consuming to review the information
                                                                                        they would have obtained. According to the


                                                                                   67
SEMIANNUAL REPORT TO CONGRESS   OIG’s expert, had the letter been sent out, the         money than his well-known market-making
                                NASD would have provided order and execu-               operation. However, this was not identified as
                                tion data that would have indicated that                a cause for concern. When the examination
                                Madoff did not execute the significant volume           team contacted Madoff to discuss their open
                                of trades for the discretionary brokerage ac-           questions, his answers failed to clarify matters
                                counts that he represented to the examiners,            and he again claimed not to act as an invest-
                                and the data would likely have provided the             ment adviser. In February 2004, the examina-
                                information necessary to reveal the Ponzi               tion was expanded to analyze the question of
                                scheme.                                                 whether Madoff was acting as an investment
                                                                                        adviser. Legal memoranda were drafted to
                                     During the course of the examination, the          seek guidance on this issue, but never sent. In
                                examination team discovered suspicious                  a subsequent draft of a supplemental docu-
                                information and evidence, but failed to follow          ment request to Madoff, the examiners sought
                                up on numerous “red flags.” Responses by                detailed audit trail data, including the date,
                                Madoff to the document requests contra-                 time, and execution price for all of his trades
                                dicted the Hedge Fund Manager’s complaint               in 2003. However, the examiners removed the
                                and the 2001 articles. For example, Madoff ’s           request for this critical data from the supple-
                                claim that his firms did not manage or advise           mental request before it was sent out. The
                                hedge funds was contradicted by the articles            reason given was that they were generally hesi-
                                that reported Madoff was managing billions              tant to get audit trail data “because it can be
                                of dollars in assets. In addition, although             tremendously voluminous and difficult to deal
                                known for advanced technology, Madoff                   with” and “takes a ton of time” to review. No
                                claimed not to have e-mail communications               requests were made from independent third
                                with clients. However, the examiners did not            parties for any data, although an OCIE exam-
                                follow up on these red flags.                           iner acknowledged obtaining such data should
                                                                                        not have been difficult.
                                    We also found that Madoff ’s responses to
                                the examiners’ document requests should have                Although there were numerous unresolved
                                raised suspicions because the information pro-          questions in the examination, in early April
                                vided appeared incomplete and, at times, in-            2004, the examiners were abruptly instructed
                                consistent when compared to other                       to shift their focus to “mutual funds” projects,
                                information provided. For example, Madoff ’s            placing the Madoff examination on the
                                account statements only included average                “backburner.” We found that it was not un-
                                prices during each day without the actual               usual at that time to shift attention to high
                                prices for each transaction. According to the           priority projects in OCIE and leave some pro-
                                OIG’s expert, based on the questions raised by          jects incomplete.
                                the examination team with regard to differing
                                trade patterns for certain clients, there should            As the examination of Madoff in Wash-
                                have been significant suspicions as to whether          ington, D.C. was shelved, in NERO, a nearly
                                or not Madoff was implementing the strategy             identical examination of Madoff was just be-
                                as claimed.                                             ginning. In April 2004, a NERO investment
                                                                                        management examiner had been conducting a
                                    The examiners also made the surprising              routine examination of an unrelated registrant
                                discovery that Madoff ’s mysterious hedge               when the examiner discovered internal e-mails
                                fund business was making significantly more             from November and December 2003 that

                                                                                   68
SEMIANNUAL REPORT TO CONGRESS   raised questions about whether Madoff was                 followed up on the allegation in the e-mails
                                involved in illegal activity involving managed            about “whether Madoff was actually trading.”
                                accounts. These internal e-mails described
                                the red flags the registrant’s employees identi-              As with the examination, in Washington,
                                fied while performing due diligence using                 D.C., there was a significant delay before the
                                widely available information on their Madoff              examination was commenced. Although the
                                investment. The red flags the registrant had              e-mails were discovered in April 2004 and
                                identified included Madoff ’s: (1) incredible             immediately referred to the NERO broker-
                                and highly unusual fills for equity trades;               dealer examination program, a team was not
                                (2) misrepresentation of his options trading;             assembled until December 2004.
                                (3) secrecy; (4) auditor; (5) unusually consistent
                                and non-volatile returns over several years;                  The team assembled in NERO consisted
                                and (6) fee structure.                                    of an Associate Director, an Assistant Director
                                                                                          and two junior examiners in the broker-dealer
                                    Crucially, one of the internal e-mails pro-           examination program. A branch chief, whose
                                vided a step-by-step analysis of why Madoff               role would be to oversee and assist the junior
                                must be misrepresenting his options trading.              examiners, was not assigned to the examina-
                                The e-mail explained that Madoff could not                tion. One of the junior examiners assigned to
                                be trading on an options exchange because of              the examination in 2004 graduated from col-
                                insufficient volume and could not be trading              lege in 1999 and joined the SEC as his first
                                options over-the-counter because it was incon-            job out of school. The other examiner had
                                ceivable he could find a counterparty for the             worked as an equity trader for a few years be-
                                trading. For example, the e-mail explained                fore coming to the SEC. He had worked on
                                that because customer statements showed that              approximately four examinations before being
                                the options trades were always profitable for             assigned to the Madoff examination.
                                Madoff, there was no incentive for a counter-
                                party to continuously take the other side of                  Once again, no consideration was given to
                                those trades since it would always lose money.            performing a joint examination with invest-
                                These findings raised significant doubts that             ment management examiners, despite the fact
                                Madoff could be implementing his trading                  that the internal e-mails raised suspicions
                                strategy. The internal e-mails included the               about Madoff ’s performance and returns. An
                                statement that the registrant had “totally in-            examiner stated that each of the examination
                                dependent evidence” that Madoff ’s executions             programs in NERO was a “silo,” and they al-
                                were “highly unusual.”                                    most never worked together.

                                     The investment management examiner                       In late March 2005, approximately ten
                                who initially discovered the e-mails and his              months after receiving the referral, the NERO
                                supervisors viewed them as indicating the reg-            broker-dealer examination team began per-
                                istrant’s employees were clearly “trying to find          forming background research in preparation
                                out where exactly the trades were taking                  for an on-site examination of Madoff to begin
                                place” and the e-mails evidenced that “there’s            in April. Unlike the OCIE examination team,
                                some suspicion as to whether Madoff is trad-              the NERO examination team did not draft a
                                ing at all.” They indicated they would have               Planning Memorandum laying out the scope
                                                                                          of the examination. The examiners recalled


                                                                                     69
SEMIANNUAL REPORT TO CONGRESS   that, at the time of the examination, NERO                  In addition, although one of the NERO
                                did not have a practice of writing Planning             examiners placed a “star” next to the
                                Memoranda.                                              statement in the internal e-mails about having
                                                                                        “totally independent evidence” that Madoff ’s
                                    Once again, although the e-mails raised             executions were “highly unusual,” NERO
                                significant issues about whether Madoff was             never followed up with the registrant to in-
                                engaging in trading at all, the decision was            quire about or obtain this evidence. The
                                made to focus exclusively on front-running.             NERO examiners explained that it was not
                                The NERO Associate Director stated that de-             their practice to seek information from third
                                spite identifying Madoff ’s returns as an issue,        parties when they conducted examinations.
                                he did not necessarily have “an expectation”
                                that the examiners would analyze Madoff ’s                  When the examiners began their on-site
                                returns because portfolio analysis was not a            examination of Madoff, they learned Bernard
                                strength of broker-dealer examiners.                    Madoff would be their primary contact and
                                                                                        Madoff carefully controlled to whom they
                                    To the extent that the NERO examiners               spoke at the firm. On one occasion, when a
                                did examine issues outside of front-running,            Madoff employee was speaking to the NERO
                                they conducted their examination by simply              examiners at Madoff ’s firm, after a couple of
                                asking Madoff about their concerns and ac-              minutes, another Madoff employee rushed in
                                cepting his answers. With respect to the sig-           to escort her from the conversation, claiming
                                nificant concerns about Madoff ’s options               she was urgently needed. When the examin-
                                trading, they asked Madoff about this issue,            ers later asked Madoff the reason for the ur-
                                and when Madoff said he was no longer using             gency, Madoff told them her lunch had just
                                options as part of his strategy, they stopped           arrived, even though it was 3:00 p.m.
                                looking at the issue, despite the fact that
                                Madoff ’s representation was inconsistent with              Madoff made efforts during the examina-
                                the internal e-mails, the two 2001 articles, and        tion to impress and even intimidate the junior
                                the investment strategy Madoff claimed to               examiners from the SEC. Madoff empha-
                                employ. As to why Madoff did not collect fees           sized his role in the securities industry during
                                like all other hedge fund managers, they ac-            the examination. One of the NERO examin-
                                cepted his response that he was not “greedy”            ers characterized Madoff as “a wonderful sto-
                                and was happy with just receiving commis-               ryteller” and “very captivating speaker” and
                                sions.                                                  noted that he had “an incredible background
                                                                                        of knowledge in the industry.” The examiner
                                    Several issues, including the allegation in         said he found it “interesting” but also “dis-
                                the internal e-mails that Madoff ’s auditor was         tracting” because they were there “to conduct
                                a related party, were never examined at all.            business.”
                                Yet, after Madoff confessed to operating a
                                Ponzi scheme, a staff attorney in NERO’s Di-                The other NERO examiner noted that
                                vision of Enforcement was assigned to investi-          “[a]ll throughout the examination, Bernard
                                gate Madoff ’s accountant, David Friehling,             Madoff would drop the names of high-up
                                and within a few hours of obtaining the work-           people in the SEC.” Madoff told them that
                                papers, the staff attorney determined that no           Christopher Cox was going to be the next
                                audit work had been done.                               Chairman of the SEC a few weeks prior to
                                                                                        Cox being officially named. He also told them

                                                                                   70
SEMIANNUAL REPORT TO CONGRESS   that Madoff himself “was on the short list” to               At one point in the NERO examination,
                                be the next Chairman of the SEC. When the                the examiners were planning to confront
                                NERO examiners sought documents Madoff                   Madoff about the many contradictory posi-
                                did not wish to provide, Madoff became very              tions he was taking, particularly as they related
                                angry, with an examiner recalling that                   to Madoff ’s changing stories about how many
                                Madoff ’s “veins were popping out of his                 advisory clients he had. However, when the
                                neck” and he was repeatedly saying, “What                NERO examiners pushed Madoff for docu-
                                are you looking for? . . . . Front running.              ments and information about his advisory cli-
                                Aren’t you looking for front running,” and               ents, he rebuffed them, pointing out that he
                                “his voice level got increasingly loud.”                 had already provided the information to the
                                                                                         Washington, D.C. staff in connection with
                                    Throughout the examination, the NERO                 their examination. The NERO examiners
                                examiners “had a real difficult time dealing             were taken aback, since they were unaware
                                with” Madoff as he was described as growing              that the D.C. office of OCIE had been
                                “increasingly agitated” during the examina-              conducting a simultaneous examination of
                                tion, and attempting to dictate to the examin-           Madoff on the identical issues they were ex-
                                ers what to focus on in the examination and              amining.
                                what documents they could review. Yet, when
                                the NERO examiners reported back to their                    When the NERO examiners asked the
                                Assistant Director about the pushback they               Washington, D.C. examiners about Madoff ’s
                                received from Madoff, they received no sup-              claim, they first learned about the Washing-
                                port and were actively discouraged from forc-            ton, D.C. examination, which, by that time,
                                ing the issue.                                           had been dormant for months. There were a
                                                                                         couple of brief conference calls between the
                                     One effort was made to verify Madoff ’s             two offices about their examinations, but rela-
                                trading with an independent third party, but             tively little sharing of information. One of
                                even after they received a very suspicious re-           the few points that was made in a conference
                                sponse, there was no follow-up. The Assistant            call between the offices was a comment by a
                                Director sent a document request to a finan-             senior-level Washington, D.C. examiner re-
                                cial institution that Madoff claimed he used to          minding the junior NERO examiners that
                                clear his trades, requesting records for trading         Madoff “was a very well-connected, powerful,
                                done by or on behalf of particular Madoff                person,” which one of the NERO examiners
                                feeder funds during a specific time period.              interpreted to raise a concern about pushing
                                Shortly thereafter, the financial institution re-        Madoff too hard without having substantial
                                sponded, stating there was no transaction ac-            evidence. While the Washington, D.C. ex-
                                tivity in Madoff ’s account for that period.             amination team decided not to resume their
                                Yet, the response did not raise a red flag for           examination and sent their workpapers to
                                the Assistant Director, who merely assumed               NERO, the NERO examiners reported
                                that Madoff must have “executed trades                   conducting only a cursory review of the
                                through the foreign broker-dealer.” The ex-              workpapers and did not recall even reviewing
                                aminers did not recall ever being shown the              the Hedge Fund Manager’s detailed com-
                                response from the financial institution, and no          plaint that precipitated the D.C. examination.
                                further follow-up actions were taken.                    Further, they appear to have never discussed
                                                                                         the D.C. examiners’ open questions about
                                                                                         Madoff ’s representations and trading, and did

                                                                                    71
SEMIANNUAL REPORT TO CONGRESS   not compare the list of clients Madoff pro-            cannot go on indefinitely because people have
                                duced to them with the list he produced to the         a hunch or they’re following things.”
                                D.C. team.
                                                                                           Thus, the NERO cause examination of
                                     Meanwhile, as the NERO examination                Madoff was concluded without the examina-
                                continued, Madoff was failing to provide the           tion team ever understanding how Madoff
                                NERO examiners with requested documents,               was achieving his returns and with numerous
                                and the examiners continued to find discrep-           open questions about Madoff ’s operations.
                                ancies in the information Madoff did provide.          Many, if not most, of the issues raised in both
                                As the examiners continued to review the               the Hedge Fund Manager’s complaint that
                                documents Madoff produced, their confusion             precipitated the Washington, D.C. examina-
                                and skepticism grew. While the NERO exam-              tion and the internal e-mails that triggered the
                                iners had significant questions about Madoff ’s        NERO examination had not been analyzed or
                                trade executions and clearance, as well as             resolved. In September 2005, NERO pre-
                                Madoff ’s claim that he used his “gut feel” to         pared a closing report for the examination
                                time the market based on “his observations of          that relied almost entirely on information ver-
                                the trading room,” Madoff was pushing them             bally provided by Madoff to the examiners for
                                to finish the examination.                             resolution of numerous red flags. One of the
                                                                                       two primary examiners on the NERO exami-
                                    As had been the case with the Washing-             nation team was later promoted based on his
                                ton, D.C. examination, the NERO examiners              work on the Madoff examination.
                                learned that Madoff ’s well-known market-
                                making business would be losing money with-                Only a month after NERO closed its ex-
                                out the secretive hedge fund execution busi-           amination of Madoff, in October 2005, Mar-
                                ness. Although they described this revelation          kopolos provided the SEC’s BDO with a third
                                as “a surprising discovery,” the issue was once        version of his complaint entitled, “The
                                again never pursued.                                   World’s Largest Hedge Fund is a Fraud.”
                                                                                       Markopolos’ 2005 complaint detailed ap-
                                    Although the NERO examiners deter-                 proximately 30 red flags indicating Madoff
                                mined Madoff was not engaged in front-                 was operating a Ponzi scheme, a scenario
                                running, they were concerned about issues              Markopolos described as “highly likely.”
                                relating to the operation of his hedge fund            Markopolos’ 2005 complaint discussed an al-
                                business, and sought permission to continue            ternative possibility – that Madoff was front
                                the examination and expand its scope. Their            running – but characterized that scenario as
                                Assistant Regional Director denied their re-           “unlikely.” The red flags identified by Marko-
                                quest, telling them to “keep their eyes on the         polos were similar to the ones previously
                                prize,” referring to the front-running issue.          raised in the Hedge Fund Manager’s com-
                                When the examiners reported that they had              plaint and the internal e-mails that led to the
                                caught Madoff in lies, the Assistant Director          two cause examinations of Madoff, although
                                minimized their concerns, stating “it could            somewhat more detailed. They generally fell
                                [just] be a matter of semantics.” The exam-            into one of three categories: (1) Madoff ’s ob-
                                iners’ request to visit Madoff feeder funds was        sessive secrecy; (2) the impossibility of
                                denied, and they were informed that the time           Madoff ’s returns, particularly the consistency
                                for the Madoff examination had expired.                of those returns; and (3) the unrealistic vol-
                                The explanation given was that “field work

                                                                                  72
SEMIANNUAL REPORT TO CONGRESS   ume of options Madoff was supposedly trad-            discounted his evidence. The Enforcement
                                ing.                                                  staff also questioned Markopolos’ motives,
                                                                                      indicating concerns that “he was a competitor
                                     The BDO found Markopolos credible,               of Madoff ’s” who “was looking for a bounty.”
                                having worked with him previously, and took           These concerns were particularly misplaced
                                his 2005 complaint seriously. While senior            because in Markopolos’ complaint, he de-
                                officials with the BDO considered Marko-              scribed that it was “highly likely” that Madoff
                                polos’ allegation that Madoff was operating a         was operating a “Ponzi scheme,” and ac-
                                Ponzi scheme worthy of serious investigation,         knowledged that if he were correct, he would
                                they felt it made more sense for NERO to              not be eligible for a bounty. Moreover, even
                                conduct the investigation because Madoff was          after the Branch Chief assigned to the Madoff
                                in New York and NERO had already con-                 Enforcement investigation spoke with a Senior
                                ducted an examination of Madoff. The BDO              Official at the BDO, who vouched for Marko-
                                made special efforts to ensure that NERO              polos’ credibility, she remained skeptical of
                                would “recognize the potential urgency of the         him throughout the investigation.
                                situation,” which was evidenced by the Direc-
                                tor of the BDO e-mailing the complaint to the             The OIG investigation also found the
                                Director of NERO personally, and by follow-           Enforcement staff was skeptical about Mar-
                                ing up to ensure the matter was assigned              kopolos’ complaint because Madoff did not fit
                                within NERO.                                          the “profile” of a Ponzi scheme operator, with
                                                                                      the Branch Chief on the Madoff investigation
                                    While the Madoff investigation was as-            noting that there was “an inherent bias to-
                                signed within NERO Enforcement, it was as-            wards [the] sort of people who are seen as
                                signed to a team with little to no experience         reputable members of society.”
                                conducting Ponzi scheme investigations. The
                                majority of the investigatory work was con-               The NERO Enforcement staff also re-
                                ducted by a staff attorney who recently               ceived a skeptical response to Markopolos’
                                graduated from law school and only joined the         complaint from the NERO examination team
                                SEC 19 months before she was given the                who had just concluded their examination.
                                Madoff investigation. She had never previ-            Even though the NERO examination had fo-
                                ously been the lead staff attorney on any in-         cused solely on front-running, the NERO ex-
                                vestigation, and had been involved in very few        amination team downplayed the possibility
                                investigations overall. The Madoff assign-            that Madoff was conducting a Ponzi scheme,
                                ment was also her first real exposure to              saying that “these are basically some of the
                                broker-dealer issues.                                 same issues we investigated” and that Marko-
                                                                                      polos “doesn’t have the detailed understand-
                                     The NERO Enforcement staff, unlike the           ing of Madoff ’s operations that we do which
                                BDO, failed to appreciate the significance of         refutes most of his allegations.” In testimony
                                the evidence in the 2005 Markopolos com-              before the OIG, the examiners acknowledged
                                plaint and almost immediately expressed skep-         that their examination “did not refute Marko-
                                ticism and disbelief about the information            polos’ allegations regarding a Ponzi scheme”
                                contained in the complaint. The Enforcement           and that the examiners’ reaction may have
                                staff claimed that Markopolos was not an in-          given the impression their examination had a
                                sider or an investor and, thus, immediately           greater focus than it did. Indeed, since the


                                                                                 73
SEMIANNUAL REPORT TO CONGRESS   NERO examination had ruled out front-                   information that Madoff had provided to the
                                running, the NERO examiners should have                 examination staff (which he fabricated) with
                                encouraged the Enforcement staff to analyze             documents that Madoff had sent his investors
                                Markopolos’ more likely scenario, the Ponzi             (which he also fabricated).
                                scheme. Yet, that scenario was never truly
                                analyzed.                                                   Yet, the Enforcement staff almost imme-
                                                                                        diately caught Madoff in lies and misrepresen-
                                    The Enforcement staff delayed opening a             tations. An initial production of documents
                                matter under inquiry (MUI) for the Madoff               the Enforcement staff obtained from a Madoff
                                investigation for two months, which was a               feeder fund demonstrated Madoff had lied to
                                necessary step at the beginning of an                   the examiners in the NERO examination
                                Enforcement investigation for the staff to be           about a fundamental component of his
                                informed of other relevant information that             claimed trading activity. Specifically, while
                                the SEC received about the subject of the in-           Madoff told the examiners he had stopped
                                vestigation. As a result of the delay in open-          using options as part of his strategy after they
                                ing a MUI, the Enforcement staff never                  scrutinized his purported options trading, the
                                learned of another complaint sent to the SEC            Enforcement staff found evidence from the
                                in October 2005 from an anonymous infor-                feeder funds that Madoff was telling his inves-
                                mant stating, “I know that Madoff [sic] com-            tors that he was still trading options during
                                pany is very secretive about their operations           that same time period. Yet, the Enforcement
                                and they refuse to disclose anything. If my             staff never pressed Madoff on this inconsis-
                                suspicions are true, then they are running a            tency. After an interview with an executive
                                highly sophisticated scheme on a massive                from a Madoff feeder fund, the Enforcement
                                scale. And they have been doing it for a long           staff noted several additional “discrepancies”
                                time.” The informant also stated, “After a              between what Madoff told the examiners in
                                short period of time, I decided to withdraw all         the NERO examination and information they
                                my money (over $5 million).” As a result,               received in the interview. The Enforcement
                                there was no review or analysis of this com-            staff also discovered that the feeder fund ex-
                                plaint.                                                 ecutive’s testimony had been scripted and he
                                                                                        had been prepped by Madoff.
                                     In addition, as was the case with the SEC
                                examinations of Madoff, the focus of the                    As the investigation progressed, in De-
                                Enforcement staff ’s investigation was much             cember 2005, Markopolos approached the
                                too limited. Markopolos’ 2005 complaint                 Enforcement staff to provide them additional
                                primarily presented evidence that Madoff was            contacts and information. However, the
                                operating a Ponzi scheme, calling that sce-             Branch Chief assigned to the Madoff
                                nario “highly likely.” However, most of the             Enforcement investigation took an instant dis-
                                Enforcement staff ’s efforts during their inves-        like to Markopolos and declined to even pick
                                tigation were directed at determining whether           up the “several inch thick file folder on
                                Madoff should register as an investment ad-             Madoff ” that Markopolos offered. One of
                                viser or whether Madoff ’s hedge fund inves-            the Enforcement staff described the relation-
                                tors’ disclosures were adequate. In fact, the           ship between Markopolos and the Branch
                                Enforcement staff ’s investigative plan primar-         Chief as “adversarial.”
                                ily involved comparing documents and


                                                                                   74
SEMIANNUAL REPORT TO CONGRESS       In February 2006, the Enforcement staff            assistance from OIA on matters within its area
                                contacted the SEC’s Office of Economic                 of expertise, the Enforcement staff should
                                Analysis (OEA) seeking assistance in analyzing         have discovered that Madoff was not purchas-
                                Madoff ’s trading. OEA failed to respond to            ing equities from foreign broker-dealers and
                                the request for two and a half months. In              that he did not have over-the-counter (OTC)
                                April 2006, the Enforcement staff went back            options with European counterparties.
                                to OEA, but failed to provide OEA with a
                                copy of Markopolos’ 2005 complaint. An ex-                  At a crucial point in their investigation, the
                                pert on options trading in OEA did review              Enforcement staff was informed by a senior-
                                certain documents that OEA received from               level official from the NASD that they were
                                the Enforcement staff and, based upon a 20-            not sufficiently prepared to take Madoff ’s tes-
                                minute review, concluded Madoff ’s split-strike        timony, but they ignored his advice. On May
                                conversion strategy “was not a strategy that           17, 2006, two days before they were scheduled
                                would be expected to earn significant returns          to take Madoff ’s testimony, the Enforcement
                                in excess of the market.” However, this analy-         staff attorney contacted the Vice President
                                sis was not conveyed to the Enforcement staff.         and Deputy Director of the NASD Amex
                                In addition, the OEA options trading expert            Regulation Division to discuss Madoff ’s op-
                                told the OIG that if he had been made aware            tions trading. The NASD official told the
                                of the amount of assets that Madoff had been           OIG that he answered “extremely basic ques-
                                claiming to manage, he would have ruled out            tions” from the Enforcement staff about op-
                                “front-running” as a possible explanation for          tions trading. He also testified that, by the end
                                Madoff ’s returns. In the end, the                     of the call, he felt the Enforcement staff did
                                Enforcement staff never obtained any useful            not understand enough about the subject mat-
                                information or analysis from OEA.                      ter to take Madoff ’s testimony. The NASD
                                                                                       official also recalled telling the Enforcement
                                    Throughout the Enforcement staff ’s inves-         staff that they “needed to do a little bit more
                                tigation, the Enforcement staff was confused           homework before they were ready to talk to
                                about certain critical and fundamental aspects         [Madoff],” but that they were intent on taking
                                of Madoff ’s operations. They had trouble              Madoff ’s testimony as scheduled. He testified
                                understanding Madoff ’s purported trading              that when he and a colleague who was also on
                                strategy, basic custody of assets issues and,          the call hung up, “we were both, sort of, shak-
                                generally, how Madoff ’s operation worked.             ing our heads, saying that, you know, it really
                                Despite the Enforcement staff ’s confusion,            seemed like some of these [options trading]
                                after their unsuccessful attempt to seek assis-        strategies were over their heads.” Notwith-
                                tance from OEA, they never consulted the               standing the advice, the Enforcement staff did
                                SEC’s own experts on broker-dealer opera-              not postpone Madoff ’s testimony.
                                tions, the SEC’s Division of Trading and
                                Markets (formerly the Division of Market                    On May 19, 2006, Madoff testified volun-
                                Regulation), who could have facilitated inquir-        tarily and without counsel in the SEC’s inves-
                                ies with independent third parties such as the         tigation. During Madoff ’s testimony, he pro-
                                NASD and DTC. Similarly, after Madoff                  vided evasive answers to important questions,
                                claimed his purported trading activity took            provided some answers that contradicted his
                                place in Europe, the Enforcement staff did not         previous representations, and provided some
                                seek help from the SEC’s Office of Interna-            information that could have been used to dis-
                                tional Affairs (OIA). Had they simply sought           cover that he was operating a Ponzi scheme.

                                                                                  75
SEMIANNUAL REPORT TO CONGRESS   However, the Enforcement staff did not follow               This was perhaps the most egregious fail-
                                up with respect to the critical information that        ure in the Enforcement investigation of
                                was relevant to uncovering Madoff ’s Ponzi              Madoff: that they never verified Madoff ’s
                                scheme.                                                 purported trading with any independent third
                                                                                        parties. As a senior-level SEC examiner
                                     For example, when Enforcement staff                noted, “clearly if someone … has a Ponzi and,
                                asked the critical question of how he was able          they’re stealing money, they’re not going to
                                to achieve his consistently high returns,               hesitate to lie or create records” and, conse-
                                Madoff never really answered the question               quently, the “only way to verify” whether the
                                but, instead, attacked those who questioned             alleged Ponzi operator is actually trading
                                his returns, particularly the author of the Bar-        would be to obtain “some independent third
                                ron’s article. Essentially, Madoff claimed his          party verification” like “DTC.”
                                remarkable returns were due to his personal
                                “feel” for when to get in and out of the mar-               A simple inquiry to one of several third
                                ket, stating, “Some people feel the market.             parties could have immediately revealed the
                                Some people just understand how to analyze              fact that Madoff was not trading in the vol-
                                the numbers that they’re looking at.” Because           ume he was claiming. The OIG made inquir-
                                of the Enforcement staff ’s inexperience and            ies with DTC as part of our investigation. We
                                lack of understanding of equity and options             reviewed a January 2005 statement for one
                                trading, they did not appreciate that Madoff            Madoff feeder fund account, which alone in-
                                was unable to provide a logical explanation for         dicated that it held approximately $2.5 billion
                                his incredibly consistent returns. Each mem-            of S&P 100 equities as of January 31, 2005.
                                ber of the Enforcement staff accepted as plau-          On the contrary, on January 31, 2005, DTC
                                sible Madoff ’s claim that his returns were due         records show that Madoff held less than $18
                                to his perfect “gut feel” for when the market           million worth of S&P 100 equities in his DTC
                                would go up or down.                                    account. Similarly, on May 19, 2006, the day
                                                                                        of Madoff ’s testimony with the Enforcement
                                      During his testimony, Madoff also told the        staff, DTC records show that Madoff held less
                                Enforcement investigators that the trades for           than $24 million worth of S&P 100 equities in
                                all of his advisory accounts were cleared               his DTC account, On August 10, 2006, the
                                through his account at DTC. He testified fur-           day Madoff agreed to register as an invest-
                                ther that his advisory account positions were           ment adviser and the Enforcement staff effec-
                                segregated at DTC and gave the Enforcement              tively ended the Madoff investigation, DTC
                                staff his DTC account number. During an                 records showed that Madoff held less than
                                interview with the OIG, Madoff stated that he           $28 million worth of S&P 100 equities in his
                                had thought he was caught after his testimony           DTC account. Had the Enforcement staff
                                about the DTC account, noting that when                 learned this information during the course of
                                they asked for the DTC account number, “I               their investigation, they would have immedi-
                                thought it was the end game, over. Monday               ately realized that Madoff was not trading in
                                morning they’ll call DTC and this will be over          anywhere near the volume that he was show-
                                . . . and it never happened.” Madoff further            ing on the customer statements. When
                                said that when Enforcement did not follow up            Madoff ’s Ponzi scheme finally collapsed in
                                with DTC, he “was astonished.”                          2008, an SEC Enforcement attorney testified
                                                                                        that it took only “a few days” and “a phone


                                                                                   76
SEMIANNUAL REPORT TO CONGRESS   call … to DTC” to confirm that Madoff had               [Investment Adviser] team.” However, no
                                not placed any trades with his investors’ funds.        examination was ever conducted of Madoff
                                                                                        after he registered as an investment adviser.
                                     Our investigation found that the
                                Enforcement staff made attempts to seek                     A few months later, in December 2006,
                                information from independent third parties;             the Enforcement staff received another com-
                                however, they failed to follow up on these re-          plaint from a “concerned citizen,” advising
                                quests. On May 16, 2006, three days before              the SEC to look into Madoff and his firm:
                                Madoff ’s testimony, the Enforcement staff
                                reached out to the Director of the Market                      Your attention is directed to a
                                Regulation Department at the NASD and                      scandal of major proportion which
                                asked her to check a certain date on which                 was executed by the investment firm
                                Madoff had purportedly held S&P 100 index                  Bernard L. Madoff . . . . Assets well
                                option positions. She reported back that they              in excess of $10 Billion owned by the
                                had found no reports of such option positions              late [investor], an ultra-wealthy long
                                for that day. Yet, the Enforcement staff failed            time client of the Madoff firm have
                                to make any further inquiry regarding this                 been “co-mingled” with funds
                                remarkable finding. The Enforcement staff                  controlled by the Madoff company
                                also failed to scrutinize information obtained             with gains thereon retained by
                                in the NERO cause examination when the                     Madoff.
                                examination staff had attempted to verify
                                Madoff ’s claims of trading OTC options with                In investigating this complaint, the
                                a financial institution and found that “no rele-        Enforcement staff simply asked Madoff ’s
                                vant transaction activity occurred during the           counsel about it, and accepted the response
                                period” requested. Finally, although the                that Madoff had never managed money for
                                Enforcement staff attorney attempted to ob-             this investor. This statement turned out to be
                                tain documentation from U.S. affiliates of              false. When news of Madoff ’s Ponzi scheme
                                European counterparties and one of Madoff ’s            broke, it became evident not only that Madoff
                                purported counterparties was in the process of          managed this investor’s money, but also that
                                drafting a consent letter asking Madoff ’s per-         he was actually one of Madoff ’s largest indi-
                                mission to send the Enforcement staff the               vidual investors.
                                documents from its European account, the
                                inexplicable decision was made not to send                  Shortly after the Madoff Enforcement
                                the letter and to abandon this effort. Had any          investigation was effectively concluded, the
                                of these efforts been pursued by the                    staff attorney on the investigation received the
                                Enforcement staff, they would have uncovered            highest performance rating available at the
                                Madoff ’s Ponzi scheme.                                 SEC, in part, for her “ability to understand
                                                                                        and analyze the complex issues of the Madoff
                                    The Enforcement staff effectively closed            investigation.”
                                the Madoff investigation in August 2006 after
                                Madoff agreed to register as an investment                 Markopolos also tried again in June 2007,
                                adviser. They believed that this was a “benefi-         sending an e-mail to the Enforcement Branch
                                cial result” as, once he registered, “he would          Chief on the Madoff investigation, attaching
                                have to have a compliance program, and he               “some very troubling documents that show the
                                would be subject to an examination by our               Madoff fraud scheme is getting even more

                                                                                   77
SEMIANNUAL REPORT TO CONGRESS   brazen” and noting ominously, “When                    conducted in a more appropriate manner and
                                Madoff finally does blow up, it’s going to be          the mistakes and failures outlined in this ROI
                                spectacular, and lead to massive selling by            are not repeated.
                                hedge fund, fund of funds as they face investor
                                redemptions.” His e-mail was ignored.                      As of the end of the semiannual reporting
                                                                                       period, the OIG has not been informed of
                                     After Madoff was forced to register as an         any disciplinary or performance-based actions
                                investment adviser, the Enforcement investiga-         taken as a result of the investigation.
                                tion was inactive for 18 months before being
                                officially closed in January 2008. A couple of
                                months later, in March 2008, the Chairman’s            Disclosures and Assurances Given in
                                office received additional information regard-         Connection with Acquisition of
                                                                                       Investment Bank
                                ing Madoff ’s involvement with the investor’s
                                money from the same source. The previous                   On October 17, 2008, the OIG opened an
                                complaint was re-sent, and included the fol-           investigation based upon an anonymous com-
                                lowing information:                                    plaint alleging that a Senior Officer in the
                                                                                       SEC’s Division of Enforcement improperly
                                        It may be of interest to you to                disclosed non-public information to a senior
                                   that Mr. Bernard Madoff keeps two                   executive of a large investment bank who was
                                   (2) sets of records. The most                       a former SEC Senior Official. The complaint
                                   interesting of which is on his                      alleged that the Senior Officer gave the for-
                                   computer which is always on his                     mer Senior Official assurances with respect to
                                   person.                                             ongoing Enforcement investigations of an-
                                                                                       other investment bank that was being ac-
                                    This updated complaint was forwarded to            quired by the former Senior Official’s em-
                                the Enforcement staff who had worked on the            ployer. The Senior Officer and the former
                                Madoff investigation, but it was immediately           Senior Official had worked closely together
                                sent back, with a note stating, in pertinent           while the latter was at the SEC and the Senior
                                part, “[W]e will not be pursuing the allega-           Officer had been promoted by the former
                                tions in it.”                                          Senior Official. The complaint further al-
                                                                                       leged the Senior Officer failed to consult with
                                                                                       Enforcement staff about the matter, contrary
                                  Recommendations in the Report of                     to a policy instituted by the Senior Officer.
                                  Investigation

                                      The OIG recommended that the SEC                      The OIG interviewed and/or took sworn
                                Chairman carefully review the ROI and share            testimony of thirty-six former and/or current
                                with OCIE and Enforcement management,                  SEC employees, including the Senior Officer
                                the portions of the ROI that related to the            (who is no longer employed at the SEC) and
                                performance failures by those employees who            the former Senior Official. !In addition, the
                                still worked at the SEC, so that appropriate           OIG obtained and reviewed thousands of e-
                                action (which may include performance-based            mails of relevant SEC staff, as well as numer-
                                action, as appropriate) is taken, on an                ous other documents related to the matter. !
                                employee-by-employee basis, to ensure that
                                future examinations and investigations are                  On September 30, 2009, the OIG issued
                                                                                       its report of investigation in this matter, find-
                                                                                  78
SEMIANNUAL REPORT TO CONGRESS   ing that the Senior Officer had communica-               that the SEC rules and policies regarding dis-
                                tions with the former Senior Official and the            closure of non-public information by the staff
                                former Senior Official did seek assurances               allow for senior staff to exercise discretion
                                from Enforcement staff that his investment               about such disclosure. However, the OIG
                                bank would not be sued for the actions of the            found a lack of clarity with respect to the
                                investment bank it was acquiring. We found               agency’s rules and guidelines relating to the
                                that while the former Senior Official did not            disclosure of non-public information and the
                                receive the broad assurances for the acquiring           appropriate role of the Commissioners in ap-
                                investment bank that he sought, he did receive           proving such disclosure. !
                                some assurances with respect to ongoing and
                                potential investigations related to the pre-                 Further, we found that the Senior Officer
                                acquisition conduct of the target investment             and the OGC did not obtain formal Commis-
                                bank.                                                    sion approval before making critical determi-
                                                                                         nations about the viability of future
                                    The OIG investigation also disclosed that            Enforcement investigations, although we did
                                while at least one staff member had the im-              not find any SEC rule or policy that mandated
                                pression that cases related to the investment            formal Commission approval.
                                bank were “essentially over,” there was no evi-
                                dence that any specific investigation was                    The OIG recommended clarification of
                                stopped as a result of the communications or             the Commission’s policies on the disclosure of
                                assurances given. We did find that there are             non-public information, including: (1) what
                                senior staff within Enforcement who perceive             constitutes non-public information related to
                                that former high-level officials such as the             the existence, or non-existence, of
                                former Senior Official have undue access and             investigations; and (2) what are the parameters
                                influence within Enforcement.                            for discretionary releases by senior staff of
                                                                                         non-public information. !In addition, the
                                    We also found that the Senior Officer did            OIG’s report recommended clarification of
                                not consult with any other Enforcement staff             the Commission’s policies regarding under
                                about decisions made regarding ongoing                   what circumstances the staff is obligated to
                                Enforcement cases, as alleged in the com-                seek formal approval before making decisions
                                plaint. While the OIG did not find that the              that may bind the Commission.
                                Senior Officer’s actions directly violated a pol-
                                icy about external communications, we found                  As the OIG’s report of investigation was
                                that the inclusion of other staff in the delib-          issued just prior to the end of the semiannual
                                erative process or the communications would              reporting period, no action has yet been taken
                                have helped avoid an appearance of impro-                by management with respect to the OIG’s
                                priety stemming from the relationship of the             recommendations.
                                Senior Officer and former Senior Official. !

                                     The OIG investigation also found that a             Violations of Standards of Ethical
                                letter written by the Enforcement staff to the           Conduct With Regard to Official
                                acquiring investment bank technically dis-               Government Travel by Managers in the
                                                                                         Fort Worth Regional Office
                                closed non-public information because it con-
                                firmed there were ongoing investigations of                  On July 24, 2008, the OIG opened an in-
                                the target investment bank. The OIG found                vestigation into an allegation of violations of

                                                                                    79
SEMIANNUAL REPORT TO CONGRESS   the Federal Travel Regulations by a Fort                relative of an SEC manager. In light of these
                                Worth Regional Office (FWRO) Senior Offi-               investigative findings, the OIG found, after
                                cial. Specifically, it was alleged that the             consultation with the SEC Ethics Counsel,
                                FWRO Senior Official arranged for herself               that the FWRO Senior Official violated 5
                                and three other FWRO staff to stay overnight            C.F.R. § 2635.702 by using her public office
                                at a bed & breakfast in Kansas, owned by the            for her family members’ private gain.
                                FWRO Senior Official’s brother and sister-in-
                                law, during official government travel in July              With respect to the allegations about the
                                2007. It was also alleged that the FWRO Sen-            New York City trip, the OIG found no evi-
                                ior Official had misused government resources           dence of misuse of government time on this
                                in September 2006 by unnecessarily sending              trip, as the record showed that the participants
                                several FWRO employees to New York City as              were engaged in SEC-related activities during
                                a “reward” and spending excess FY 2006                  their duty hours.
                                travel funds.
                                                                                            The OIG issued its report of investigation
                                     The OIG reviewed the travel vouchers,              to management on September 25, 2009, and
                                and took the sworn, on-the-record testimony             recommended that management take discipli-
                                from the FWRO Senior Official and the three             nary action against the FWRO Senior Offi-
                                other Kansas trip participants. Similarly, the          cial. As the report of investigation was issued
                                OIG reviewed the travel vouchers and time               just prior to the end of the semiannual report-
                                and attendance records of all eight FWRO                ing period, no action has yet been taken by
                                employees who traveled to New York City in              management with respect to the OIG’s rec-
                                September 2006, and took the sworn, on-the-             ommendation.
                                record testimony from the FWRO Senior Of-
                                ficial and the seven other trip participants.
                                                                                        Retaliation by Senior Officers in a
                                The OIG also consulted with the SEC’s Ethics            Regional Office
                                Counsel.
                                                                                            On July 24, 2008, the OIG opened an in-
                                     The OIG found that in connection with a            vestigation upon receipt of a written com-
                                government meeting in Kansas, the FWRO                  plaint sent by a former Branch Chief in an
                                Senior Official made arrangements for herself           SEC Regional Office. The former Branch
                                and three other FWRO staff to stay overnight            Chief alleged that he suffered retaliation by
                                at a bed & breakfast, owned by the FWRO                 two Senior Officers following his submission
                                Senior Official’s brother and sister-in-law.            of a memorandum to SEC senior
                                The bed & breakfast was approximately 50                management in Washington, DC, disclosing
                                miles from the place where the group was                what he believed to be mismanagement of the
                                scheduled to have a meeting the next day, and           examination program and mistreatment of his
                                in fact, the group was late getting to the meet-        immediate supervisor. The former Branch
                                ing due to its distance from the bed & break-           Chief asserted that following his submission to
                                fast. Two of the staff members who took the             SEC senior management, the two Senior Of-
                                trip testified that the FWRO Senior Official            ficers engaged in a series of retaliatory per-
                                made the arrangements for them and they did             sonnel actions consisting of performance
                                not feel that they could make alternate ar-             management counseling, abusive daily moni-
                                rangements, despite feeling uncomfortable               toring, and a Letter of Reprimand. After the
                                staying at the bed & breakfast owned by the             OIG initiated its investigation, the former

                                                                                   80
SEMIANNUAL REPORT TO CONGRESS   Branch Chief voluntarily resigned his em-                claim that his Letter of Reprimand was re-
                                ployment with the SEC.                                   taliatory in nature and, in a settlement with
                                                                                         the SEC, the letter of reprimand was re-
                                    Subsequent to the former Branch Chief ’s             scinded.
                                complaint, his immediate supervisor, the Assis-
                                tant Director, also made a complaint to the                   In connection with the claims of the Assis-
                                OIG alleging that the same two Senior Offi-              tant Director, the OIG investigation found
                                cers retaliated against her because she was not          that the Assistant Director and one of the
                                supporting a new examination program,                    Senior Officers had a history of conflict well
                                known as the Broker-Dealer Risk Assessment               before the introduction of the RAVEs pro-
                                Verification Examinations (RAVEs) program.               gram. We also found that this conflict was
                                Specifically, the Assistant Director alleged that        exacerbated by the Assistant Director’s oppo-
                                she was excluded from the RAVEs program,                 sition to the RAVEs program and the manner
                                mistreated by these two Senior Officers during           in which the Assistant Director expressed that
                                meetings, issued a retaliatory Letter of Rep-            opposition, which could be described as hos-
                                rimand, and involuntarily transferred to non-            tile. Accordingly, in light of the Assistant Di-
                                supervisory duties.                                      rector’s reaction to the RAVEs program, the
                                                                                         OIG found that the decision to exclude the
                                    The OIG interviewed ten current or for-              Assistant Director from that program was not
                                mer employees of the Regional Office, three              inappropriate or an abuse of authority.
                                employees from OCIE, and three current or
                                former employees of the SEC Office of Hu-                    With respect to certain meetings in which
                                man Resources (OHR). The OIG also re-                    the Assistant Director alleged she was mis-
                                viewed four years of relevant employee                   treated, the OIG found that the two Senior
                                performance records, the letters of reprimand            Officers were somewhat harsh in these meet-
                                issued to the former Branch Chief and the                ings. However, the OIG found that the Assis-
                                Assistant Director, the counseling memoran-              tant Director was not a whistleblower per se,
                                dum given to the former Branch Chief, and                as there was no evidence that she made ac-
                                applicable agency policy and laws.                       tionable disclosures beyond her supervisors in
                                                                                         the Regional Office.
                                     With respect to the former Branch Chief,
                                the OIG found that the performance counsel-                  However, the OIG determined that both
                                ing memorandum, daily monitoring, and the                the former Branch Chief ’s and the Assistant
                                Letter of Reprimand were issued shortly after            Director’s complaints about their supervisors
                                he complained about his supervisors and, in              and the RAVEs program improperly led to
                                fact, his letter of reprimand actually cited his         actions taken against them. While the OIG
                                memorandum to senior SEC officials in de-                found that the manner in which the former
                                scribing his inappropriate conduct. In addi-             Branch Chief and the Assistant Director ex-
                                tion, the OIG found that the former Branch               pressed their complaints may have also been
                                Chief ’s memorandum to senior SEC officials              an appropriate factor in the actions taken
                                would constitute disclosures to authorities in a         against them, we determined that the com-
                                position to correct improper activity, which             plaints themselves were a more significant
                                would be a prerequisite for a finding of re-             contributing factor in the disciplinary actions.
                                taliation against a whistleblower. The former
                                Branch Chief filed a grievance based upon his

                                                                                    81
SEMIANNUAL REPORT TO CONGRESS       The OIG issued its report of investigation        from other Federal or state agencies who had
                                to management on September 15, 2009, and              been contacted by the SEC attorney. In addi-
                                recommended that management consider                  tion, the OIG obtained and searched the SEC
                                performance-based or disciplinary action              attorney’s e-mails for the month of July 2009.
                                against the two Senior Officers. As the report        The OIG took the sworn, on-the-record tes-
                                of investigation was issued just prior to the         timony of the SEC attorney, as well as another
                                end of the semiannual reporting period, no            lower-level employee who assisted the attorney
                                action has yet been taken by management               with his FOIA request, and interviewed other
                                with respect to the OIG’s recommendations.            SEC employees, including the supervisors of
                                                                                      both the attorney and the lower-level em-
                                                                                      ployee who assisted the attorney.
                                Misuse of Position, Government
                                Resources, and Official Time in a                         The OIG issued a detailed report of inves-
                                Regional Office and Headquarters                      tigation to management on September 30,
                                     On July 30, 2009, the OIG opened an in-          2009. The OIG’s investigation disclosed sub-
                                vestigation after the SEC Ethics Counsel for-         stantial evidence that the SEC Regional Office
                                                                                      attorney had repeatedly misused his SEC posi-
                                warded to the OIG a copy of a FOIA request
                                that an SEC SK-16 Regional Office attorney            tion and SEC resources to assist his girlfriend,
                                had sent to another Federal agency. The               a former government contractor, in connec-
                                FOIA request included the attorney’s official         tion with ongoing litigation with her insurance
                                title, SEC phone number and SEC fax num-              company. In particular, we found evidence
                                                                                      that the SEC attorney was using his position
                                ber, and stated that he was a lawyer with an
                                SEC Regional Office and a FOIA Liaison in             and SEC resources to assist her with an up-
                                that Office. An Assistant General Counsel for         coming hearing regarding allegations that she
                                Ethics (Assistant General Counsel) for the            had submitted false documents during the
                                agency that received the request notified the         course of the litigation.
                                SEC’s Ethics Counsel of the request and pro-
                                vided a copy of it. The Assistant General                  Specifically, we found evidence of at least
                                Counsel of the recipient agency also notified         seven concrete instances when the SEC attor-
                                the SEC Ethics Counsel that the SEC attor-            ney misused his position in an effort to assist
                                ney had contacted a regional office of that           his girlfriend. First, as noted above, the attor-
                                                                                      ney sent a FOIA request to another Federal
                                agency, indicating that he was calling for the
                                SEC concerning additional requests for                agency that sought information pertinent to
                                information.                                          his girlfriend’s litigation with her insurance
                                                                                      company and included his official title and
                                    Upon opening its investigation, the OIG           SEC telephone number and fax number. He
                                                                                      also plainly stated in its opening sentences that
                                contacted the Assistant General Counsel at
                                the agency that had received the SEC attor-           he was a lawyer with an SEC Regional Office
                                ney’s FOIA request. OIG staff then con-               and a FOIA liaison in that Office. This re-
                                ducted interviews of five current or former           quest raised serious questions with one agency
                                employees of that agency who had contacts             official to whom it was sent for processing,
                                                                                      who in particular questioned why the SEC
                                with the SEC attorney or possessed
                                information regarding his requests for                would be involved in the case.
                                information. The OIG also interviewed or
                                communicated by e-mail with two officials
                                                                                 82
SEMIANNUAL REPORT TO CONGRESS        Second, the SEC attorney left a voicemail               Sixth, the SEC attorney admitted disclos-
                                message for a paralegal of the Federal agency           ing the fact he worked at the SEC in conversa-
                                to whom he had sent his FOIA request, seek-             tions with a state insurance commissioner in
                                ing procurement-related information for use             an effort to convince the division of insurance
                                in his girlfriend’s litigation. The SEC attorney        to undertake a proceeding that might assist his
                                also had a follow-up conversation with an at-           girlfriend. In fact, the SEC attorney noted
                                torney of this agency in which he again iden-           that he used his relationship with the state
                                tified himself as an SEC attorney and sought            securities commissioner as an entrée to meet
                                information relating to the agency’s procure-           with the insurance commissioner.
                                ment program. The attorney from the other
                                agency stated that the SEC attorney informed                 Seventh, the SEC attorney used his SEC
                                him that the request related to a contract that         e-mail account to communicate with a state
                                was being investigated, leading him to believe          senior assistant attorney general who was
                                that the SEC attorney’s request pertained to            working on behalf of the division of insurance
                                an official SEC matter.                                 in connection with the girlfriend’s petition for
                                                                                        a declaratory order. This official stated that
                                    Third, the SEC attorney contacted by                after he learned that the SEC attorney worked
                                telephone a former agency procurement offi-             at the SEC, he wondered whether the SEC
                                cial who was the purported author of a letter           attorney was acting in an official capacity and
                                that his girlfriend was accused of fabricating.         requested clarification as to the SEC attor-
                                The former official stated that the SEC attor-          ney’s role in the matter. According to this offi-
                                ney indicated that he was from the SEC in a             cial, the SEC attorney informed him that he
                                message he left for the former official, and the        was working at the SEC and was helping the
                                SEC attorney admitted that he most likely               girlfriend in her insurance claims process and
                                called the former official from his SEC phone.          otherwise, but was not acting as her counsel.
                                The former official indicated that he won-
                                dered what the SEC had to do with this pri-                 In addition to the numerous instances in
                                vate individual who had been a contractor for           which he misused his official SEC position,
                                the official’s former agency.                           the OIG’s investigation disclosed that the SEC
                                                                                        attorney improperly sought and obtained the
                                    Fourth, another employee of the same                assistance of a lower-level SEC staff person in
                                agency to which the SEC attorney had sub-               an effort to obtain information on how to best
                                mitted his FOIA request informed us that the            draft the FOIA request he eventually submit-
                                SEC attorney had left him a voicemail mes-              ted to another Federal agency. The investiga-
                                sage, in which he clearly stated that he was            tion concluded that the SEC attorney violated
                                calling from the SEC and was calling on be-             SEC policies and the government-wide stan-
                                half of a private individual (his girlfriend).          dards of ethical conduct by misusing SEC re-
                                                                                        sources, and SEC e-mail in particular, to assist
                                    Fifth, the SEC attorney sent an e-mail              his girlfriend with her litigation. Our investi-
                                from his SEC e-mail account to the director of          gation revealed that he frequently used SEC e-
                                a district office of another Federal agency, in         mail in connection with her litigation, often
                                which he stated he was making an inquiry on             during work hours, and in a volume that could
                                behalf of his girlfriend, a former government           not be considered de minimis (approximately
                                contractor.                                             180 e-mails in one month and several with
                                                                                        lengthy attachments).

                                                                                   83
SEMIANNUAL REPORT TO CONGRESS                                                            rect and substantial interest. Accordingly, the
                                     While the SEC attorney repeatedly                   OIG referred the matter to the U.S. Attorney’s
                                claimed that he did nothing wrong, the OIG               Office for the District of Columbia for consid-
                                investigation concluded that his numerous                eration of criminal prosecution. That Office
                                contacts to current and former government                provided a declination of prosecution in lieu
                                officials to obtain information for his girl-            of appropriate administrative action.
                                friend’s litigation were, in fact, an improper
                                use of his public office in a manner that was                In consideration of the attorney’s egre-
                                intended to coerce or induce a benefit for his           gious and repeated misuse of his official SEC
                                girlfriend, and clearly violated the                     position and title to assist a private individual,
                                government-wide standards of conduct.                    we recommended that disciplinary action be
                                                                                         taken against him, up to and including dis-
                                     The OIG’s investigation also found that a           missal. We also recommended that
                                lower-level SEC employee, in response to a               management consider taking disciplinary ac-
                                request for a favor from the SEC attorney, sent          tion against the lower-level employee and sug-
                                an e-mail to another Federal agency to obtain            gested that she be provided with ethics train-
                                information on how the SEC attorney could                ing. As the report of investigation was issued
                                file a FOIA request with this other agency.              just prior to the end of the semiannual report-
                                Despite it being clear to the lower-level em-            ing period, no action has been taken as of yet
                                ployee that the SEC attorney was requesting              by management with respect to the OIG’s
                                information for a friend and that it was not an          recommendations.
                                official SEC request, she sent the request from
                                her SEC e-mail account, during her work
                                hours, and stated that she worked in an SEC              Possession of a Weapon Inside SEC
                                office. While the lower-level employee indi-             Headquarters
                                cated that she did not think there was any
                                                                                             On March 27, 2009, the OIG opened this
                                problem with her e-mail at the time she sent
                                                                                         investigation after receiving information from
                                it, she testified that she now clearly sees there
                                                                                         the SEC’s Security Branch concerning a po-
                                is a problem. The OIG investigation also
                                                                                         tential threat allegedly made by an
                                found that the lower-level employee reviewed
                                                                                         Enforcement Accountant against his supervi-
                                a draft of the SEC attorney’s private FOIA
                                                                                         sor. On March 20, 2009, the Enforcement
                                request using her official time. The OIG in-
                                                                                         Accountant sent his supervisor an e-mail re-
                                vestigation concluded that it was improper for
                                                                                         lated to a disagreement over a professional
                                her to use her official position and time to as-
                                                                                         matter that contained language that could
                                sist the SEC attorney with a private matter.
                                                                                         have been interpreted as threatening. On
                                                                                         March 25, 2009, the supervisor met with rep-
                                     The SEC attorney’s contacts to other Fed-
                                                                                         resentatives of the SEC Security Branch and
                                eral agencies on behalf of his girlfriend ap-
                                                                                         the Office of Human Resources (OHR). Dur-
                                peared to violate 18 U.S.C. § 205, which pro-
                                                                                         ing this meeting, the supervisor stated that he
                                hibits an officer or employee of the United
                                                                                         had heard from other SEC employees that the
                                States, other than in the proper discharge of
                                                                                         Enforcement Accountant routinely brought a
                                official duties, from acting as agent or attorney
                                                                                         “large buck knife” to work.
                                for anyone before any department or agency
                                in connection with any covered matter in
                                which the United States is a party or has a di-

                                                                                    84
SEMIANNUAL REPORT TO CONGRESS       On April 1, 2009, the OIG interviewed              fined in 18 U.S.C. § 930(g), and had routinely
                                the Enforcement Accountant concerning the              been in possession of dangerous weapons
                                allegation that he routinely brought a large           within the SEC building for several years de-
                                knife to his SEC office and discovered that the        spite his own admission that he knew it was
                                Enforcement Accountant was carrying a fold-            unlawful to do so. On April 21, 2009, the
                                ing knife with a 3$ to 4-inch blade. Immedi-           OIG referred its factual findings to the U.S.
                                ately after this discovery, an OIG investigator        Attorney’s Office for the District of Columbia
                                accompanied the Enforcement Accountant to              for its consideration of a possible criminal
                                his office and discovered two other similar            prosecution of the Enforcement Accountant
                                knives in a backpack. The Enforcement Ac-              under 18 U.S.C. § 930(a). The U.S. Attorney
                                countant’s knives were immediately confis-             issued a declination of prosecution stating that
                                cated by the OIG investigator and turned over          the matter was more appropriately suited for
                                to the Security Branch for safekeeping. That           an administrative proceeding.
                                same day, the Enforcement Accountant was
                                placed in a non-duty status with pay (adminis-             In the course of this investigation, the
                                trative leave), effective immediately. The no-         OIG also discovered evidence suggesting that
                                tice of his administrative leave stated that he        the Enforcement Accountant was not com-
                                was not allowed access to the worksite and             pletely truthful in his testimony before the
                                must immediately surrender his building pass           OIG and in his previously-submitted Declara-
                                and SEC identification card.                           tion for Federal Employment regarding his
                                                                                       prior criminal conviction and probation for
                                     Subsequently, the OIG reviewed the                driving while intoxicated.
                                Enforcement Accountant’s personnel files, re-
                                ports prepared by the SEC Security Branch,                 The OIG issued its report of investigation
                                e-mails between the Enforcement Accountant             to management on July 9, 2009, and recom-
                                and his supervisor or other SEC personnel, a           mended disciplinary action against the
                                memorandum to the Enforcement Account-                 Enforcement Accountant, up to and including
                                ant’s file from his supervisor regarding a             dismissal. As of the end of the semiannual
                                March 25, 2009 meeting with the                        reporting period, management had proposed
                                Enforcement Accountant, and an National                removal of the Enforcement Accountant, but
                                Crime Information Center criminal back-                disciplinary action had not been finalized.
                                ground report for the Enforcement Account-
                                ant. The OIG also took sworn, on-the-record
                                testimony of the Enforcement Accountant, his           Participation in Fraudulent Scheme by
                                supervisor, and four other SEC employees and           Contract Employee Using SEC
                                interviewed three other SEC employees.                 Resources

                                                                                            On July 1, 2009, the OIG opened an in-
                                    The OIG found that the Enforcement Ac-             vestigation after being advised by the FBI of a
                                countant violated Title 18 U.S.C. § 930 of the         criminal investigation being conducted jointly
                                Federal criminal code by knowingly carrying            with other law enforcement agencies into an
                                dangerous weapons into a federal facility.             illegal scheme to defraud the United States in
                                Specifically, the OIG found that on April 1,           connection with accounts receivables finance
                                2009, the Enforcement Accountant knowingly             companies (factoring companies) that pur-
                                possessed at least three “dangerous weapons”           chased accounts receivables from government
                                in a “federal facility,” as those terms are de-        contractors. The targets of the investigation
                                                                                  85
SEMIANNUAL REPORT TO CONGRESS   included an employee of an SEC contractor               the use of SEC office equipment and com-
                                who was working in the Office of Administra-            puter resources.
                                tive Services and two other individuals. The
                                SEC contract employee was alleged to have                   The OIG also assisted in coordinating the
                                falsely portrayed himself as a U.S. Army Con-           arrest of the contract employee. Specifically,
                                tracting Officer in furtherance of the scheme           the OIG provided information necessary for
                                to defraud.                                             the arrest to occur, and an OIG Special Agent
                                                                                        worked closely with other Federal agents to
                                    Upon opening its investigation, the OIG             facilitate the subject’s arrest on July 23, 2009.
                                contacted the Personnel Security and Records            The subject was apprehended while en route
                                Branch of OHR for information pertinent to              to the SEC facility where he worked. As a re-
                                the employee’s clearance to work as an SEC              sult of the subject’s arrest, his contract em-
                                contract employee. We reviewed the file per-            ployment with the SEC was terminated im-
                                taining to his background investigation and             mediately, his SEC access card was deacti-
                                learned that the employee was authorized to             vated and he was banned from entry on SEC
                                have access to SEC facilities and computer              property.
                                systems on April 3, 2009, based upon a favor-
                                able suitability determination. We further                  Subsequent to the contract employee’s ar-
                                found that this favorable suitability determina-        rest, the OIG continued to coordinate with
                                tion was made, notwithstanding knowledge of             the FBI regarding the criminal investigation
                                prior criminal and court-martial proceedings            into the fraudulent scheme. Specifically, the
                                being instituted against the employee, based            OIG obtained and searched additional e-mails
                                upon perceived mitigating factors.                      of the subject, as well as files maintained on
                                                                                        his computer hard drive and the SEC net-
                                    The OIG requested and obtained the em-              work. The OIG then provided additional per-
                                ployee’s building access records for the period         tinent documents to the FBI, including a re-
                                in which he had been employed as an SEC                 sume containing false information about the
                                contractor. The OIG also obtained the con-              subject’s employment with the SEC.
                                tract employee’s SEC e-mails for that time pe-
                                riod. The OIG then uncovered documents                      On August 24, 2009, the contract em-
                                that the contract employee had scanned and              ployee and two other individuals were indicted
                                e-mailed using SEC equipment that appeared              in Federal district court based upon a scheme
                                to be in furtherance of the scheme to defraud           to defraud the United States by falsely repre-
                                involving the factoring companies. The OIG              senting to factoring companies that the defen-
                                found that the contract employee fraudulently           dants’ business entities had obtained legiti-
                                signed several of these documents as a U.S.             mate multi-million dollar government con-
                                Army Contracting Officer while he was em-               tracts. The indictment alleged, among other
                                ployed as a contractor at the SEC. The OIG’s            things, that the SEC contract employee falsely
                                review of the subject’s e-mails also revealed an        held himself out as a U.S. Army Contracting
                                excessive amount of personal e-mails sent and           Officer in order to convince the factoring
                                received during work hours, as well as e-mails          companies that the defendants’ companies
                                sent pertaining to a private business in viola-         had genuine government contracts and that
                                tion of the SEC’s policies and rules regarding          government payments would be made to the
                                                                                        factoring companies. The contract employee


                                                                                   86
SEMIANNUAL REPORT TO CONGRESS   was charged with seven counts of wire fraud,             son who handled money for this Ponzi scheme
                                and forfeiture of over $4 million was sought             perpetrator and his companies.
                                against the defendants.
                                                                                             Shortly after the OIG investigation began,
                                    On September 30, 2009, the OIG issued a              the Supervisor retired from the SEC pursuant
                                report of investigation that set forth the perti-        to the SEC’s Voluntary Early Retirement
                                nent facts uncovered during the investigation            Authority (VERA) and Voluntary Separation
                                and discussed in detail the assistance provided          Incentive Payment (VSIP) authority. As a re-
                                to and coordination with the FBI and other               sult, the Supervisor received full retirement
                                agencies involved in the investigation. Be-              benefits and a $25,000 buyout.
                                cause the contract employee no longer works
                                at the SEC due to his arrest and subsequent                  The OIG obtained and reviewed the Su-
                                indictment, the OIG did not recommend ad-                pervisor’s SEC e-mails for the relevant period.
                                ministrative action. However, the OIG pro-               The OIG reviewed those e-mails to determine
                                vided its report to management for informa-              the nature of the Supervisor’s involvement
                                tional purposes and suggested that                       with the Ponzi scheme perpetrator and his
                                management exercise greater caution in mak-              companies. The OIG provided the ACC with
                                ing suitability determinations concerning pro-           the Supervisor’s approximately 2,300 e-mails
                                posed contract employees in the future.                  that were related to the Ponzi scheme perpe-
                                Management informed the OIG that it is                   trator and his companies. The OIG also re-
                                remedying a processing error that occurred in            quested that the SEC’s Office of Information
                                this case and is continuing to review the                Technology examine the Supervisor’s com-
                                matter.                                                  puter hard drive and logs for any indication
                                                                                         that she used SEC resources in addition to her
                                                                                         e-mail account to support the activities of the
                                Assistance with the Operation of a
                                Ponzi Scheme by Former SEC                               Ponzi scheme perpetrator and his companies.
                                Employee Using SEC Resources                             Additionally, the OIG contacted the Ethics
                                                                                         Office to determine whether the Supervisor
                                    On November 4, 2008, the OIG opened                  had sought ethics advice in connection with
                                an investigation as a result of information re-          the matter under investigation. Finally, the
                                ceived from the Securities Division of the Ari-          OIG took the sworn testimony of the person
                                zona Corporation Commission (ACC). The                   to whom the Supervisor reported during the
                                ACC advised the OIG that a Supervisor in the             relevant period.
                                SEC’s Office of Administrative Services had
                                been allegedly assisting with the operation of               The OIG found that on May 11, 2009,
                                a Ponzi scheme orchestrated by an Arizona                the Ponzi scheme perpetrator consented to the
                                man. According to an ACC investigator, one               ACC’s entry of an Order to Cease and Desist,
                                of the investors who had cooperated with the             Order for Restitution, Order for Administra-
                                ACC’s investigation of this Ponzi scheme per-            tive Penalties and Consent to Same by Re-
                                petrator provided the ACC with e-mails that              spondents (ACC Order). In the ACC Order,
                                the Supervisor sent from her SEC computer                he admitted to violating the Arizona securities
                                regarding sending funds on his behalf. The               laws.
                                ACC investigator also informed the OIG that
                                several other witnesses in the ACC investiga-               According to the ACC Order, the Ponzi
                                tion had identified the Supervisor as the per-           scheme perpetrator presented himself as “an

                                                                                    87
SEMIANNUAL REPORT TO CONGRESS   international numerologist and spiritual finan-          scheme. During the course of its investiga-
                                cial adviser who could predict the future utiliz-        tion, the OIG referred this matter to the
                                ing numerology.” He purportedly provided                 SEC’s Division of Enforcement for investiga-
                                services as “a life coach” to individuals who            tion and the U.S. Department of Justice (DOJ)
                                paid to join his “VIP coaching program” and              Criminal Division for possible criminal prose-
                                told the members of this program that “they              cution. The DOJ declined prosecution of the
                                could, through the use of numerology con-                matter.
                                cepts, improve their financial well-being by
                                investing in futures and commodities and/or                   The OIG issued its report of investigation
                                enhance their spiritual awareness.” Eventu-              to management on September 30, 2009. In
                                ally, he began soliciting members of his life-           its report, the OIG stated that had the Super-
                                coaching program for funds that he claimed               visor not retired shortly after the OIG investi-
                                would be invested on their behalf in copper              gation began, the OIG would have recom-
                                futures using numerology principles to time              mended serious disciplinary action against her,
                                the futures market. In fact, none of the inves-          including termination. In light of her con-
                                tors’ funds were ever invested, but instead              duct, the OIG recommended that the SEC
                                were deposited in the checking accounts of his           pursue revocation of the VERA and VSIP
                                companies and used for his own personal                  benefits the Supervisor received, including the
                                benefit. His scheme raised approximately                 $25,000 payment. As the report of investiga-
                                $430,000 from 65 investors.                              tion was issued just prior to the end of the
                                                                                         semiannual reporting period, no action has
                                    The OIG discovered that during the pe-               been taken as of yet by management with re-
                                riod in question, the Supervisor used her SEC            spect to the OIG’s recommendation.
                                e-mail account to conduct business on behalf
                                of the Ponzi scheme perpetrator and his com-
                                panies on virtually a daily basis. The OIG               Allegations of Failure to Conduct
                                found that the Supervisor was extensively in-            Timely Investigation in the Fort Worth
                                                                                         Regional Office
                                volved in handling the payments to and from
                                his victims, and used her SEC e-mail account                  The OIG opened an investigation in re-
                                to communicate directly with those victims.              sponse to specific anonymous complaints that
                                                                                         the SEC’s FWRO improperly “stood down” in
                                    The OIG did not find any evidence that               its investigation of Robert Allen Stanford
                                the Supervisor knew that this individual was             (Stanford) at the request of another govern-
                                operating a Ponzi scheme. The ACC did not                ment agency and failed to diligently pursue
                                take any action against the Supervisor and she           the Stanford investigation until the Madoff
                                is not mentioned in the ACC Order. How-                  Ponzi scheme collapsed in December 2008.
                                ever, the OIG did find that the Supervisor vio-          The SEC’s Stanford investigation ultimately
                                lated Commission rules and policies on the               resulted in a civil complaint, filed on February
                                use of SEC office equipment, as well as the              17, 2009, in the U.S. District Court for the
                                Standards of Ethical Conduct for Employees               Northern District of Texas against Stanford
                                of the Executive Branch by using the SEC’s e-            for allegedly operating a Ponzi scheme.
                                mail system, her SEC computer, and other
                                SEC resources to assist the Ponzi scheme per-                The SEC’s February 17, 2009 civil com-
                                petrator operate his companies, whether or               plaint alleged that Stanford and his co-
                                not she knew those companies were a Ponzi

                                                                                    88
SEMIANNUAL REPORT TO CONGRESS   defendants orchestrated a $8 billion fraud               to a specific request from the DOJ, which was
                                based on false promises of guaranteed returns            involved in a criminal investigation.
                                related to “certificates of deposit” (CDs) issued
                                by the Antiguan-based Stanford International                  The report also found that the FWRO was
                                Bank (SIB). The SEC alleged that SIB sold                actively investigating Stanford well before the
                                approximately $8 billion of CDs to investors             December 2008 revelations about Madoff ’s
                                by promising improbable and unsubstantiated              Ponzi scheme, although immediately after
                                high interest rates of return. Pursuant to the           Madoff confessed, the Stanford investigation
                                SEC’s request for emergency relief, the Court            became more urgent for the FWRO and, after
                                immediately issued a temporary restraining               ascertaining that the DOJ investigation was in
                                order, froze the defendants’ assets, and ap-             its preliminary phase, the FWRO staff asked
                                pointed a receiver to marshal those assets.              DOJ if it could move forward with the Stan-
                                After reviewing documents obtained from the              ford investigation. After DOJ gave the FWRO
                                court-appointed receiver, the SEC filed an               staff the approval to move forward, the
                                amended complaint on February 27, 2009,                  FWRO staff gathered more evidence of cer-
                                further alleging that Stanford had conducted a           tain fraudulent marketing practices by Stan-
                                Ponzi scheme.                                            ford. That evidence allowed the SEC to file a
                                                                                         civil action against Stanford on February 17,
                                    The OIG conducted numerous interviews                2009.
                                of officials in the SEC’s FWRO regarding
                                their investigation of Stanford and the result-              We also found that the FWRO staff ’s ef-
                                ing civil action. In addition, the OIG re-               forts to pursue its suspicions of a Ponzi
                                viewed many documents related to the investi-            scheme in the Stanford investigation were
                                gation of, and the litigation against, Stanford,         hampered by a lack of cooperation on the
                                including: (1) a March 14, 2005 referral from            part of Stanford and his counsel, certain ju-
                                the SEC’s Office of Compliance Inspections               risdictional obstacles and, according to a June
                                and Examinations; (2) a copy of the Action               19, 2009 DOJ indictment, criminal obstruc-
                                Memorandum Seeking Formal Order Author-                  tion of the FWRO’s Stanford investigation by
                                ity dated October 11, 2006, (3) the Formal               several individuals including the head of
                                Order of Investigation dated October 26,                 Antigua’s Financial Services Regulatory
                                2006; (4) a Memorandum to the DOJ regard-                Commission.
                                ing the criminal referral dated April 22, 2008;
                                and (5) information from the SEC Division of
                                Enforcement’s case tracking systems.                     Misuse of Government Computer
                                                                                         Resources
                                    The OIG issued its report of investigation
                                                                                             On December 1, 2008, the OIG opened
                                to management on June 19, 2009. In its re-
                                                                                         an investigation as a result of information re-
                                port, the OIG found that the SEC did decide
                                                                                         ceived from the Office of Information
                                to effectively halt its Stanford investigation in
                                                                                         Technology Security group. This information
                                or about April 2008. However, we did not
                                                                                         showed that a Supervisor in an SEC Regional
                                find that the SEC breached its obligations to
                                                                                         Office had used his SEC-assigned computer to
                                vigorously pursue allegations of wrongdoing
                                                                                         access Internet pornography.
                                in the Stanford matter, as the SEC’s decision
                                to halt its investigation was made in a response


                                                                                    89
SEMIANNUAL REPORT TO CONGRESS       The OIG reviewed certain computer re-               Allegation of Unauthorized Disclosure
                                cords, including an Internet history log, re-           of Non-Public Information
                                lated to the Supervisor and the results of a
                                                                                            The OIG opened an investigation on
                                forensic analysis of his SEC computer hard
                                                                                        August 8, 2008, after it was notified by senior
                                drive. The OIG also reviewed the Supervi-
                                                                                        staff in the Office of Compliance Inspections
                                sor’s Official Personnel Folder and time and
                                                                                        and Examinations (OCIE) that a non-public
                                attendance records. Finally, the OIG took the
                                                                                        draft of the SEC’s report on certain issues re-
                                Supervisor’s sworn, on-the-record testimony.
                                                                                        lated to credit rating agencies was apparently
                                                                                        leaked to the Wall Street Journal (WSJ). An
                                    The OIG investigation revealed that while
                                                                                        August 2, 2008 WSJ article included
                                using his SEC computer during seven working
                                                                                        non-public information contained in the draft
                                days, the Supervisor received approximately
                                                                                        report.
                                196 access denials for Internet websites classi-
                                fied by the Commission’s Internet filter as
                                                                                            The report was the product of an SEC
                                “Pornography.” The Supervisor’s SEC com-
                                                                                        examination of three Nationally Recognized
                                puter hard drive also contained numerous
                                                                                        Statistical Rating Organizations (NRSROs).
                                pornographic images. The Supervisor admit-
                                                                                        The report was a collaborative effort by
                                ted under oath that he accessed pornographic
                                                                                        OCIE, the Division of Trading and Markets
                                and sexually explicit websites from his SEC
                                                                                        (TM), the Office of Economic Analysis
                                computer during work hours. He also admit-
                                                                                        (OEA), and the Office of Risk Assessment
                                ted that he had frequently viewed pornogra-
                                                                                        (ORA). The focus of the report was the
                                phy at work on his SEC computer for about a
                                                                                        NRSROs’ activities in rating subprime resi-
                                year.
                                                                                        dential mortgage-backed securities and associ-
                                                                                        ated collateralized debt obligations.
                                    The OIG found that the Supervisor vio-
                                lated Commission rules and policies on the
                                                                                             In the process of writing the report, the
                                use of SEC office equipment as well as the
                                                                                        staff produced a number of drafts that were
                                Government-wide Standards of Ethical Con-
                                                                                        circulated among various SEC divisions and
                                duct. The OIG also found that two video files
                                                                                        offices for comment. The SEC ultimately re-
                                discovered on the Supervisor’s computer hard
                                                                                        leased a redacted version of the final report to
                                drive potentially contained child pornography.
                                                                                        the public. The public version of the report
                                Therefore, the OIG referred the matter to the
                                                                                        did not identify the NRSROs that were exam-
                                FBI.
                                                                                        ined, but did include the SEC’s findings that
                                                                                        were critical of those firms.
                                    The OIG issued its report of investigation
                                to management on July 9, 2009, and recom-
                                                                                            During the course of this investigation, the
                                mended that the SEC take appropriate disci-
                                                                                        OIG reviewed numerous drafts of the
                                plinary action against the Supervisor, up to
                                                                                        NRSRO Report; the individual examination
                                and including dismissal. Management pro-
                                                                                        reports of the three examined NRSROs; the
                                posed a five-day suspension for the Supervisor,
                                                                                        Action Memorandum jointly submitted to the
                                but disciplinary action had not been finalized
                                                                                        Commission by OCIE, TM and OEA seeking
                                by the end of the reporting period.
                                                                                        authorization to publicly release the report;
                                                                                        the WSJ article; and correspondence from one
                                                                                        of the NRSROs and its outside counsel to

                                                                                   90
SEMIANNUAL REPORT TO CONGRESS   OCIE regarding the impact of the WSJ arti-             tion of the company so that staff could more
                                cle. The OIG also identified the SEC staff             fully understand why the selection had been
                                members on the report’s distribution list and          made. !
                                other staff members involved in the prepara-
                                tion and review of the report. For those 37
                                SEC staff members, the OIG obtained and                Allegation of Abuse of Authority
                                reviewed approximately 134,000 e-mails for
                                the relevant period. The OIG also took                     On December 1, 2008, the OIG opened
                                sworn, on-the-record testimony of 25 SEC               an investigation as a result of a complaint
                                staff members who were involved in the                 from the subject of an SEC Enforcement in-
                                preparation and review of the report.                  vestigation and civil action. The complainant
                                    The OIG issued its report of investigation         alleged that two SEC attorneys from an SEC
                                to management on September 30, 2009. In                Regional Office abused their authority and
                                the report, we determined that there was no            demonstrated a bias against Native Americans
                                evidence that any SEC staff member provided            during the investigation and civil litigation
                                non-public information to the WSJ.                     against the complainant.

                                                                                            The SEC civil action was filed on Sep-
                                Allegation of Conflict of Interest by                  tember 13, 2006 in the U.S. District Court for
                                Senior SEC Official                                    the Northern District of California against the
                                                                                       complainant and a public company for which
                                    On May 9, 2008, after initially conducting         the complainant was the Chief Executive Of-
                                a preliminary inquiry, the OIG opened an in-           ficer. The SEC alleged that the defendants
                                vestigation into an anonymous allegation that          had made fraudulent statements in press re-
                                an SEC Senior Officer was involved in the              leases and SEC filings. The court granted the
                                decision to hire a company with whom he had            SEC summary judgment against the com-
                                a past relationship, even though the contractor        plainant and default judgment against his
                                was not the lowest bidder in the procurement           corporate co-defendant on June 30, 2008.
                                process. !                                             The court permanently enjoined the com-
                                                                                       plainant from future violations of the relevant
                                    The OIG reviewed relevant contract                 federal securities laws; barred him from acting
                                documents and interviewed the Senior Officer           as an officer or director of a public company
                                as well as several other witnesses. On April           or from participating in the offering of any
                                21, 2009, the OIG issued its report of investi-        penny stock; and ordered him to pay in dis-
                                gation to management summarizing its inves-            gorgement, pre-judgment interest and a civil
                                tigative work. The OIG investigation found             penalty. The corporate co-defendant was or-
                                the Senior Officer had no improper conflict of         dered to pay a civil penalty. The SEC also
                                interest with the company at issue. The OIG’s          filed an administrative action against the cor-
                                investigation revealed that the Senior Officer         porate co-defendant on September 13, 2006,
                                made the final decision to select the company          seeking revocation of its securities. The ad-
                                after the selection panel recommended a dif-           ministrative law judge granted the SEC sum-
                                ferent company, but there was no evidence              mary judgment in the matter on January 12,
                                that this decision was improper per se. The            2007.
                                OIG did find that better communication
                                could have been used with respect to the selec-

                                                                                  91
SEMIANNUAL REPORT TO CONGRESS       The OIG took on-the-record, sworn tes-                  Similarly, the OIG found that in the SEC’s
                                timony of the complainant and the two SEC               administrative action against the corporate co-
                                attorneys. In addition, the OIG reviewed                defendant, the complainant had also asserted
                                numerous documents related to the investiga-            generalized allegations of discrimination and
                                tion of, and litigation against, the complainant        selective prosecution. The administrative law
                                and his company, including: (1) the SEC’s               judge dismissed those allegations as well.
                                subpoenas, voluntary requests for documents,
                                and related correspondence from the com-                    The OIG issued its report of investigation
                                plainant, and (2) the judicial decisions grant-         to management on June 24, 2009. In its re-
                                ing the SEC summary judgment in the civil               port, the OIG concluded that it had found no
                                action against the complainant and his corpo-           evidence of discriminatory bias on the part of
                                rate co-defendant and the administrative pro-           the SEC staff in pursuing the actions against
                                ceeding against that corporate co-defendant.            the complainant and the corporate
                                                                                        co-defendant.
                                    During the OIG’s investigation, the com-
                                plainant offered no evidence to support his
                                vague and conclusory allegations of discrimi-           Other Inquiries Conducted
                                nation by the two SEC attorneys. In fact, he
                                conceded during his testimony that no one                   During this semiannual reporting period,
                                employed by the SEC had made any type of                the OIG also completed inquiries into numer-
                                racist comments or discriminatory comments              ous additional matters brought to its attention,
                                to him.                                                 the most significant of which are described
                                                                                        below.
                                    Moreover, the OIG found that two judges
                                had specifically rejected the complainant’s al-              The OIG conducted a preliminary inquiry
                                legations of discrimination by the SEC staff.           after information received in the course of
                                In the civil action against him, the complain-          another OIG investigation disclosed that an
                                ant raised an “unclean hands” defense based             Enforcement Assistant Director was sending
                                on the same allegations of discrimination               and receiving an excessive amount of personal
                                made to the OIG. The court rejected the                 e-mails. During its inquiry, the OIG con-
                                complainant’s defense, finding:                         ducted a thorough review of the Assistant Di-
                                                                                        rector’s e-mails for the months of March and
                                       [T]he complainant’s allegations                  April 2008 that had been obtained from the
                                   [of discrimination on the basis of                   OIT. The OIG’s review disclosed that the As-
                                   race] have been vague and                            sistant Director spent an excessive amount of
                                   conclusory. He has provided no                       time sending and reading personal e-mails us-
                                   specific facts or evidence to support                ing his SEC account during these two months.
                                   his allegations and he has pointed to                For example, during March and April 2008,
                                   no conduct on the part of the                        the Assistant Director received a total of ap-
                                   government that has resulted in any                  proximately 1,100 personal e-mails from two
                                   actual prejudice with respect to [the                individuals outside the SEC alone. During the
                                   complainant’s] defense in this action.               same two-month period, the Assistant Direc-
                                                                                        tor sent approximately 1,700 personal e-mails
                                                                                        to those two individuals. Virtually all of this
                                                                                        personal correspondence occurred during

                                                                                   92
SEMIANNUAL REPORT TO CONGRESS   business hours, and much of it was quite               quest denials for Internet websites classified by
                                lengthy. In addition, a large number of                the Internet filter as pornography in a nearly
                                e-mails exchanged between the Assistant Di-            two-month period. Many of these denials oc-
                                rector and various SEC employees during                curred during normal SEC work hours.
                                these two months did not relate to SEC busi-           Information provided by OIT also revealed
                                ness.                                                  additional instances in which the employee
                                                                                       successfully accessed numerous sexually-
                                    To determine whether the Assistant Direc-          explicit Internet websites. The OIG issued a
                                tor’s excessive use of his SEC computer dur-           memorandum report on June 5, 2009, and
                                ing business hours for personal correspon-             referred the matter to management for con-
                                dence was ongoing, the OIG requested and               sideration of disciplinary action. Based on the
                                obtained from OIT his e-mails for the month            OIG’s report, the employee was suspended for
                                of April 2009. A review of those e-mails indi-         three calendar days for use of government
                                cated that the Assistant Director’s practice of        resources for unauthorized purposes and mis-
                                using his SEC e-mail account during business           use of official time.
                                hours for excessive personal correspondence
                                continued.                                                 In the other matter involving an SEC em-
                                                                                       ployee, the information provided by OIT
                                    The OIG issued a memorandum report                 showed that an Enforcement Regional Office
                                on June 24, 2009, finding that the Assistant           Branch Chief had received 271 access request
                                Director’s excessive use of SEC e-mail for per-        denials for websites classified as pornography
                                sonal purposes violated the SEC’s policy and           in a nearly two-month period, many of which
                                rules on use of office equipment. The OIG              occurred during normal SEC work hours.
                                recommended that Enforcement consider tak-             The OIG issued a memorandum report on
                                ing appropriate disciplinary action against the        June 8, 2009, and referred the matter to
                                Assistant Director. Enforcement took no for-           management for consideration of disciplinary
                                mal disciplinary action against the Assistant          action. Management has proposed a one-day
                                Director, but issued a memorandum remind-              suspension of the attorney for attempting to
                                ing him of the computer resources training he          access pornographic websites using SEC
                                had completed and to limit his use of personal         computer resources.
                                e-mail to non-duty hours.
                                                                                           In three of the matters involving contract
                                    The OIG also conducted inquiries during            personnel, the information provided by OIT
                                the reporting period into the misuse of SEC            demonstrated that each of these individuals
                                computer resources to view pornography by              received between approximately 175 and 250
                                two SEC employees and four contract person-            access request denials for websites classified as
                                nel. In each of these matters, the OIG re-             pornography during periods of about two
                                viewed and analyzed the individuals’ Internet          months in length. Moreover, a review of the
                                access logs for the available time period, as          information provided by OIT revealed addi-
                                well as images found on the individuals’ com-          tional instances in which two of these contrac-
                                puter hard drives where applicable.                    tors successfully accessed sexually-explicit or
                                                                                       sexually-suggestive Internet websites from
                                    In one matter involving a Headquarters             their government-assigned computers. The
                                Enforcement employee, the evidence showed              OIG issued memorandum reports in all three
                                that the employee had received 406 access re-          matters, one dated June 15, 2009, and two

                                                                                  93
SEMIANNUAL REPORT TO CONGRESS   dated June 16, 2009. In response to the OIG’s           tion against the employees. In response to the
                                reports, one of these individuals, who had              OIG’s reports, management issued counseling
                                previously received a verbal warning for simi-          memoranda to both employees regarding their
                                lar conduct, was removed from the SEC con-              use of SEC computer equipment in a manner
                                tract, and the other two individuals were pro-          that may conflict with the SEC’s policies and
                                vided warning letters. In the fourth matter             in violation of ethical standards. These
                                involving a contractor employee, the                    memoranda cautioned the employees that
                                information provided by OIT revealed several            their failure to heed the counseling memo-
                                hundred access denial requests for Internet             randa could result in more severe disciplinary
                                websites classified as Internet pornography, all        action.
                                of which occurred over a ten-hour period.
                                The OIG referred the matter verbally to                     In another inquiry conducted during the
                                management for appropriate follow-up.                   reporting period, the OIG reviewed a com-
                                                                                        plaint that an OIT contract employee was al-
                                    The OIG also completed inquiries into               legedly misusing SEC resources and time by
                                whether two separate employees were using               conducting a private computer services busi-
                                SEC resources and official time to conduct              ness during working hours. During its review,
                                private businesses. Both of these matters               the OIG requested and obtained from OIT
                                arose out of information received in the con-           the contract employee’s e-mails for the months
                                text of an investigation conducted during a             of January to June 2009. The OIG found
                                prior reporting period. The OIG obtained                evidence that the employee violated SEC pol-
                                from OIT the e-mails for both employees for             icy and rules by using his SEC computer and
                                the months of January 2008 to March 2009,               time to manage his private business. Prior to
                                and conducted a thorough review of these                the completion of the OIG inquiry, the con-
                                e-mails. The OIG also reviewed documents                tracting firm suspended and subsequently re-
                                located on these employees’ computer hard               moved the employee for violations of internal
                                drives.                                                 company policies. The OIG issued a memo-
                                                                                        randum report to management on September
                                    In one matter, the OIG’s inquiry disclosed          30, 2009, setting forth the evidence that the
                                that the employee had violated Commission               contract employee had misused his SEC com-
                                policy and rules, as well as the Government-            puter and e-mail to conduct business matters
                                wide Standards of Ethical Conduct (Stan-                pertaining to his computer services business.
                                dards of Conduct), by using his SEC com-
                                puter and official time to manage rental prop-              The OIG also conducted an inquiry into
                                erty. The OIG also found that this employee             two OIG Hotline complaints received from
                                had used SEC e-mail in connection with a                anonymous sources that alleged that a senior
                                gun auction website in violation of SEC pol-            SEC Enforcement official (who has now left
                                icy. In the other matter, the OIG found evi-            the SEC) regularly received calls from former
                                dence that the employee had violated SEC                high-level Enforcement officials employed by
                                policy and rules, as well as the Standards of           investment banks or law firms to discuss inves-
                                Conduct, by using her SEC computer for her              tigative matters. While the receipt of these
                                personal makeup business. The OIG issued                calls would not necessarily violate any policies,
                                memorandum reports to management on July                rules or regulations, they could lead to im-
                                1, 2009 and August 5, 2009, respectively, rec-          proper external communications, favorable
                                ommending consideration of disciplinary ac-             treatment or disclosure of non-public

                                                                                   94
SEMIANNUAL REPORT TO CONGRESS   information. During its inquiry, the OIG ob-             further admitted that he had no evidence to
                                tained and reviewed the Enforcement official’s           support the assertion made in his complaint.
                                e-mails for a three-week period pertinent to             As a result, the OIG determined that no fur-
                                the allegations in the complaint. The OIG’s              ther action was necessary in this matter.
                                review of these e-mails found no evidence to
                                substantiate the complaints’ allegations that
                                the Enforcement official’s contacts with the             PENDING INVESTIGATIONS
                                former SEC officials violated any SEC policies
                                or regulations. Accordingly, the OIG con-                Allegation of Conflict of Interest in an
                                                                                         Enforcement Investigation
                                cluded that the complaints did not warrant
                                further investigation.                                        The OIG has opened an investigation at
                                                                                         the request of the Honorable Elijah E. Cum-
                                     The OIG reviewed allegations contained              mings, Member, U.S. House of Representa-
                                in a complaint received from an attorney that            tives, into the circumstances surrounding an
                                SEC Regional Office Enforcement staff had                Enforcement action brought against a promi-
                                failed to act appropriately in response to the           nent banking institution. The OIG intends to
                                attorney’s complaint that a competitor of his            investigate whether there was a conflict of in-
                                client was in violation of the Federal securities        terest in the decisions made by the
                                laws. During its review, the OIG interviewed             Enforcement staff regarding their investiga-
                                the Regional Office Branch Chief who had                 tion of, and recommendation of penalties
                                reviewed the attorney’s allegations and found            against, the banking institution because of a
                                them to be without merit. The OIG also re-               previous acquisition made by the financial in-
                                viewed several pertinent judicial decisions, as          stitution and the role the U.S. Government
                                well as a report by the Inspector General of             may have played in the encouragement of
                                the U.S. Export-Import Bank that had found               that acquisition. #
                                the attorney’s allegations to be without merit.
                                The OIG determined, based on its review,
                                that no further action was required in the               Allegations of Numerous Procurement
                                matter.                                                  Violations!

                                    The OIG also performed an inquiry into a                 During the reporting period, the OIG
                                complaint received from a consultant to a                opened an investigation as a result of
                                former hedge fund, alleging that the staff of            information received from anonymous com-
                                an SEC Regional Office had closed an investi-            plaints through the OIG’s Hotline. The com-
                                gation without recommending any                          plaints alleged that managers in an SEC
                                enforcement action due to improper political             headquarters office have been awarding con-
                                pressure. During its inquiry, the OIG re-                tracts to their friends.
                                viewed documentation pertaining to the
                                Enforcement investigation and took the sworn                  Additionally, the OIG received a com-
                                on-the-record testimony of the complainant.              plaint regarding an SEC manager in the same
                                During that testimony, the complainant re-               office for disclosing non-public procurement
                                tracted his allegation that the investigation was        information relating to contract bids to an
                                impacted by undue political influence, stating           SEC contractor. The SEC contractor then
                                that he had not intended to convey that im-              allegedly shared that information with an em-
                                pression in this complaint. The complainant              ployee of one of the contracting companies

                                                                                    95
SEMIANNUAL REPORT TO CONGRESS   involved in the solicitation. The OIG has                nous e-mails of former and current employ-
                                taken the sworn, on-the-record testimony of              ees, and various Enforcement documents con-
                                multiple witnesses and the subjects in this in-          cerning related investigations.
                                vestigation. In addition, the OIG has re-
                                viewed documentation regarding the contracts                 The OIG plans to issue its report of inves-
                                and is in the process of finalizing its findings         tigation prior to the end of the next semian-
                                in this investigation.                                   nual reporting period.



                                Allegations of Unauthorized Disclosure                   Allegations of Failure to Vigorously
                                by Former Employee and Improper                          Enforce Securities Laws
                                Enforcement Investigation
                                                                                              The OIG continued its investigation into a
                                     The OIG has completed its investigative             complaint alleging that Enforcement failed to
                                work in this matter and has begun writing a              properly and vigorously enforce the Federal
                                report of investigation into allegations made            securities laws in an investigation of a
                                in a published book, including an allegation             publicly-traded corporation, resulting in sub-
                                that a former SEC attorney may have taken                stantial losses to shareholders. The OIG re-
                                confidential investigative materials when he             quested and reviewed the entire investigative
                                left the SEC and provided those materials to a           file and numerous other relevant documents.
                                company for which he went to work as a lob-
                                byist. !It was also alleged in the book that the             Further, during the semiannual reporting
                                SEC settlement with the company was inade-               period, the OIG took the testimony of the
                                quate given the evidence of the company’s                Enforcement attorneys who handled the un-
                                fraud the author had provided to the SEC.                derlying investigation. The OIG plans to
                                                                                         complete its investigation during the next
                                     In this investigation, we took the testimony        reporting period.
                                and conducted interviews of a dozen former
                                and current SEC employees, including the
                                testimony of both examiners who conducted                Complaint of Investigative Misconduct
                                the relevant examination of the company at               by Various Enforcement Attorneys
                                issue. We took the testimony of the staff at-
                                torneys responsible for related investigations,              The OIG is continuing to investigate a
                                conducted telephone interviews with the for-             complaint received from counsel for a defen-
                                mer Enforcement attorney who is alleged to               dant in an SEC Enforcement action, alleging
                                have engaged in wrongdoing, and took testi-              numerous instances of misconduct by
                                mony of Senior Officers with responsibilities            Enforcement attorneys during the course of
                                related to the examination and investigation of          the investigation. The OIG obtained thou-
                                the company at issue. In addition, we took the           sands of e-mails during the reporting period
                                testimony of the book’s author and his counsel           and carefully reviewed these e-mails for
                                about allegations related to the SEC’s action            information relevant to the investigation. The
                                against the company outlined throughout the              OIG also reviewed substantial documents re-
                                book, and obtained and reviewed the several              lating to the allegations in the complaint.
                                detailed complaints the author had submitted
                                to the SEC. We also obtained and reviewed                   Further, the OIG scheduled testimony for
                                the relevant examination workpapers, volumi-             numerous individuals with information perti-

                                                                                    96
SEMIANNUAL REPORT TO CONGRESS   nent to the investigation for shortly after the          an SEC Headquarters attorney had been sus-
                                reporting period ended, and plans to take ad-            pended, but that this individual continues to
                                ditional testimony within the next few weeks.            work as an SEC attorney. The OIG has ob-
                                The OIG intends to finalize its investigation            tained pertinent information from state court
                                and issue a report during the next semiannual            officials regarding the attorney’s bar status. In
                                reporting period.                                        addition, the OIG has obtained e-mails for the
                                                                                         relevant time period. The OIG plans to take
                                                                                         testimony of relevant parties and complete
                                Allegation of Abusive Behavior and                       this investigation during the next reporting
                                Other Improper Conduct                                   period.

                                     During the reporting period, the OIG
                                continued its investigation into allegations that
                                                                                         Allegations of Conflict of Interest and
                                an SEC manager engaged in a pattern of un-               Investigative Misconduct
                                professional and disruptive behavior while
                                conducting SEC inspections of outside entities                The OIG is continuing its investigation
                                and that he provided unethical instructions to           into allegations that a supervisory SEC
                                his staff. During the reporting period, the              Enforcement attorney participated in an inves-
                                OIG interviewed numerous additional staff                tigation notwithstanding a personal conflict of
                                members, and took the sworn, on-the-record               interest that required his recusal from the in-
                                testimony of several witnesses. The OIG                  vestigation and that various misconduct oc-
                                plans to conduct a few additional interviews             curred during the course of the investigation
                                and complete its investigatory work prior to             and subsequent litigation. During this semi-
                                the end of the next semiannual reporting pe-             annual reporting period, the OIG continued
                                riod.                                                    to search and review e-mails of the attorneys
                                                                                         who worked on the matter for the relevant
                                                                                         time period. The OIG also obtained and re-
                                Allegation of Procurement Violations                     viewed additional materials provided by the
                                                                                         complainant. In addition, the OIG conducted
                                     The OIG opened an investigation into al-            interviews of three former Enforcement at-
                                legations that a senior management official              torneys who had supervisory responsibility
                                awarded a contract to a company without fol-             over the matter. The OIG plans to take the
                                lowing proper procedures and, as a result, the           testimony of the subjects and complete the
                                system purchased from that company does not              investigation during the next reporting period.
                                function as intended.!!The OIG has taken the
                                sworn testimony of the complainant and ob-
                                tained relevant documents. !The OIG plans to             Complaint Concerning Unauthorized
                                take the testimony of the senior management              Disclosure of Non-Public Information
                                official and others related to this matter.              Obtained from a Commission
                                                                                         Database

                                                                                              The OIG continued its investigation into a
                                Allegation of Failure to Maintain Active                 complaint that two Regional Office SEC
                                Bar Membership
                                                                                         Enforcement attorneys repeatedly, and in vio-
                                    The OIG is conducting an investigation               lation of agency policy, disclosed non-public
                                into a complaint that the state bar license of           information about SEC Enforcement

                                                                                    97
SEMIANNUAL REPORT TO CONGRESS   investigations obtained from an internal SEC            approval, of a developmental drug. The in-
                                database. The information in question was               vestor also has alleged that the SEC failed to
                                allegedly disclosed to a corrupt FBI agent and          investigate a recent bear raid on the stock of
                                short seller, who were subsequently tried and           the company that developed the drug, causing
                                convicted of several criminal violations, in-           a severe plunge in the stock price. The OIG
                                cluding fraud, theft, racketeering, and con-            has reviewed several hundred pages of docu-
                                spiracy in connection with a stock short selling        ments, including numerous e-mails and at-
                                operation.                                              tachments provided by the complainant. The
                                                                                        OIG expects to complete its investigation and
                                    During this reporting period, the OIG               issue a report of investigation in the next re-
                                completed all the testimony in this investiga-          porting period.
                                tion and finalized its review of the record of
                                the underlying proceeding and thousands of
                                pages of additional documentary evidence.!              Allegation of Negligence in the
                                Having completed its investigatory work, the            Conduct of an Enforcement
                                OIG has drafted a comprehensive report of               Investigation
                                investigation summarizing its findings and the              During this reporting period, the OIG
                                results of its investigatory analysis. The OIG          continued its investigation into a complaint
                                plans to finalize the report of investigation           that Enforcement committed acts of negli-
                                and issue it shortly.!                                  gence in the conduct of an insider trading in-
                                                                                        vestigation. The complaint was based upon
                                                                                        recently-discovered information that purports
                                Complaint Concerning Obstruction of                     to demonstrate that Enforcement had access
                                Justice
                                                                                        to specific evidence that insider trading had
                                     The OIG opened this investigation after            occurred prior to Enforcement closing its in-
                                receiving information that an SEC employee              vestigation. The OIG has reviewed docu-
                                may have offered to obstruct an SEC investi-            ments provided by the complainant, as well as
                                gation. The OIG obtained and reviewed rele-             additional documents in its possession. The
                                vant documents from the SEC and relevant                OIG took the sworn, on-the-record testimony
                                outside entities, and worked with other federal         of the complainant and plans to take addi-
                                law enforcement agencies in the course of this          tional testimony and continue its investigation
                                investigation. The source of the information            of the allegations.
                                has recanted his story. The OIG has com-
                                pleted its investigative work and plans to issue        Whistleblower Allegation of
                                its report of investigation prior to the end of         Falsification of Contract Documents
                                the next semiannual reporting period.
                                                                                             The OIG continued its joint investigation
                                                                                        with another Federal agency’s Office of
                                Allegations of Failure to Investigate                   Inspector General and a U.S. Attorney’s Of-
                                                                                        fice (USAO) into allegations made by a whis-
                                   The OIG has opened an investigation into             tleblower that a contractor manipulated data
                                complaints from an investor alleging that the           in order to increase the millions of dollars of
                                SEC failed to investigate instances of market           award fees it had obtained from the SEC over
                                manipulation and other misconduct in con-               a period of several years.
                                nection with the review, and eventual non-
                                                                                   98
SEMIANNUAL REPORT TO CONGRESS        During this reporting period, the OIG             pany’s stock. During this reporting period, the
                                worked extensively with the other Federal Of-          OIG took the sworn testimony of the staff
                                fice of Inspector General to further the inves-        attorney who worked on the matter and re-
                                tigative efforts in this matter. We developed a        viewed numerous relevant documents. The
                                detailed outline of the investigative work             OIG has completed its investigative work and
                                completed to date, including the extensive e-          plans to issue its report of investigation prior
                                mail review and witness interviews, to assist          to the end of the next semiannual reporting
                                the USAO in its efforts in the matter. We also         period.
                                conducted further interviews of witnesses.

                                    After the OIG had numerous discussions             Allegation of Misuse of Resources and
                                and consultations with the USAO about the              Official Time
                                additional investigative work, the USAO, after
                                                                                            During the reporting period, the OIG
                                weighing the evidence in the case, decided to
                                                                                       opened an investigation into a complaint that
                                decline prosecution of the matter. The OIG
                                                                                       an SEC employee had been using SEC e-mail
                                will continue to investigate issues within its
                                                                                       resources and official time to run a nonprofit
                                jurisdiction, including whether SEC employ-
                                                                                       business. The OIG obtained and reviewed
                                ees adequately supervised the contract em-
                                                                                       the employee’s e-mails for an eleven-month
                                ployees and oversaw the contract.
                                                                                       period. The OIG took the sworn, on-the-
                                                                                       record testimony of a witness and the subject
                                                                                       in this investigation. The OIG has completed
                                Allegation of Retaliatory Investigation
                                                                                       its investigative work and plans to issue its re-
                                    The OIG continued its investigation of an          port of investigation prior to the end of the
                                allegation that SEC staff engaged in retalia-          next semiannual reporting period.
                                tion against a company after it publicly com-
                                plained about naked short selling in the com-




                                                                                  99
100
U.S. Securities and Exchange Commission

                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                                     CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          REVIEW OF LEGISLATION
                                          AND REGULATIONS
                                              During the reporting period, the OIG re-           Information Act (FOIA), 5 U.S.C. § 552, as
                                          viewed legislation and proposed and final              amended by Pub. L. No. 104-231, the OIG
                                          rules and regulations relating to the programs         carefully reviewed and analyzed the provisions
                                          and operations of the SEC, pursuant to Sec-            of the FOIA, as well as Executive Order
                                          tion 4(a)(2) of the Inspector General Act.             13392, Improving Agency Disclosure of
                                                                                                 Information, and the Openness Promotes Ef-
                                              In particular, the OIG reviewed statutes,          fectiveness in our National Government Act
                                          rules, regulations and requirements, and their         of 2007 (OPEN Government Act), Pub. L.
                                          impact on Commission programs and opera-               No. 110-175. Among other things, the OIG’s
                                          tions, within the context of audits, evalua-           review recommended that the agency address
                                          tions, and reviews conducted during the pe-            its existing practices to ensure compliance
                                          riod. For example, in the review performed of          with the OPEN Government Act.
                                          the SEC’s role regarding and oversight of Na-               During the period, the OIG also reviewed,
                                          tionally Recognized Statistical Rating Organi-         tracked and provided comments and views on
                                          zations (NRSROs), the OIG comprehensively              pending legislation that would impact the
                                          examined the provisions of the Credit Rating           SEC. This legislation included H.R. 682, the
                                          Agency Reform Act of 2006, Pub. L. No.                 Stop Trading on Congressional Knowledge
                                          109-291, and noted several areas in which ad-          Act, and H.R. 2798, the Support Investment
                                          ditional legislative authority might be sought.        Protection for Customers Reform Act of
                                          During this review, the OIG also closely ana-          2009. The IG testified at a hearing on H.R.
                                          lyzed numerous proposed and final rules per-           682 on July 13, 2009, before the Subcommit-
                                          taining to the SEC’s oversight of NRSROs               tee on Oversight and Investigations of the
                                          and identified several policy issues that could        House of Representatives Committee on Fi-
                                          be addressed through additional rulemaking.            nancial Services (see Appendix B). In addi-
                                                                                                 tion, on June 30, 2009, the IG provided a let-
                                             In connection with its review of the                ter to the Honorable Paul E. Kanjorski (D-
                                          agency’s compliance with the Freedom of                Pennsylvania), Chairman of the Subcommit-

                                                                                           101
SEMIANNUAL REPORT TO CONGRESS   tee on Capital Markets, Insurance, and Gov-           Commodity Markets Oversight and Account-
                                ernment Sponsored Enterprises of the House            ability Act, and a similar Senate bill, S. 1354;
                                of Representatives Committee on Financial             S. 1508, the Improper Payments Elimination
                                Services that contained several suggestions for       and Recovery Act of 2009; S. 976, a bill
                                possible legislative revisions arising out of the     amending provisions of the Paperwork Reduc-
                                OIG’s investigation of the SEC’s failure to           tion Act, 44 U.S.C. § 3518(c); and proposed
                                uncover Bernard Madoff ’s Ponzi scheme.               technical and conforming amendments to the
                                Additional information concerning these legis-        Inspector General Reform Act of 2008, Pub.
                                lative suggestions is contained in the section of     L. No. 110-409. On July 7, 2009, the SEC
                                this Report on Congressional Testimony, Brief-        IG, jointly with the IGs of the Commodity
                                ings and Requests.                                    Futures Trading Commission, the National
                                                                                      Credit Union Administration, the Pension
                                    In coordination with the Legislation              Benefit Guaranty Corporation and the Board
                                Committee of the Council of the Inspectors            of Governors of the Federal Reserve System,
                                General on Integrity and Efficiency and the           provided letters to Senator Joseph I. Lieber-
                                IGs from several other Federal financial regu-        man (D-Connecticut), Chairman, and Senator
                                latory agencies, the OIG closely reviewed,            Susan M. Collins (R-Maine), Ranking Mem-
                                tracked and provided views on various legisla-        ber, of the Senate Committee on Homeland
                                tion of interest to the IG community and, in          Security and Government Affairs, setting forth
                                particular, the financial regulatory agency IGs.      their views on S. 1354, which, like H.R. 885,
                                This legislation included, among other provi-         would require Presidential appointments and
                                sions, H.R. 885, the Improved Financial and           Senate confirmations for these IGs.




                                                                                    102
U.S. Securities and Exchange Commission

                                                              SEMIANNUAL
                                                              REPORT TO
                                                              CONGRESS
                                             Office of
                                            Inspector
                                             General




                                                         STATUS OF RECOMMENDATIONS WITH
                                                             NO MANAGEMENT DECISIONS
                                           Management decisions have been made on all audit reports issued
                                                   before the beginning of this reporting period.


                                                          REVISED MANAGEMENT DECISIONS

                                                No management decisions were revised during the period.


                                            AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS

                                          The Office of Inspector General agrees with all significant management
                                                       decisions regarding audit recommendations.



                                                 INSTANCES WHERE INFORMATION WAS REFUSED

                                                         During this reporting period, there were no
                                                         instances where information was refused.




                                                                             103
104
SEMIANNUAL REPORT TO CONGRESS
                                Table 1
                                List of Reports: Audits and Evaluations


                                Audit / Evalua-
                                                                      Title                      Date Issued
                                 tion Number
                                                   The SEC's Role Regarding and Oversight of
                                     458            Nationally Recognized Statistical Rating     Aug 27, 2009
                                                           Organizations (NRSROs)
                                                    Review of the SEC's Compliance with the
                                     465                                                         Sep 25, 2009
                                                          Freedom of Information Act

                                                    Program Improvements Needed Within the
                                     467                                                         Sep 29, 2009
                                                         SEC's Division of Enforcement

                                                  Review and Analysis of OCIE Examinations of
                                     468                                                         Sep 29, 2009
                                                  Bernard L. Madoff Investment Securities, LLC

                                                  Management Alert - Microsoft Premier Support
                                     469                                                         Aug 10, 2009
                                                              Services Contract
                                                        Audit of the Office of Acquisitions'
                                     471             Procurement and Contract Management         Sep 25, 2009
                                                                     Functions




                                                                      105
106
                                Table 2
SEMIANNUAL REPORT TO CONGRESS


                                Reports Issued with Costs Questioned
                                or Funds Put to Better Use
                                (including disallowed costs)

                                                                                                 Number of
                                                                                                              Value
                                                                                                  Reports
                                A. REPORTS ISSUED PRIOR TO THIS PERIOD

                                  For which no management decision had been made on any issue
                                     at the commencement of the reporting period                     2       $391,550.00
                                  For which some decisions had been made on some issues at the
                                     commencement of the reporting period                            1       $129,336.00


                                B. REPORTS ISSUED DURING THIS PERIOD                                 1        $25,000.00



                                TOTAL OF CATEGORIES A AND B                                          4       $545,886.00


                                C. For which final management decisions were made during this
                                        period                                                       0             $0.00


                                D. For which no management decisions were made during this
                                        period                                                       4       $545,886.00


                                E. For which management decisions were made on some issues
                                                                                                     0             $0.00
                                       during this period

                                TOTAL OF CATEGORIES C, D AND E                                       4       $545,886.00




                                                                                107
108
SEMIANNUAL REPORT TO CONGRESS
                                Table 3
                                Reports With Recommendations on
                                Which Corrective Action Has Not Been
                                Completed
                                               RECOMMENDATIONS OPEN 180 DAYS OR MORE


                                   Audit/Inspection/           Issue Date            Summary of Recommendation
                                 Evaluation # and Title

                                365 - IT Capital Investment    03/29/2004    Publish a charter for the Information Officers
                                Decision-Making Follow-Up                    Council.


                                412 - Oversight of the         09/28/2006    Review the Public Company Accounting Oversight
                                PCAOB                                        Board's (PCAOB) disaster contingency plan.


                                                                             Develop procedures for several PCAOB oversight
                                                                             issues.


                                421 - Investment Company       09/25/2007    Develop outcome-based performance indicators for
                                Disclosure Initiatives                       disclosure initiatives.


                                428 - Electronic Documents     07/25/2007    Issue program guidance.
                                Program


                                                                             Develop written procedures for loading data work
                                                                             from the regional offices.


                                                                             Consider a larger forensics lab.



                                430 - Contract Ratifications   09/25/2007    Reevaluate procurement in the regional offices.



                                                                             Develop procurement procedures and provide
                                                                             training for the regional offices.


                                433 - Corporation Finance      09/30/2008    Develop a centralized tracking system for Divisions
                                Referrals                                    of Enforcement and Corporation Finance (CF) staff
                                                                             regarding non-delinquent filer referrals.



                                                                            109
                                   Audit/Inspection/         Issue Date           Summary of Recommendation
SEMIANNUAL REPORT TO CONGRESS

                                 Evaluation # and Title

                                                                          Enhance CF's gatekeeper role once outcome
                                                                          information becomes more available.


                                437 - Security               10/22/2007   Install cameras in Station Place parking garage.
                                Enhancements in Station
                                Place Parking Garage

                                438 - SRO Rule Filing        03/31/2008   Enhance the Self Regulatory Organization Rule
                                Process                                   Tracking System by identifying comment letters,
                                                                          improving speed, retaining proposed rule changes
                                                                          in inbox, and ensuring upload of all comment
                                                                          letters.
                                439 - Student Loan Program   03/27/2008   Undertake actions to delegate in writing approving
                                                                          waivers, amend Form 2497, and issue guidance for
                                                                          approval requirements of Student Loan Program
                                                                          (SLP) awards.
                                                                          Review Office of Personnel Management regulation
                                                                          to ensure proper individual approves SLP awards.


                                                                          Ensure SLP files contain appropriate
                                                                          documentation of repayments by employees not
                                                                          completing service agreements.

                                                                          Ensure documentation in SLP files correctly
                                                                          indicates who prepared/reviewed the payments.


                                                                          Implement methods to mitigate the risk of
                                                                          fraudulent documentation submitted by employees.


                                                                          Ensure the reliability of management records
                                                                          regarding former employees.


                                                                          Review the reliability of management records
                                                                          involving former employees.
                                                                          Implement a separation of duties in the review,
                                                                          processing and approval of SLP awards.


                                                                          Consult with the Department of Interior to ensure
                                                                          that monies owed to the SEC are collected,
                                                                          documented and recorded in a timely manner.

                                                                          Conduct a thorough review of the employee
                                                                          clearance process to initiate improvements.




                                                                           110
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/            Issue Date            Summary of Recommendation
                                 Evaluation # and Title

                                                                              Implement recommendations of contractor retained
                                                                              by the Office of Financial Management to increase
                                                                              the likelihood of collection of employee debts
                                                                              relating to the SLP or, if not feasible, prepare a
                                                                              report explaining why the recommendations were
                                                                              not implemented.
                                                                              In consultation with the Union, provide supervisors
                                                                              with guidance on preparing substantial justification
                                                                              memoranda.

                                                                              Return to supervisors justification memoranda that
                                                                              lack substantiation of the criteria.


                                                                              Prepare document regarding the required criteria
                                                                              for justification memoranda for the 2008 Open
                                                                              Season.

                                                                              Implement an automated process for monitoring
                                                                              lifetime awards before the 2009 Open Season.


                                                                              Develop a plan to obtain data and a methodology
                                                                              to analyze and record data to comply with
                                                                              Collective Bargaining Agreement requirements.

                                                                              In consultation with the Union, develop a detailed
                                                                              distribution plan.


                                442 - Enterprise Architecture   03/31/2008    Develop Enterprise Architecture (EA) metrics to
                                Assessment                                    assess or track SEC’s performance in
                                                                              implementing, and tracking performance of, SEC
                                                                              Federal Enterprise Architecture (FEA) program.
                                                                              Through the Information Technology Capital
                                                                              Planning and Investment Control Board, require
                                                                              periodic reports on EA progress overall, including
                                                                              specifically how EA can help to make strategic
                                                                              purchasing decisions.
                                                                              Create subcommittees on Data Management,
                                                                              Technology Standards, IT Strategy and other areas
                                                                              of focus.

                                                                              Involve EA in all technology implementations,
                                                                              especially ones that are “fast tracked.”


                                                                              Through high-level policy makers, establish a
                                                                              process that ensures participation from the EA
                                                                              team prior to approving IT initiatives.




                                                                             111
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/        Issue Date           Summary of Recommendation
                                 Evaluation # and Title

                                446A - SEC's Oversight of   09/25/2008   Require compliance with existing rule requiring
                                Bear Stearns and Related                 external auditors to review the CSE firms' risk
                                Entities: CSE Program                    management control systems, or seek Commission
                                                                         approval for deviation from this requirement.
                                                                         Develop internal guidelines for timely CF filing
                                                                         reviews, and track and monitor compliance with
                                                                         these guidelines.

                                                                         Create a Task Force led by the Office of Risk
                                                                         Assessment to determine the costs and benefits of
                                                                         supervising on a consolidated basis large firms that
                                                                         hold significant amounts of customer funds and
                                                                         have unregulated entities.
                                                                         Establish a policy outlining when firms are
                                                                         expected to respond substantively to issues raised
                                                                         in CF comment letters, and track and monitor
                                                                         compliance with this policy.
                                446B - SEC's Oversight of   09/25/2008   Establish a timeframe to update and finalize rules
                                Bear Stearns and Related                 17h-1T and 17h-2T within six months.
                                Entities: BD Risk
                                Assessment Program
                                                                         Ensure the BDRA system includes financial
                                                                         information, staff notes and other written
                                                                         documentation and is used to generate
                                                                         management reports.
                                                                         Resolve technological problems with the BDRA
                                                                         system.


                                447- Premium Travel         09/29/2008   Revise current policies and procedures to ensure
                                                                         that they are comprehensive and current.


                                                                         Enhance travel computer system to produce travel
                                                                         upgrade data and implement procedures to ensure
                                                                         all upgrades are approved prior to travel.

                                448 - 2008 Sensitive        03/27/2009   Provide a detailed justification for senior officer
                                Payments                                 merit pay increases of $20,000 or more, or
                                                                         bonuses of $20,000 or more.

                                                                         Send written reminder to senior executives that
                                                                         time and attendance should be certified by a senior
                                                                         official of equal or higher grade.

                                                                         Revise policies and procedures to inform travelers
                                                                         of proper currency conversion rates.




                                                                           112
SEMIANNUAL REPORT TO CONGRESS
                                   Audit/Inspection/         Issue Date            Summary of Recommendation
                                 Evaluation # and Title

                                                                           Keep an account of prohibited gifts that are
                                                                           returned of which the Ethics Office has knowledge.


                                450 - Practices Related to   03/08/2009    Develop written in-depth triage analysis steps for
                                Naked Short Selling                        naked short selling complaints.
                                Complaints and Referrals

                                                                           Revise written guidance to Enforcement Complaint
                                                                           Center (ECC) staff to ensure proper scrutiny and
                                                                           referral of naked short selling complaints.

                                                                           Add naked short selling to categories of complaints
                                                                           on public webpage and develop tailored online
                                                                           complaint form.

                                                                           Develop uniform written policies and procedures for
                                                                           the Complaints, Tips and Referrals (CTR) program
                                                                           at headquarters and the regional offices.

                                                                           Designate office or individual at headquarters to
                                                                           provide nationwide oversight for the CTR program.


                                                                           Require the Office of Internet Enforcement (OIE) to
                                                                           perform necessary follow-up to ensure that all CTR
                                                                           packages contain complete documentation and are
                                                                           entered into the CTR database.
                                                                           Require regional office senior officials to perform
                                                                           monthly review of CTRs.


                                                                           Improve analytical capabilities of the ECC's e-mail
                                                                           complaint system.


                                                                           Improve CTR database to include additional
                                                                           information about and better track complaints.


                                                                           Ensure OIE updates and resumes using previous
                                                                           complaint referral tracking system or develops a
                                                                           new system.

                                451- 2008 Federal            09/29/2008    Address certain requirements, including modifying
                                Information Security                       all contracts related to common security settings to
                                Management Act (FISMA)                     include the new Federal Acquisition Regulation
                                Executive Summary Report                   2007-004 language.
                                452 - Enforcement's          02/03/2009    Ensure staff comply with procedures and consider
                                Disgorgement Waivers                       payment plans and partial waivers.




                                                                          113
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/           Issue Date           Summary of Recommendation
                                 Evaluation # and Title

                                                                            Ensure the review of financial information for
                                                                            accuracy prior to recommending a disgorgement
                                                                            waiver.

                                                                            Clarify policies and procedures regarding when
                                                                            supporting documentation should be obtained and
                                                                            retained.

                                                                            Ensure sworn financial statements from
                                                                            defendants/respondents who request disgorgement
                                                                            waivers are retained, signed and notarized.

                                                                            Ensure checklist for disgorgement waiver cases is
                                                                            retained and signed by supervisor.


                                                                            Ensure documentation is retained in case files and
                                                                            compliance with procedures for obtaining tax
                                                                            returns.

                                                                            Ensure public database searches are performed for
                                                                            all defendants/respondents.


                                                                            Ensure staff attorneys receive periodic formal
                                                                            training in disgorgement waiver process.


                                454 - The Division of          09/16/2008   Revise policy on the selection of receivers and
                                Enforcement's Draft Policies                independent consultants to address actual and
                                and Procedures Governing                    apparent conflicts of interest and provide guidance
                                the Selection of Receivers,                 to staff.
                                Fund Administrators,
                                Independent Distribution
                                Consultants, Tax
                                Administrators and
                                Independent Consultants
                                                                            Determine whether any time limit should be placed
                                                                            on a request for conflict of interest or background
                                                                            information, or whether that information should be
                                                                            requested for more than five years.
                                                                            Include in the attachment to the policy the
                                                                            applicant's certification that the information
                                                                            provided is complete and truthful and that the
                                                                            applicant understands the consequences for
                                                                            providing false information.




                                                                            114
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/          Issue Date                 Summary of Recommendation
                                 Evaluation # and Title

                                455- Attorney Annual          09/09/2008         Require all SEC attorneys to certify annually that
                                Certification of Bar                             they are active bar members and to acknowledge
                                Membership                                       that their failure to maintain active bar membership
                                                                                 may result in referral to the appropriate authorities
                                                                                 and/or disciplinary action.
                                456 - Public Transportation   03/27/2009         Conduct periodic training and issue reminders to
                                Benefit Program                                  Administrative Officers to verify participants'
                                                                                 eligibility and commuting costs.

                                                                                 Conduct internal review periodically of program
                                                                                 participants to ensure proper reduction of benefits.


                                                                                 Implement additional management controls over
                                                                                 regional office program operations.


                                459 - Regulation D            03/31/2009         Develop process to assess and ensure compliance
                                Exemption Process                                with Regulation D.


                                                                                 Establish procedures to review Form D information
                                                                                 in the aggregate and develop management reports.


                                                                                 Take appropriate action when issuers fail to file
                                                                                 Form D.


                                                                                 Reintroduce early intervention program and use it
                                                                                 to assist in enforcement of Regulation D.


                                                                                 Develop criteria for referral of potential Regulation
                                                                                 D abuses and improve communication and
                                                                                 coordination with the Division of Enforcement.

                                                                                 Take efforts to finalize proposed rule.



                                                                                 Raise with Commission the option of making Filing
                                                                                 Form D a condition for claiming Regulation D
                                                                                 Exemptions.

                                                                                 Discuss enhancements to and work to revise Form
                                                                                 D.


                                                                                 Coordinate with staff who review registration
                                                                                 statements, 10-Ks and 8-Ks and follow up with
                                                                                 delinquent Form D filers.



                                                                           115
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/            Issue Date             Summary of Recommendation
                                 Evaluation # and Title

                                                                               Issue formal, public guidance on how to request a
                                                                               waiver of disqualification under Rule 505.


                                                                               Evaluate Electronic Data Gathering And Retrieval
                                                                               (EDGAR) authentication process and make
                                                                               necessary changes to further streamline or simplify
                                                                               the process.
                                                                               Analyze how other agencies have implemented
                                                                               authentication processes and implement any
                                                                               appropriate procedures.

                                                                               Work with the North American Securities
                                                                               Administrators' Association (NASAA) to finalize
                                                                               memorandum of understanding and recommend
                                                                               Commission approval.
                                                                               Timely coordinate with NASAA staff to develop
                                                                               system to enable issuers to file Form D
                                                                               electronically with the states.

                                                                               Determine further coordination with NASAA staff
                                                                               and contact state regulatory staff when discussing
                                                                               and drafting proposed Regulation D rule changes.

                                461 - The Commission's          03/31/2009     Conduct another survey of staff after the restacking
                                Restacking Project                             process has been completed.


                                                                               Conduct appropriate analysis and complete and
                                                                               submit an Exhibit 300 to the Office of Management
                                                                               and Budget (OMB).

                                                                               Develop and adopt policies and procedures for
                                                                               investments in space consistent with OMB
                                                                               guidance.

                                464 - Notification to the OIG   01/23/2009     Provide the OIG with three business days notice
                                of Decisions on Disciplinary                   prior to decisions on disciplinary action.
                                Actions and Settlement
                                Agreements Involving
                                Subjects of OIG
                                Investigations
                                                                               Provide the OIG with five business days notice
                                                                               prior to executing settlement agreements.




                                                                             116
SEMIANNUAL REPORT TO CONGRESS   Table 4
                                Summary of Investigative Activity


                                                                 CASES                     NUMBER


                                      Cases Open as of 3/31/09                               21
                                      Cases Opened during 3/31/09 - 9/30/09                  9
                                      Cases Closed during 3/31/09 - 9/30/09                  13
                                      Total Open Cases as of 9/30/09                         17
                                      Referrals to Department of Justice for Prosecution     5
                                      Prosecutions                                           1
                                      Convictions                                            0
                                      Referrals to Agency for Disciplinary Action            7



                                                      PRELIMINARY INQUIRIES                NUMBER


                                      Inquiries Open as of 3/31/09                           49
                                      Inquiries Opened during 3/31/09 - 9/30/09              49
                                      Inquiries Closed during 3/31/09 - 9/30/09              20
                                      Total Open Inquiries as of 9/30/09                     78
                                      Referrals to Agency for Disciplinary Action            8



                                                       DISCIPLINARY ACTIONS                NUMBER


                                      Removals (Including Resignations)                      2
                                      Suspensions                                            0
                                      Reprimands                                             1
                                      Warnings/Other Actions                                 5




                                                                     117
118
SEMIANNUAL REPORT TO CONGRESS   Table 5
                                Summary of Complaint Activity

                                                                     DESCRIPTION              NUMBER


                                 Complaints Pending Disposition at Beginning of Period          18

                                 Hotline Complaints Received                                   162

                                 Other Complaints Received                                     104

                                 Total Complaints Received                                     266

                                 Complaints on which a Decision was Made                       246

                                 Complaints Awaiting Disposition at End of Period               38



                                 Disposition of Complaints During the Period

                                 Complaints Resulting in Investigations                         8

                                 Complaints Resulting in Inquiries                              49

                                 Complaints Referred to OIG Office of Audits                    4

                                 Complaints Referred to Other Agency Components                106

                                 Complaints Referred to Other Agencies                          11

                                 Complaints Included in Ongoing Investigations or Inquiries     18

                                 Response Sent/Additional Information Requested                 59

                                 No Action Needed                                               6




                                                                           119
120
SEMIANNUAL REPORT TO CONGRESS   Table 6
                                References to Reporting Requirements
                                of the Inspector General Act

                                 The Inspector General Act of 1978, as amended, specifies reporting requirements for
                                 semiannual reports to Congress. The requirements are listed below and indexed to the
                                 applicable pages.



                                                      INSPECTOR GENERAL ACT REPORTING REQUIREMENT                       PAGES
                                  Section 4(a)(2)   Review of Legislation and Regulations                               101-102

                                  Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                      13-21,
                                                                                                                        24-51,
                                                                                                                        56-95
                                  Section 5(a)(2)   Recommendations for Corrective Action                               19-21,
                                                                                                                        24-51,
                                                                                                                        56-95
                                  Section 5(a)(3)   Prior Recommendations Not Yet Implemented                           109-116

                                  Section 5(a)(4)   Matters Referred to Prosecutive Authorities                         56-95,
                                                                                                                         117
                                  Section 5(a)(5)   Summary of Instances Where Information Was Unreasonably              103
                                                    Refused or Not Provided
                                  Section 5(a)(6)   List of OIG Audit and Evaluation Reports Issued During the Period    105

                                  Section 5(a)(7)   Summary of Significant Reports Issued During the Period             24-51,
                                                                                                                        56-95
                                  Section 5(a)(8)   Statistical Table on Management Decisions with Respect to            107
                                                    Questioned Costs
                                  Section 5(a)(9)   Statistical Table on Management Decisions on Recommendations         107
                                                    That Funds Be Put To Better Use
                                  Section 5(a)(10) Summary of Each Audit, Inspection or Evaluation Report Over Six       103
                                                   Months Old for Which No Management Decision Has Been Made
                                  Section 5(a)(11) Significant Revised Management Decisions                              103

                                  Section 5(a)(12) Significant Management Decisions with Which the Inspector             103
                                                   General Disagreed




                                                                           121
122
U.S. Securities and Exchange Commission

                                                                                SEMIANNUAL
                                                                                REPORT TO
                                                   Office of
                                                  Inspector
                                                   General
                                                                                CONGRESS
                                          APPENDIX A:!...............................................................................................................125
                                                   Testimony of H. David Kotz, Inspector General of the Securities and
                                                   Exchange Commission, Before the United States Senate
                                                   Committee on Banking, Housing and Urban Affairs

                                          APPENDIX B:!...............................................................................................................149
                                                   Testimony of H. David Kotz, Inspector General of the Securities and
                                                   Exchange Commission, Before the United States House of
                                                   Representatives Subcommittee on Oversight and Investigations,
                                                   Committee on Financial Services




                                                                                                   123
                                           APPENDIX A




      Written Testimony of H. David Kotz
            Inspector General of the
      Securities and Exchange Commission




             Before the U.S. Senate
Committee on Banking, Housing and Urban Affairs

         Thursday, September 10, 2009
                  2:30 p.m.
                                       Introduction

       Good afternoon. Thank you for the opportunity to testify today before this

Committee on the subject of “Oversight of the SEC’s Failure to Identify the Bernard L.

Madoff Ponzi Scheme and How to Improve SEC Performance” as the Inspector General

of the Securities and Exchange Commission (SEC). I appreciate the interest of the

Chairman, as well as the other members of the Committee, in the SEC and the Office of

Inspector General (OIG). In my testimony today, I am representing the OIG, and the

views that I express are those of my Office, and do not necessarily reflect the views of the

Commission or any Commissioners.

       Since being appointed as the Inspector General of the SEC in December 2007, my

Office has issued numerous audit and investigative reports involving issues critical to

SEC operations and the investing public. These have included comprehensive audit

reports on important topics such as the factors that led to the collapse of Bear Stearns, the

Division of Enforcement’s (Enforcement) efforts pertaining to complaints about naked

short selling, and the SEC’s oversight of credit rating agencies. We have also issued

investigative reports regarding a wide range of allegations including claims of improper

securities trading by SEC employees, preferential treatment given to high-level securities

industry officials, retaliatory termination, Enforcement’s failure to vigorously pursue an

investigation, and perjury by supervisory Commission attorneys.

                      Request to Undertake Madoff Investigation

       On the late evening of December 16, 2008, former SEC Chairman Christopher

Cox contacted me and asked my Office to undertake an investigation into allegations

made to the SEC regarding Bernard L. Madoff (Madoff), who had just confessed to




                                            126
operating a multi-billion dollar Ponzi scheme, and the reasons why the SEC had found

these allegations to be not credible.

                      Commencement of our Madoff Investigation

       We began our investigation immediately. On December 18, 2008, we issued a

document preservation notice to the entire SEC, stating that the OIG had initiated an

investigation regarding all Commission examinations, investigations or inquiries

involving Madoff, and/or any related individuals or entities. We formally requested that

each SEC employee and contractor preserve all electronically-stored information and

paper records related to Madoff in their original format.

       We also took immediate steps to begin gathering evidence. On December 17,

2008, we initiated our first request for e-mail records from the SEC’s Office of

Information Technology (OIT). Over the course of the investigation, the OIG made

numerous requests from OIT for e-mails, including: (1) all e-mails of former Office of

Compliance Inspections and Examinations (OCIE) employee Eric Swanson during his

tenure with the SEC; (2) all e-mails of six staff members who were involved in the SEC’s

investigation of the Madoff firm that was initiated in 2006 for the period from January

2006 through January 2008; (3) all e-mails for SEC Headquarters, New York Regional

Office (NYRO) and Boston Regional Office (BRO) staff members from January 1, 1999,

through December 11, 2008, that contained the word “Madoff”; (4) additional e-mails for

approximately 68 current and former SEC employees for various time periods relevant to

the investigation, ranging from 1999 to 2009. In all, we estimate that we obtained and

searched approximately 3.7 million e-mails during the course of our investigation.




                                            127
       On December 24, 2008, we sent comprehensive document requests to both

Enforcement and OCIE, specifying the documents and records we required to be

produced for the investigation. We followed up with memoranda to OCIE in April, May

and June of 2009. We also had follow-up communications with Enforcement on January

21, 2009 and July 22, 2009. We further had numerous e-mail and telephonic

communications with both OCIE and Enforcement regarding the scope and timing of the

document requests and responses, as well as meetings to clarify and expand the document

requests as necessary.

       We collected all the information produced in response to our document

production request. We then carefully reviewed and analyzed the investigative records of

all SEC investigations conducted relating to Madoff, the Madoff firm, members of

Madoff’s family, and Madoff’s associates from 1975 to the present.

       During the investigation, we also reviewed the workpapers and examination files

of nine SEC examinations of Madoff’s firms from 1990 to December 11, 2008. Where

documents from the examinations were not available, we sought testimony and conducted

interviews of current and former SEC personnel who had worked on the examinations.

       We also sought information and documentation from third parties in order to

undertake our own analysis of Madoff’s trading records. During the course of the OIG

investigation, we requested and obtained records from: (1) the Depository Trust

Company (DTC) relating to position reports for Madoff’s firm; (2) the National

Securities Clearing Corporation (NSCC) relating to clearing data records for executions

effected by Madoff’s firm; and (3) the Financial Industry Regulatory Authority (FINRA)

Order Audit Trail System data (OATS) submitted by Madoff’s firm for six National



                                          128
Association of Securities Dealers Automated Quotations (NASDAQ)-listed stocks and

the NASDAQ Automated Confirmation of Transactions (ACT) database for a trading

period in March of 2005.


                                  Retention of Experts

       In order to assist us in the Madoff investigation, we retained two sets of outside

consultants. In February 2009, we retained FTI Consulting, Inc. (FTI engagement team)

to assist with the review of the examinations of Madoff and his firms that were conducted

by the SEC. Members of the FTI engagement team engaged by the OIG included Charles

R. Lundelis, Jr., Senior Managing Director, Forensic and Litigation Consulting; Simon

Wu, Managing Director, Forensic and Litigation Consulting; John C. Crittenden III,

Managing Director, Corporate Finance Group; and James Conversano, Director, Forensic

and Litigation Consulting. Each individual member of the FTI engagement team brought

a unique and specialized experience to the analyses that FTI engagement team conducted,

including expertise in complex financial fraud investigations, securities-related

inspections and examinations, hedge fund operations, cash flow analysis and valuations,

market regulation rules, market structure issues, accounting fraud, investment suitability,

the underwriting process and compliance and due diligence practices.

       At our direction, the FTI engagement team conducted a thorough review of all

relevant workpapers and documents associated with the OCIE examinations of Madoff’s

firm, scrutinized the conduct of the Madoff-related SEC examinations and investigations,

and analyzed whether the SEC examiners overlooked red flags that could have led to the

discovery of Madoff’s Ponzi scheme. The FTI engagement team also replicated aspects of




                                            129
the OCIE cause examinations of Madoff to determine whether the SEC sought the

appropriate information in the examinations and analyzed that information correctly.

       In addition, OIT advised us during the course of our investigation that there were

substantial gaps in the e-mails we were seeking to review as part of our investigation

because of failures to back up tapes, hardware or software failures during the backup

process, and/or lost, mislabeled or corrupted tapes. In order to ensure that we were able

to conduct a thorough and comprehensive investigation, in June 2009, we retained the

services of First Advantage Litigation Consulting Services (First Advantage) to assist us

in the restoration and production of relevant electronic data. First Advantage’s team had

significant experience in leading numerous large-scale electronic discovery consulting

projects, as well as assisting with highly sensitive and confidential investigations for

corporations and the Federal Bureau of Investigation.

         In connection with its retention on the Madoff investigation, First Advantage

provided consulting and technical support to the OIG and the SEC, and was able to

successfully preserve and restore potentially relevant data within the universe of

electronic data we had requested from OIT. As a result, we were able to review

additional Madoff-related e-mails that were pertinent to our investigation.

          Testimony and Interviews Conducted in the Madoff Investigation

       We also conducted 140 testimonies under oath or interviews of 122 individuals

with knowledge of facts or circumstances surrounding the SEC’s examinations and/or

investigations of Madoff and his firms. We interviewed all current or former SEC

employees who had played any significant role in the SEC’s significant examinations and

investigations of Madoff and his firms over a period spanning approximately 20 years.




                                            130
                            The OIG’s Investigative Team

       I think it appropriate to acknowledge the extraordinary efforts of the OIG

Investigative team that I have been honored to lead in conducting this important

investigation. These included Deputy Inspector General Noelle Frangipane, Assistant

Inspector General for Investigations David Fielder, and Senior Counsels Heidi Steiber,

David Witherspoon and Christopher Wilson. Additional assistance was provided to this

investigation by my Assistant, Roberta Raftovich, in coordinating many of the

administrative aspects of compiling the report. Without the incredible devotion and

exceptional work of these individuals, we would not have been able to complete this

investigation and present a thorough and comprehensive report within such a short period

of time.

                 Issuance of Comprehensive Report of Investigation

       On August 31, 2009, we issued to the Chairman of the SEC a comprehensive

report of investigation (ROI) in the Madoff matter containing over 450 pages of analysis.

The ROI detailed the SEC’s response to all complaints it received regarding the activities

of Madoff and his firms, and traced the path of these complaints through the Commission

from their inception, reviewing what, if any, investigative or examination work was

conducted with respect to the allegations. Further, the ROI assessed the conduct of

examinations and/or investigations of Madoff and his firm by the SEC and analyzed

whether the SEC examiners or investigators overlooked red flags (which other entities

conducting due diligence may have been identified) that could have led to a more

comprehensive examination or investigation and possibly the discovery of Madoff’s

Ponzi scheme.




                                           131
       Our ROI also analyzed the allegations of conflicts of interest arising from

relationships between any SEC officials or staff and members of the Madoff family. This

included an examination of the role that former SEC OCIE Assistant Director Eric

Swanson (Swanson), who eventually married Madoff’s niece Shana Madoff, may have

played in the examination or other work conducted by the SEC with respect to Madoff or

related entities, and whether such role or relationship in any way affected the manner in

which the SEC conducted its regulatory oversight of Madoff and any related entities.

       We have also considered the extent to which the reputation and status of Madoff

and the fact that he served on SEC Advisory Committees, participated on securities

industry boards and panels, and had social and professional relationships with SEC

officials, may have affected Commission decisions regarding investigations,

examinations and inspections of his firm.

                          Results of the Madoff Investigation

       The OIG investigation found that between June 1992 and December 2008 when

Madoff confessed, the SEC received six substantive complaints that raised significant red

flags concerning Madoff’s investment adviser operations and should have led to

questions about whether Madoff was actually engaged in trading. We also found that the

SEC was aware of two articles regarding Madoff’s investment operations that appeared in

reputable publications in 2001 and questioned Madoff’s unusually consistent investment

returns.

       Our report concluded that notwithstanding these six complaints and two articles,

the SEC never conducted a competent and thorough examination or investigation of




                                            132
Madoff for operating a Ponzi scheme and that, had such a proper examination or

investigation been conducted, the SEC would have been able to uncover the fraud.

       The first complaint, which was brought to the SEC’s attention in 1992, related to

allegations that an unregistered investment company was offering “100%” safe

investments with high and extremely consistent rates of return over significant periods of

time to “special” customers. The SEC actually suspected the investment company was

operating a Ponzi scheme and learned in its investigation that all of the investments were

placed entirely through Madoff and consistent returns were claimed to have been

achieved for numerous years without a single loss.

       The second complaint was very specific, and different versions of it were

provided to the SEC in May 2000, March 2001 and October 2005. The complaint

submitted in 2005 was entitled, “The World’s Largest Hedge Fund is a Fraud,” and

detailed approximately 30 red flags indicating that Madoff was operating a Ponzi scheme,

a scenario it described as “highly likely.” These red flags included the impossibility of

Madoff’s returns, particularly the consistency of those returns and the unrealistic volume

of options Madoff represented to have traded.

       In May 2003, the SEC received a third complaint from a respected hedge fund

manager identifying numerous concerns about Madoff’s strategy and purported returns.

Specifically, the complaint questioned whether Madoff was actually trading options in

the volume he claimed, noted that Madoff’s strategy and purported returns were not

duplicable by anyone else, and stated that Madoff’s strategy had no correlation to the

overall equity markets in over ten years. According to an SEC manager, the hedge fund

manager’s complaint laid out issues that were “indicia of a Ponzi scheme.”




                                            133
        The fourth complaint was part of a series of internal e-mails of another registrant

that the SEC discovered in April 2004. The e-mails described the red flags that a

registrant’s employees had identified while performing due diligence on their own

Madoff investment using publicly-available information. The red flags identified

included Madoff’s incredible and highly unusual fills for equity trades, his

misrepresentation of his options trading, and his unusually consistent, non-volatile returns

over several years. One of the internal e-mails provided a step-by-step analysis of why

Madoff must be misrepresenting his options trading. The e-mail clearly explained that

Madoff could not be trading on an options exchange because of insufficient volume and

could not be trading options over-the-counter because it was inconceivable that he could

find a counterparty for the trading. The SEC examiners who initially discovered the

e-mails viewed them as indicating “some suspicion as to whether Madoff is trading at

all.”

        The SEC received the fifth complaint in October 2005 from an anonymous

informant. This complaint stated, “I know that Madoff [sic] company is very secretive

about their operations and they refuse to disclose anything. If my suspicions are true,

then they are running a highly sophisticated scheme on a massive scale. And they have

been doing it for a long time.” The informant also stated, “After a short period of time, I

decided to withdraw all my money (over $5 million).”

        The sixth complaint was sent to the SEC by a “concerned citizen” in December

2006, and advised the SEC to look into Madoff and his firm as follows:

               Your attention is directed to a scandal of major proportion
               which was executed by the investment firm Bernard L.
               Madoff . . . . Assets well in excess of $10 Billion owned by
               the late [investor], an ultra-wealthy long time client of the


                                            134
                 Madoff firm have been “co-mingled” with funds controlled
                 by the Madoff company with gains thereon retained by
                 Madoff.

          In March 2008, the SEC Chairman’s Office received a second copy of the

previous complaint, with additional information from the same source regarding

Madoff’s involvement with the investor’s money, as follows:

                 It may be of interest to you to that Mr. Bernard Madoff
                 keeps two (2) sets of records. The most interesting of
                 which is on his computer which is always on his person.

          The two 2001 journal articles also raised significant questions about Madoff’s

unusually consistent returns. One of the articles noted his “astonishing ability to time the

market and move to cash in the underlying securities before market conditions turn

negative and the related ability to buy and sell the underlying stocks without noticeably

affecting the market.” This article also observed that “experts ask why no one has been

able to duplicate similar returns using [Madoff’s] strategy.” The second article quoted a

former Madoff investor as saying, “Anybody who’s a seasoned hedge-fund investor

knows the split-strike conversion is not the whole story. To take it at face value is a bit

naïve.”

          The complaints all contained specific information and could not have been fully

and adequately resolved without a thorough examination and investigation of Madoff for

operating a Ponzi scheme. The journal articles should have reinforced the concerns

expressed in the complaints about how Madoff could have been achieving such unusually

high returns.

          According to the FTI engagement team, the most critical step in examining or

investigating a potential Ponzi scheme is to verify the subject’s trading through an




                                             135
independent third party. The OIG investigation found that the SEC conducted two

investigations and three examinations related to Madoff’s investment adviser business

based upon the detailed and credible complaints that raised the possibility that Madoff

was misrepresenting his trading and could have been operating a Ponzi scheme. Yet, at

no time did the SEC ever verify Madoff’s trading through an independent third party and,

in fact, SEC staff never actually conducted a Ponzi scheme examination or investigation

of Madoff.

       The first examination and first Enforcement investigation involving Madoff were

conducted in 1992 after the SEC received information that led it to suspect that a Madoff

associate had been conducting a Ponzi scheme. Yet, the SEC focused its efforts on

Madoff’s associate and never thoroughly scrutinized Madoff’s operations even after

learning that Madoff made all the investment decisions and being apprised of the

remarkably consistent returns Madoff had claimed to achieve over a period of numerous

years with a basic trading strategy. While the SEC ensured that all of Madoff’s

associate’s customers received their money back, it took no steps to investigate Madoff.

The SEC focused its investigation too narrowly and seemed not to have considered the

possibility that Madoff could have taken the money that was used to pay back his

associate’s customers from other clients for which Madoff may have had held

discretionary brokerage accounts. In the examination of Madoff, although the SEC did

seek records maintained by DTC (an independent third party), they obtained those DTC

records from Madoff rather than going to DTC itself to verify if trading occurred. Had

the SEC sought records from DTC, there is an excellent chance it would have uncovered

Madoff’s Ponzi scheme in 1992.




                                           136
       In 2004 and 2005, the SEC’s examination unit, OCIE, conducted two parallel

cause examinations of Madoff based upon the hedge fund manager’s complaint and the

series of internal e-mails the SEC had discovered. The examinations were remarkably

similar in nature. There were initial significant delays in the commencement of the

examinations, notwithstanding the urgency of the complaints. The teams assembled were

relatively inexperienced, and there was insufficient planning for the examinations. The

scopes of the examination were in both cases too narrowly focused on the possibility of

front-running, with no significant attempts made to analyze the numerous red flags about

Madoff’s trading and returns.

       During the course of both these examinations, the examination teams discovered

suspicious information and evidence and caught Madoff in contradictions and

inconsistencies. However, they either disregarded these concerns or simply asked

Madoff about them. Even when Madoff’s answers were seemingly implausible, the SEC

examiners accepted them at face value.

       In both examinations, the examiners made the surprising discovery that Madoff’s

mysterious hedge fund business was making significantly more money than his well-

known market-making operation. However, none of the examiners identified this

revelation as a cause for concern.

       Astoundingly, both examinations were open at the same time in different offices

without either office knowing the other one was conducting a virtually identical

examination. In fact, it was Madoff himself who informed one of the examination teams

that the other examination team had already received the information being sought from

him.




                                           137
       In the first of the two OCIE examinations, the examiners drafted a letter to the

National Association of Securities Dealers (NASD) (another independent third party)

seeking independent trade data, but they never sent the letter, claiming that it would have

been too time-consuming to review the data they would have obtained. The OIG’s expert

opined that had the letter to the NASD been sent, the data collected would have provided

the information necessary to reveal Madoff’s Ponzi scheme. In the second examination,

the OCIE Assistant Director sent a document request to a financial institution that Madoff

claimed he used to clear his trades, requesting trading done by or on behalf of particular

Madoff feeder funds during a specific time period, and received a response that there was

no transaction activity in Madoff’s account for that period. However, the Assistant

Director did not determine that the response required any follow-up and the examiners

working under the Assistant Director testified that the response was not shared with them.

       Both examinations concluded with numerous unresolved questions and without

any significant attempt to examine the possibility that Madoff was misrepresenting his

trading and operating a Ponzi scheme.

       The investigation that arose from the most detailed complaint provided to the

SEC, which explicitly stated it was “highly likely” that “Madoff was operating a Ponzi

scheme,” never really investigated the possibility of a Ponzi scheme. The relatively

inexperienced Enforcement staff failed to appreciate the significance of the analysis in

the complaint, and almost immediately expressed skepticism and disbelief about the

complaint. Most of the investigation was directed at determining whether Madoff should

register as an investment adviser or whether Madoff’s hedge fund investors’ disclosures

were adequate.




                                            138
       As with the examinations, the Enforcement staff almost immediately caught

Madoff in lies and misrepresentations, but failed to follow up on inconsistencies. They

rebuffed offers of additional evidence from the complainant, and were confused about

certain critical and fundamental aspects of Madoff’s operations. When Madoff provided

evasive or contradictory answers to important questions in testimony, the staff simply

accepted his explanations as plausible.

       Although the Enforcement staff made attempts to seek information from

independent third parties, they failed to follow up on these requests. They reached out to

the NASD and asked for information on whether Madoff had options positions on a

certain date. However, when they received a report that there were in fact no options

positions on that date, they did not take any further steps. An Enforcement staff attorney

made several attempts to obtain documentation from European counterparties (another

independent third party) and, although a letter was drafted, the Enforcement staff decided

not to send it. Had any of these efforts been fully executed, they would have led to

Madoff’s Ponzi scheme being uncovered.

       The OIG also found that numerous private entities conducted basic due diligence

of Madoff’s operations and, without regulatory authority to compel information, came to

the conclusion that an investment with Madoff was unwise. Specifically, Madoff’s

description of both his equity and options trading practices immediately led to suspicions

about his operations. With respect to his purported trading strategy, many private entities

simply did not believe that it was possible for Madoff to achieve his stated level of

returns using a strategy described by some industry leaders as common and

unsophisticated. In addition, there was a great deal of suspicion about Madoff’s




                                            139
purported options trading, with several entities not believing that Madoff could be trading

options in such high volumes where there was no evidence that any counterparties had

been trading options with Madoff.

       The private entities’ conclusions were drawn from the same red flags regarding

Madoff’s operations that the SEC considered in its examinations and investigations, but

ultimately dismissed.

       We also found that investors who may have been uncertain about whether to

invest with Madoff were reassured by the fact that the SEC had investigated and/or

examined Madoff, or entities that did business with Madoff, and found no evidence of

fraud. Moreover, we found that Madoff proactively informed potential investors that the

SEC had examined his operations. When potential investors expressed hesitation about

investing with Madoff, he cited the prior SEC examinations to establish credibility and

allay suspicions or investor doubts that may have arisen while due diligence was being

conducted. Thus, the fact the SEC had conducted examinations and investigations and

did not detect the fraud lent credibility to Madoff’s operations and had the effect of

encouraging additional individuals and entities to invest with him.

       We did not, however, find evidence that any SEC personnel who worked on an

SEC examination or investigation of Madoff or his firms had any financial or other

inappropriate connection with Madoff or the Madoff family that influenced the conduct

of the examination or investigatory work. We also did not find that former SEC Assistant

Director Eric Swanson’s romantic relationship with Bernard Madoff’s niece, Shana

Madoff, influenced the conduct of the SEC examinations of Madoff and his firm. We

further did not find that senior officials at the SEC directly attempted to influence




                                            140
examinations or investigations of Madoff or the Madoff firm, nor was there evidence any

senior SEC official interfered with the staff’s ability to perform its work.

       As I discussed earlier, we did find that despite numerous credible and detailed

complaints, the SEC never properly examined or investigated Madoff’s trading and never

took the necessary, but basic, steps to determine if Madoff was operating a Ponzi scheme.

Had these efforts been made with appropriate follow-up at any time beginning in June of

1992 until December 2008, the SEC could have uncovered the Ponzi scheme before

Madoff confessed.

       As a result of our findings, we have recommended that the Chairman carefully

review our report and share with OCIE and Enforcement management the portions of this

report that relate to performance failures by those employees who still work at the SEC,

so that appropriate action (which may include performance-based action) is taken, on an

employee-by-employee basis, to ensure that future examinations and investigations are

conducted in a more appropriate manner and the mistakes and failures outlined in this

report are not repeated.

                                 Additional OIG Reports

       While the report we issued to the Chairman on August 31st describes in detail the

factual circumstances surrounding the Madoff-related complaints received by the SEC

and the SEC’s examinations and investigations of Madoff over the years, my Office plans

to issue three additional reports relating to these matters. Because our investigation

identified systematic breakdowns in the manner in which the SEC conducted its

examinations and investigations, we plan to issue two separate audit reports providing the




                                             141
SEC with specific and concrete recommendations to improve the operations of both

OCIE and Enforcement.

        With respect to recommendations concerning OCIE, our expert, FTI, has

conducted extensive fieldwork to analyze further the adequacy of OCIE’s examinations

of Madoff. The FTI engagement team reviewed our August 31, 2009 Report of

Investigation, as well as related findings, exhibits, witness testimony and other supporting

documentation (i.e., OCIE examination staff work papers), and interviewed over a dozen

key personnel representing OCIE’s broker-dealer, investment adviser and risk assessment

programs. In addition, the FTI Engagement Team reviewed OCIE’s policies and

procedures with regard to its examination processes and other third party records,

including FINRA order and execution data and DTC and NSCC records. The FTI

Engagement Team also was granted access to OCIE’s various Intranet sites, including the

Broker-Dealer, Investment Adviser/Investment Company, Office of Market Oversight,

and Training Branch sites, in order to view its examination policies and procedures.

        The FTI engagement team is currently finalizing a report that will describe its

analysis of OCIE’s examination process and provide numerous “lessons learned” arising

from its analysis, with specific recommendations to improve OCIE’s operations. While

these recommendations are currently in draft status, I can report that the

recommendations we are considering include the following:

    !   Establishing a protocol for SEC examiners to identify relevant information from
        industry news articles and other sources outside of the agency;

    !   Establishing a protocol that explains how to identify red flags and potential
        violations of securities law based on an evaluation of information found in
        industry news articles and other relevant industry sources;




                                            142
!   The implementation of an OCIE-related collection system that adequately
    captures information relating to the nature and source of each tip or complaint
    and also chronicles the vetting process to document why each tip or complaint
    was or was not acted upon and who made that determination;

!   Mandating procedures for review of credible and compelling tips and complaints;

!   Mandating timelines for the vetting of tips and complaints, as well as for the
    commencement of cause examinations;

!   Requiring proper procedures for the use of scope memoranda to ensure that
    examinations conducted in response to tips and complaints that are received are
    not too narrowly focused;

!   Establishing procedures for the timely modification of scope memoranda when
    significant new facts and issues emerge;

!   Ensuring the appropriate review and analysis of planning memoranda for cause
    examinations to ensure that cause examinations are thoroughly planned based
    upon the tip or complaint that triggered the examination;

!   Creating procedures to ensure that all steps of the examination methodology, as
    stated in the planning memorandum, are completed before the examination is
    closed;

!   Requiring the documentation of all substantive interviews conducted by OCIE of
    registrants and third parties during OCIE’s pre-examination activities and during
    the course of an examination;

!   Prescribing procedures for the preparation of workpapers for an OCIE
    examination to ensure sufficient detail to provide a clear understanding of its
    purpose, source, and the conclusions reached;

!   Establishing, reviewing and testing procedures for logging all OCIE
    examinations into an examination tracking system;

!   Ensuring that the focus of an examination is determined in an appropriate and
    thoughtful manner, and not simply based upon on the availability or the skills of
    a particular group of examiners;

!   Ensuring that personnel with the appropriate skills and expertise are assigned to
    cause examinations with unique or discrete needs;

!   Requiring that a Branch Chief, or a similarly-designated lead manager, be
    assigned to every substantive project including all cause examinations;



                                        143
!   Requiring the development of a formal plan within OCIE to ensure that OCIE
    staff and managers are obtaining and maintaining professional designations
    and/or licenses by industry certification programs that are relevant to their
    examination activities;

!   Recommending the development and implementation of interactive exercises to
    be administered by OCIE training staff or an independent third party and
    reviewed prior to hiring new OCIE employees in order to evaluate the relevant
    skills necessary to perform examinations;

!   The training of OCIE examiners in the mechanics of securities settlement, both in
    the United States and in major foreign markets;

!   The training of OCIE examiners in methods to access the expertise of foreign
    regulators, such as the United Kingdom’s Financial Services Authority, as well as
    foreign securities exchanges and foreign clearing and settlement entities;

!   Requiring OCIE examination staff to verify a test sample of trading or balance
    data with counterparties and other independent third parties such as FINRA,
    DTC, or NSCC whenever there are specific allegations of fraud involved in an
    examination;

!   Recommending the training of OCIE examiners jointly with the Office of
    Economic Analysis economists by FINRA, other self-regulatory organizations
    (SROs) and exchange staff in understanding trading databases, regional
    exchanges, option exchanges, and DTC/NSCC, etc.;

!   Ensuring that OCIE staff have direct access to certain databases maintained by
    SROs or other similar entities in order to allow examiners to access necessary
    data for verification or analysis of registrant data;

!   Mandating procedures to ensure that when an examination team is pulled off an
    examination for a project of higher priority, the examination team return to the
    previous examination upon completion of the other project and bring the prior
    examination to a conclusion;

!   Implementing procedures for tracking the progress of all cause examinations,
    including the number of cause examinations opened, the number ongoing and the
    number closed for each month; and

!   Requesting OCIE management provide express support to their examiners
    regarding the examiners’ pursuit of evidence in the course of an examination,
    even if pursuing that evidence requires contacting customers or clients of the
    target of that examination.




                                       144
        We are also finalizing a report that analyzes “lessons learned” from the

investigations conducted by the SEC’s Enforcement Division of Madoff and prescribes

concrete recommendations for improvement within Enforcement. For this analysis, we

launched an extensive survey questionnaire to Enforcement staff and management in both

headquarters and the regional offices. This survey was designed to obtain feedback from

Enforcement staff on numerous topics, such as allocation of resources, performance

measurement, case management procedures, communication, adequacy of policies and

procedures, employee morale, and management efficiency and effectiveness.

       The Enforcement-related recommendations that we are currently considering

include the following:

   !   Establishing formal guidance for evaluating various types of complaints (e.g.,
       Ponzi schemes) and training of appropriate staff on the use of such guidance;

   !   Ensuring that the SEC’s tip and complaint handling system provides for data
       capture of relevant information relating to the vetting process to document why a
       complaint was or was not acted upon and who made that determination;

   !   Requiring tips and complaints to be reviewed by individuals experienced in the
       subject matter to which the complaint or tip relates, prior to a decision not to take
       further action;

   !   Establishing guidance to require that all complaints that appear on the surface to
       be credible and compelling be probed further by in-depth interviews with the
       sources to assess the complaints’ validity and to determine what issues need to be
       investigated;

   !   The training of staff to ensure they are aware of the guidelines contained in
       Section 3 of the Enforcement Manual and Title 17 of the Code of Federal
       Regulations, Section 202.10, for obtaining information from outside sources;

   !   Requiring annual review and testing of the effectiveness of Enforcement’s
       policies and procedures with regard to its tip and complaint handling system;

   !   Implementing procedures to ensure that investigations are assigned to teams
       comprised of individuals who have sufficient knowledge of the pertinent subject
       matter (e.g. Ponzi schemes);


                                            145
   !   The training of staff on what resources and information are available within the
       Commission, including how and when assistance from internal units should be
       requested;

   !   Mandating that planning memoranda be prepared at the beginning of an
       investigation and that the plan include a section identifying what type of expertise
       or assistance is needed from others within and outside the Commission;

   !   Requiring that after the planning memorandum is drafted, it be circulated to all
       team members assigned to the investigation, and all team members then meet to
       discuss the investigation approach, methodology and any concerns team members
       wish to raise;

   !   Conducting periodic internal reviews of any newly-implemented policies and
       procedures related to information sharing with divisions and offices outside of
       Enforcement to ensure they are operating efficiently and effectively and necessary
       changes are made;

   !   Requiring that the planning memoranda and associated scope, methodology and
       time frames be routinely reviewed by an investigator’s immediate supervisor to
       ensure investigations remain on track and to determine whether adjustments in
       scope, etc. are necessary;

   !   Ensuring that sufficient resources, both supervisory and support, are dedicated to
       investigations up front to provide for adequate and thorough supervision of cases
       and effective handling of administrative tasks;

   !   Establishing policies and procedures to ensure staff have an understanding of
       what types of information should be validated during investigations with
       independent parties such as FINRA, DTC and the Chicago Board Options
       Exchange;

   !   Updating Enforcement’s complaint handling procedures to ensure complaints
       received are properly vetted even if an investigation is pending closure; and

   !   Conducting periodic internal reviews to ensure that Matters Under Inquiry (MUIs)
       are opened in accordance with any newly-developed Commission guidance and
       examining ways to streamline the case closing process.

       Both of these reports containing recommendations to OCIE and Enforcement

will be finalized and issued within the next few weeks. We also plan to issue an

additional report analyzing the reasons that OCIE’s investment adviser unit did not



                                           146
conduct an examination of Madoff after he was forced to register as an investment

adviser in 2006, and prescribing recommendations as appropriate to improve this process.

We plan to issue this report by the end of November 2009.

       My Office is committed to following up with respect to all the recommendations

that we will be making to ensure that significant changes and improvements are made in

the SEC’s operations as a result of our findings in the Madoff investigation. We are

aware that improvements have already been begun under the direction of Chairman

Schapiro even prior to our report being issued. We are confident that under Chairman

Schapiro’s leadership, the SEC will carefully review our analyses and reports and take

the appropriate steps to implement our recommendations and ensure that fundamental

changes are made in the SEC’s operations so that the errors and failings we found in our

investigation are properly remedied and not repeated in the future.

                                       Conclusion

       In conclusion, we appreciate the Chairman’s and the Committee’s interest in the

SEC and our Office and, in particular, in the facts and circumstances pertinent to the

Madoff Ponzi scheme. I believe that the Committee’s and Congress’s continued

involvement with the SEC is helpful in strengthening the accountability and effectiveness

of the Commission. Thank you.




                                           147
124
                                                 Appendix B




             Testimony of H. David Kotz
               Inspector General of the
         Securities and Exchange Commission




!


      Before the Subcommittee on Oversight and
    Investigations, Committee on Financial Services
             U.S. House of Representatives



                Monday July 13, 2009
                    2:00 p.m.
                                       Introduction

       Good afternoon. Thank you for the opportunity to testify today before this

Subcommittee on the subject of “Preventing Unfair Trading by Government Officials” as

the Inspector General of the Securities and Exchange Commission (SEC or Commission).

I appreciate the interest of the members of the Subcommittee in the SEC and the Office

of Inspector General. In my testimony today, I am representing the Office of Inspector

General, and the views that I express are those of my Office, and do not necessarily

reflect the views of the Commission or any Commissioners.

       I would like to begin my remarks this afternoon by discussing the role of my

Office and the oversight efforts we have undertaken during the past year. The mission of

the Office of Inspector General is to promote the integrity, efficiency and effectiveness of

the critical programs and operations of the SEC. The SEC Office of Inspector General

includes the positions of the Inspector General, Deputy Inspector General, Counsel to the

Inspector General, and has staff in two major areas: Audits and Investigations.

       Our Office of Audits conducts, coordinates and supervises independent audits and

evaluations related to the Commission’s internal programs and operations. The primary

purpose of conducting an audit is to review past events with a view toward ensuring

compliance with applicable laws, rules and regulations and improving future

performance. Upon completion of an audit or evaluation, the OIG issues an independent

report that identifies any deficiencies in Commission operations, programs, activities, or

functions and makes recommendations for improvements in existing controls and

procedures.




                                            150
       Over the past year, we have issued numerous audit reports involving issues

critical to SEC operations and the investing public, including a comprehensive report

analyzing the Commission’s oversight of the SEC’s Consolidated Supervised Entity

(CSE) program, which included Bear Stearns, Goldman Sachs, Morgan Stanley, Merrill

Lynch and Lehman Brothers, and providing a detailed examination of the adequacy of the

Commission’s monitoring of Bear Stearns, including the factors that led to its collapse.

In the past few months, we have also completed audits of the $178 million in

disgorgement waivers that the SEC Division of Enforcement (Enforcement) granted

between October 2005 and May 2008, and Enforcement’s practices and procedures for

responding to and processing naked short selling complaints. We anticipate issuing

several additional audit reports in the next few months, including a comprehensive

analysis of the SEC’s oversight of the Nationally Recognized Statistical Rating

Organizations.

       Our Office of Investigations examines allegations of violations of statutes, rules

and regulations, and other misconduct by Commission staff and contractors. We

carefully review and analyze the complaints we receive and, if warranted, conduct a

preliminary inquiry or full investigation into a matter. The misconduct investigated

ranges from fraud and other types of criminal conduct to violations of Commission rules

and policies and the Government-wide conduct standards. The Office of Investigations

conducts thorough and independent investigations into allegations received in accordance

with the applicable Quality Standards for Investigations. Where allegations of criminal

conduct are involved, we notify and work with the Department of Justice and the Federal

Bureau of Investigation (FBI) as appropriate.



                                           151
       Several of these investigations conducted by our staff have involved senior-level

Commission employees and represent matters of great concern to the Commission,

Congressional officials and the general public. Where appropriate, we have reported

evidence of improper conduct and made recommendations for disciplinary actions,

including removals. Specifically, over the past year and a half, we have issued

investigative reports regarding, inter alia, claims of improper preferential treatment given

to prominent persons, retaliatory termination, the Division of Enforcement’s failures to

pursue Enforcement investigations vigorously or in a timely manner, perjury by

supervisory Commission attorneys, misrepresentation of professional credentials,

falsification of personnel forms, lack of impartiality in the performance of official duties,

unauthorized disclosure of non-public information related to an Enforcement

investigation, and the misuse of official position, government resources and official time.

       In addition to the work I just described, we are conducting a wide-ranging

investigation and evaluation of matters related to Bernard Madoff and affiliated entities.

We have made substantial progress in our investigation and plan to issue shortly a

comprehensive investigative report detailing all the examinations and investigations that

the SEC conducted of Madoff or Madoff-related entities from 1992 until the present, and

analyzing the reasons why the SEC did not uncover the Madoff Ponzi scheme,

notwithstanding these examinations and investigations. We have already interviewed

over 100 witnesses and reviewed millions of e-mails and documents in connection with

these investigative efforts. We also plan to issue two additional reports providing

specific and detailed recommendations for improvement of both the SEC’s Division of




                                            152
Enforcement and the Office of Compliance Inspections and Examinations, which will

incorporate the findings from our investigative report.

     The Investigation of the Securities Transactions of Enforcement Attorneys

       It is with this background in mind that I wish to discuss an investigation that we

recently concluded relating to the securities transactions of two SEC Enforcement

attorneys over a two-year period. Our office received information from the SEC’s Ethics

Office that a particular Enforcement attorney was trading securities very frequently. As

we began investigating this Enforcement attorney’s trading activity, we identified another

Enforcement attorney who was a friend of this individual and with whom the first

attorney often discussed securities transactions and open Enforcement investigations

during regular weekly lunches and via e-mail.

       We conducted a year-long investigation of these Enforcement attorneys, which

encompassed a comprehensive review and analysis of more than two years of brokerage

records, ethics filings, securities transaction filings, and e-mail records. We also took

sworn, on-the-record testimony of numerous SEC Enforcement attorneys, and conducted

interviews of several other SEC staff members.

       On March 3, 2009, we issued our report of investigation to the agency. Our

investigation revealed suspicious conduct, appearances of improprieties, and evidence of

possible trading based on non-public information on the part of the two SEC

Enforcement attorneys. Because of the seriousness of the information that our

investigation uncovered, we referred the matter to the United States Attorney’s Office of

the District of Columbia’s Fraud and Public Corruption Section, which, together with the

FBI, is conducting an investigation of possible criminal and civil violations. Because this




                                            153
joint U.S. Attorney/FBI investigation is ongoing, I am somewhat limited in my ability to

discuss the details of this matter.

        In addition to the suspicions of insider trading, our investigation found that the

Enforcement attorneys committed numerous violations of the SEC’s securities reporting

requirements. For example, although SEC rules require employees to file a notification

form within five business days of the purchase or sale of every security, these

Enforcement lawyers failed to file these forms for certain transactions. Moreover,

although the Office of Government Ethics (OGE) Form 450 requires the reporting of an

employee’s security holdings with a value greater than $1,000 at the end of each calendar

year or that generated income of more than $200 during the year, the Enforcement

attorneys failed to report certain transactions or earnings that were over these limits on

their OGE Form 450s during the two-year period we reviewed during our investigation.

We also found that the one of the Enforcement attorneys failed to clear numerous stock

transactions through an agency database prior to purchasing stocks.

        Our investigation further found generally that, although the SEC is charged with

prosecuting cases of violations of the federal securities laws, including the investigation

and prosecution of insider trading on the part of individuals and companies in the private

sector, the SEC had essentially no compliance system in place to ensure that its own

employees, with tremendous amounts of non-public information at their disposal, did not

engage in insider trading themselves. The existing disclosure requirements and

compliance system were based on the honor system, and there was no way to determine if

an employee failed to report a securities transaction as required. No spot checks were

conducted, and the SEC did not obtain duplicate brokerage account statements. In




                                             154
addition, there was little to no oversight or checking of the reports that employees filed to

determine their accuracy or even whether an employee had reported at all. Moreover,

different SEC offices received the various types of reports and did not routinely share that

information with each other.

       We also found a poor understanding and lax enforcement of the securities

transaction reporting requirements. For example, both of the Enforcement attorneys

whose trading we investigated testified that no one had ever questioned their reported

securities holdings or transactions in the decades they worked at the SEC and traded

securities. Moreover, both managers who were responsible for reviewing these

attorneys’ annual OGE Form 450s testified that they did not recall ever questioning any

SEC employees with respect to their reported securities holdings. In addition, we found

that the Enforcement attorneys and supervisors who provided information during our

investigation lacked a basic understanding of the requirements in place that govern

Commission employees’ reporting of securities transactions.

       Our investigation also found that Enforcement personnel, both managers and

staff, had different interpretations of the confidentiality policy regarding Enforcement

investigations and whether they could discuss their investigative matters with one

another. We found that the Enforcement attorneys we investigated routinely discussed

stocks and investment strategies in e-mails and in public. They maintained separate

folders entitled, “Stocks,” in their SEC e-mail accounts and, on most days, sent e-mails

from those accounts about stocks and their own stock transactions. We discovered that

one of the Enforcement attorneys traded often, and even testified that the financial

markets were her main hobby and passion. We found that this attorney spent much of her




                                            155
work day e-mailing her co-workers about various stocks. We also found that these

Enforcement attorneys shared many of the same investments and had regular weekly

lunch meetings where they often discussed the stock market, their own securities

transactions, and their SEC work and investigative cases.

       Our investigation also disclosed that one of the Enforcement attorneys sent

e-mails to his brother and sister-in-law from his SEC e-mail account during the work day

recommending particular stocks, and sometimes informing them that the other

Enforcement employee had recommended those stocks as well.

       Our report recommended that the SEC take disciplinary action against the two

Enforcement attorneys who we found violated the SEC’s securities transactions

requirements. We also provided the Commission with 11 specific recommendations to

ensure adequate monitoring of employees’ future securities transactions. These

recommendations included establishing one primary office to monitor employees’

securities transactions; instituting an integrated, computerized system for tracking and

reporting purposes; obtaining duplicate copies of brokerage record confirmations for each

securities transaction for every SEC employee; requiring employees to certify in writing

that they do not have non-public information related to each security transaction they

conduct and report; ensuring that the forms SEC employees are required to file are

checked with the existing database; requiring SEC employees’ supervisor to review a list

of pending cases to compare with a list of the securities reported by the employees;

conducting regular and thorough spot checks for compliance purposes; developing a

clear, written policy on the confidentiality of Enforcement investigations; and




                                            156
establishing comprehensive and more frequent training on all aspects of the SEC’s rules

regarding employees’ securities transactions.

                  SEC Response to the OIG’s Report of Investigation

       Our investigation underscored the need for the SEC to revamp completely its

current process for monitoring SEC employees’ securities transactions. In response to

our report, on May 22, 2009, SEC Chairman Mary Schapiro announced that the SEC

would be taking measures to address the problems we identified. These measures include

drafting a new set of internal rules governing securities transactions for all SEC

employees that will require pre-clearance of all trades and, for the first time, prohibit staff

from trading in the securities of companies under SEC investigation regardless of

whether the employee has personal knowledge of the investigation. Chairman Schapiro

also announced that the SEC was contracting with an outside firm to develop a computer

compliance system to track, audit and oversee employees’ securities transactions and

financial disclosure in real time. Chairman Schapiro further stated that she signed an

order consolidating responsibility for oversight of employees’ securities transactions and

financial disclosure reporting within the Ethics Office and authorized the hiring of a

Chief Compliance Officer.

       The OIG is pleased that the SEC is planning to take concrete steps to address the

serious issues identified by our investigation. These steps, if implemented, would satisfy

the concerns raised in our report, and would even, in a few instances, go beyond the

OIG’s recommended actions. We plan to scrutinize carefully the new processes and

system that the SEC intends to implement to ensure that they operate effectively and as

planned.




                                             157
                                Concluding Remarks

       In conclusion, we appreciate the Subcommittee’s interest in the SEC and our

Office. I believe that the Committee’s and Congress’s involvement with the SEC is

beneficial to strengthen the accountability and effectiveness of the Commission. Thank

you.




                                          158
   Help ensure the integrity of SEC operations by reporting to the OIG suspected fraud,
waste or abuse in SEC programs or operations, and SEC staff or contractor misconduct by
contacting the OIG.

   Call:
   Hotline# #        (877) 442-0854
   Main Office#      (202) 551-6061

   Web-Based Hotline Complaint Form:
   www.sec-oig.gov/ooi/hotline.html

   Fax:#      #      (202) 772-9265

   Write:
   Office of Inspector General
   U.S. Securities and Exchange Commission
   100 F Street, N.E.
   Washington, D.C. 20549-2736

   Email:
   oig@sec.gov


                    Information received is held in confidence upon request.
       While the OIG encourages complainants to provide information on how they may be
        contacted for additional information, anonymous complaints are also accepted.




                                         125
U.S. Securities
and Exchange
 Commission




      Additional copies of this report may be obtained by contacting the
                Office of Inspector General at (202) 551-6061. !

       The report is also available on the Inspector General's website at
                            http://www.sec-oig.gov.


                                      126
